<html>
<title> - THE CONTINUING CRISIS IN DARFUR</title>
<body><pre>[Senate Hearing 110-748]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 110-748
 
                    THE CONTINUING CRISIS IN DARFUR 

=======================================================================

                                HEARING



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                       ONE HUNDRED TENTH CONGRESS



                             SECOND SESSION



                               __________

                             APRIL 23, 2008

                               __________



       Printed for the use of the Committee on Foreign Relations


                   Available via the World Wide Web: 
              http://www.gpoaccess.gov/congress/index.html

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

47-742 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 


























                COMMITTEE ON FOREIGN RELATIONS          

           JOSEPH R. BIDEN, Jr., Delaware, Chairman          
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       NORM COLEMAN, Minnesota
BARBARA BOXER, California            BOB CORKER, Tennessee
BILL NELSON, Florida                 GEORGE V. VOINOVICH, Ohio
BARACK OBAMA, Illinois               LISA MURKOWSKI, Alaska
ROBERT MENENDEZ, New Jersey          JIM DeMINT, South Carolina
BENJAMIN L. CARDIN, Maryland         JOHNNY ISAKSON, Georgia
ROBERT P. CASEY, Jr., Pennsylvania   DAVID VITTER, Louisiana
JIM WEBB, Virginia                   JOHN BARRASSO, Wyoming
              Antony J. Blinken, Staff Director          
       Kenneth A. Myers, Jr., Republican Staff Director          

                             (ii)          

  




















                            C O N T E N T S

                              ----------                              
                                                                   Page

Almquist, Hon. Katherine J., Assistant Administrator for Africa, 
  U.S. Agency for International Development, Washington, DC......    44

      Prepared statement.........................................    47


Biden, Hon. Joseph R., Jr., U.S. Senator From Delaware...........     1


Lugar, Hon. Richard G., U.S. Senator From Indiana................     3


Lute, Jane Holl, Officer in Charge, Department of Field Support, 
  United Nations, New York, NY...................................     5


Williamson, Hon. Richard, President's Special Envoy to Sudan, 
  Department of State, Washington, DC............................    33

      Prepared statement.........................................    36

              Additional Material Submitted for the Record

Additional Questions Submitted for the Record to Special Envoy 
  Richard Williamson by Members of the Committee.................    69


      Questions Submitted by Senator Lugar.......................    69


      Questions Submitted by Senator Feingold....................    74


      Questions Submitted by Senator Obama.......................    75


      Questions Submitted by Senator Casey.......................    77


Additional Questions Submitted for the Record to USAID Assistant 
  Administrator for Africa Katherine Almquist....................    77


      Questions Submitted by Senator Feingold....................    77


      Questions Submitted by Senator Obama.......................    80


      Questions Submitted by Senator Casey.......................    81


Prepared Statement of Hon. Christopher J. Dodd, U.S. Senator From 
  Connecticut....................................................    83


Prepared Statement of Hon. Barack Obama, U.S. Senator for 
  Illinois.......................................................    84

                                 (iii)

  


                    THE CONTINUING CRISIS IN DARFUR

                              ----------                              


                       WEDNESDAY, APRIL 23, 2008

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:35 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Joseph R. 
Biden, Jr. (chairman of the committee) presiding.
    Present: Senators Biden, Dodd, Kerry, Feingold, Nelson, 
Menendez, Cardin, Casey, Lugar, Hagel, Corker, Isakson, and 
Barrasso.

        OPENING STATEMENT OF HON. JOSEPH R. BIDEN, JR.,
                   U.S. SENATOR FROM DELAWARE

    The Chairman. The hearing will come to order.
    Let me begin by welcoming our witnesses and thank them for 
taking the time to come today and testify. I genuinely 
appreciate it.
    A little over a year ago, this committee held a hearing 
entitled ``Darfur: A Plan B to Stop Genocide.'' At that time, 
there were over 2 million people living in camps in Darfur, 
millions more at risk, and an estimated 7,700 African Union 
peacekeepers. The United Nations assumed joint control of the 
peacekeeping mission on December 31, 2007, but, from my 
perspective at least, the situation seems to have improved very 
little.
    Since January 1, 90,000 more people have been driven from 
their homes, and, since that date, peacekeeping forces have 
seen a net increase of only 293 troops, if my numbers are 
correct. Additional police personnel are now present, and 
peacekeepers on the ground are better equipped, but it defies 
my comprehension that the international community has not 
managed to do better than we have.
    Violence and banditry are still the order of the day. Last 
week, the World Food Programme announced that it's going to 
have to cut its rations for people in Darfur in half because so 
many of its trucks are being hijacked, and it cannot maintain 
supply lines.
    Just yesterday, the head of the United Nations-African 
Union mission into Darfur reported that it's unlikely that the 
peacekeeping force will be fully operational this year.
    Another top U.N. official estimated that 300,000 people 
have died in Darfur since the beginning of the conflict. That's 
a very grim juxtaposition of the world's inability or 
unwillingness to act.
    At the time of our hearing last April, the biggest obstacle 
to peace seemed to be the refusal of the Sudanese Government to 
allow U.N. peacekeepers in the country. Well, last June, Sudan 
agreed to let them in, at least it agreed on paper.
    The question is: Why have we seen so little progress over 
the course of the year? Earlier this month, the U.N. Secretary 
General published a report assessing the situation in Darfur in 
which he expressed disappointment with, ``the lack of progress 
on all fronts,'' and his report spells out the dismal situation 
in stark terms. He said, ``The parties appear determined to 
pursue a military solution. The political process is stalled. 
The deployment is progressing very slowly. And the humanitarian 
situation is not improving.''
    This the best the international community can do in 
response to genocide? It really is discouraging. And, from my 
perspective, I don't think it's acceptable.
    The purpose of this hearing is to get answers to some very 
basic questions. And I want to make it clear I do not, nor does 
anyone in this panel, hold the witnesses responsible for the 
lack of progress. But, we need to get some answers. We've got 
to try to figure out if there's any way through this.
    The basic questions I want to ask about are, What is 
delaying the deployment of the full complement of 26,000 
peacekeepers and police? Sudanese obstruction? The failure of 
other countries to contribute needed equipment, such as 
helicopters? The U.N. bureaucracy that has been cited as a 
source of delay? Is it some or all of the above? Is it the fact 
that since the last time we had a hearing--the rebel groups 
have now morphed into 25 different identifiable bands? I 
remember, several years ago, meeting with what was then, I 
think, five or six rebel groups. The commanders came out of the 
field in Darfur and met with me in Chad. And they were somewhat 
dysfunctional then, but it's now gone way beyond that.
    The second question I want to ask about is: What is the 
U.N. going to do to help to overcome these obstacles to 
deployment? What is the United States doing to lead the way 
through or around any of the impediments I've cited? Is it 
helicopters that are needed? Then we should find a way to 
provide them, convince others to step up, or actually, as I 
said to the President--I think my colleague was with me--if 
that's the only problem, appropriate the money and build new 
helicopters here. Is the Sudanese obstruction the reason? Five 
years into the conflict, this is simply not something the 
international community should be continuing to tolerate. Are 
bureaucrats getting in the way? Well, if that's true--I don't 
know that it is, but it's reported--if that's true, it's time 
to steamroll the bureaucrats.
    What is the current security and humanitarian situation in 
Darfur on the ground today? What are the prospects for a peace 
process between the government and the rebel groups, or maybe 
even among the rebel groups? Why are we allowing Sudan to 
continue to violate the U.N. ban on offensive military flights 
over Darfur?
    And finally, I would pose the same question I did a year 
ago. On September the 9, 2004, in testimony before this 
committee, Secretary of State Colin Powell--then Secretary of 
State--said clearly that the killing in Darfur was genocide. 
Shortly thereafter, so did President Bush. So, I now ask again, 
What are we doing about it?
    Recent news accounts in the New York Times and elsewhere 
have described bilateral talks between the United States and 
the Government of Sudan held in Rome. These talks were headed 
up, on the United States side, by Ambassador Williamson, who 
we'll be hearing from later this morning, and a high ranking 
Sudanese official on their side. The newspaper article 
indicated that these talks might lead to United States easing 
sanctions on Sudan, removing Sudan designation as a state 
sponsor or terrorism, or taking other steps to normalize 
relations. I know that the administration has asked to discuss 
this issue in a classified forum, which I welcome, and I'm sure 
my colleagues will--we can work out a time to make us all 
available. But--and I've also been around long enough to know 
that I don't believe everything I read in the newspaper. And 
so--but, absent the classified briefing, I'd like to state very 
clearly, in terms strong enough to be heard all the way to 
Khartoum, that, in my opinion, none of the steps should be 
considered until the Sudanese Government ceases all attacks on 
civilians, allows U.N. peacekeeper--peacekeeping mission full 
access to Darfur with the freedom to carry out its mandate, 
disarms the janjaweed, whom it unleashed on innocent villagers, 
and upholds its commitment to the Comprehensive Peace Agreement 
with the South and the Darfur Peace Agreement.
    For 5 years, the people of Darfur have suffered death, 
deprivation, and destruction. Government forces, Janjaweed, 
militia, and rebel groups have all preyed upon civilians and 
aid workers trying to help them. When the United Nations 
finally assumed joint control of the peacekeeping missions, 
hopes rose that it would make a real difference to the people 
in Darfur. Those hopes have not yet been fulfilled. I truly 
want to know, as I expect my colleagues do, why not, and what 
will it take to change the circumstances on the ground? I don't 
want to be here, a year from now, asking the same questions to 
a new administration that I posed last April and just posed 
again. Genocide is happening on our watch. The question is: 
What is there, if anything, we can do about it? Because what 
we're doing now doesn't seem to be working.
    I will yield to my colleague, Chairman Lugar.

              STATEMENT OF HON. RICHARD G. LUGAR, 
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Well, thank you very much, Mr. Chairman. And 
I thank you for holding this hearing on the continuing 
humanitarian and security challenges in Sudan.
    I welcome the distinguished witnesses, appreciate their 
willingness to testify, and the willingness of the United 
Nations to brief members of the committee on the status of 
international peacekeeping deployment in Darfur.
    The Darfur crisis is now in its fifth year, and the 
prospects for peace in the region appear to be little better 
than they were 3 or 4 years ago, when the international 
community first responded with a massive humanitarian 
intervention. In the face of direct obstruction and willful 
delays by Khartoum, these humanitarian efforts probably saved 
hundreds of thousands of lives, but those lives continue to be 
under extreme threat. Regional and global conditions have 
worked against a solution to the human suffering in Darfur. The 
Comprehensive Peace Agreement between North and South Sudan, 
which many consider essential for peace in Darfur, is 
faltering. To the west, Chad and Sudan continue to sustain 
rebel forces intent upon destabilizing or overthrowing each 
other's government. These rebels are preying on the hundreds of 
thousands of displaced persons in eastern Chad, the Central 
African Republic, and in Darfur, as well as targeting the 
humanitarian workers in the region.
    As the wet season descends on Darfur, and the roads are 
increasingly impassable, the World Food Programme is facing a 
global food crisis that has forced the subsistence rations for 
millions in Sudan to be reduced. During the last several years, 
the United States Government and private American citizens have 
responded to the crisis by providing billions in humanitarian 
assistance. This national response continues today, and it has 
been the predominant portion of the international efforts for 
Darfur.
    The United Nations also has played an important role in 
response to this catastrophic situation through the U.N. 
Security Council and the individual agencies, such as the World 
Food Programme, the U.N. High Commissioner for Refugees, and 
UNICEF. In addition, the African Union, the European Union, 
NATO, and numerous countries have made bilateral contributions. 
Despite such efforts, the crisis remains, and security is 
deteriorating.
    Last July, hopes were raised by the United Nations Security 
Council's approval of an enlargement of the peacekeeping force 
in Darfur to 26,000 troops. Unfortunately, that hope has been 
fading, due to Khartoum's continued obstruction and delay, and 
rebel factionalism, and international ambivalence expressed 
through limited contributions to the peacekeeping force. Thus 
far, only 2,000 additional peacekeepers have been deployed. And 
the force continues to lack helicopters and other types of 
equipment that are essential to achieve mobility and to deliver 
humanitarian supplies.
    We're faced with the sobering reality that, after almost 9 
months, only a small fraction of the troops approved in the 
Security Council resolution have been deployed to mitigate what 
many consider to be the world's most dire and visible 
humanitarian crisis. Improving security will not automatically 
resolve the underlying causes of the conflict, but it will 
provide physical and psychological relief that would create 
opportunities for leaders in the communities to assert 
themselves and explore the compromises necessary to make peace 
sustainable.
    The United States must lead in finding ways to address 
these political and logistical shortcomings. We must also 
understand that even the successful deployment of a full 
peacekeeping contingent will not guarantee a political 
resolution to the crisis. Consequently, we must simultaneously 
work with like-minded nations to reinvigorate a viable and 
coherent peace process.
    I look forward to hearing from our witnesses how these 
efforts are progressing and what more we can do.
    I thank you, Mr. Chairman.
    The Chairman. Thank you.
    We're going to, with your permission, after we hear from 
our first witness, go to 7-minute rounds.
    And I want to make it clear how much we appreciate, Dr. 
Lute, you being here. I understand, under the rules, you are 
``briefing'' us, as in representing the office in charge of the 
Department of Field Support in the United Nations in New York; 
you are not here to testify. That is not your role, nor is it 
the practice of the U.N. But, we truly appreciate you taking 
the time to be here to brief us.
    And, as I said, through the Office of our Special Envoy, 
we'll also seek a closed briefing, as well. But, we thank you, 
and welcome you. And, again, please do not read into anything 
you heard from me or the chairman that we're looking at you to 
suggest that, ``Geez, why haven't you solved this?'' This is a 
very, very difficult, and maybe intractable, problem, but it is 
frustrating, and if it's frustrating to me and to the members 
here, it must be exceedingly frustrating to you.
    So, again, thank you for being here, and the floor is 
yours, Doctor. You have the little button on the mike there.

 STATEMENT OF JANE HOLL LUTE, OFFICER IN CHARGE, DEPARTMENT OF 
          FIELD SUPPORT, UNITED NATIONS, NEW YORK, NY

    Dr. Lute. Mr. Chairman, thank you----
    The Chairman. She's from the U.N. She's way ahead of you. 
They're used to buttons up there. [Laughter.]
    Dr. Lute. Always listen to the tech support. [Laughter.]
    Dr. Lute. Thank you very much, Mr. Chairman. It is my 
privilege to be with you this morning, and my colleagues and I 
deeply appreciate the opportunity to brief you on our recent 
trip to Darfur, the second that we've made this year to engage 
with the mission on the ground and find ways to maximize the 
deployment of the force. So, thank you for this opportunity.
    You have generously, I think, said that we should not feel 
responsible for the lack of progress that has--that we are 
seeing on the ground. I'd like to say, in response to that, Mr. 
Chairman, two things.
    First is that no one can be satisfied with the progress on 
the ground to date. We have been talking among ourselves, in 
the international community, broadly and specifically, in these 
corridors and in the corridors of the United Nations, about 
Darfur for 4 years. No one can be satisfied at the rate of 
progress that has been thus far.
    And, second, what I would like to say is that I do feel 
responsible, and my colleagues do feel responsible, for our 
part. But, we have only a part. The U.N. is a good 
organization, it's an important organization. It is not the 
only organization. And it is not the only actor with a role to 
play in Darfur, as I will describe to you in my brief remarks.
    What is the situation on the ground as we find it? The 
situation on the ground in Darfur continues to be deeply 
troubling from nearly every angle. Violence continues. It is 
exacerbated, as you have said, by the proliferation of militia 
groups who are now taking matters into their own hands. Some of 
them are ideologically motivated, and some of them are simply 
motivated by the opportunities presented in the lawless 
environment, particularly out in the west.
    Population continues to be menaced and threatened. Their 
circumstances are exacerbated by a food crisis, as we know, and 
the humanitarian situation, as the Chief of Humanitarian--the 
Office of Coordination for Humanitarian Affairs mentioned 
yesterday, is only worsening.
    The main goal of the United Nations is to engage in a 
three-part strategy in Darfur: A humanitarian strategy, a 
peacekeeping strategy, and a strategy that continues and 
emphasizes and encourages political talks among the parties, to 
bring a lasting solution to the situation in Darfur.
    I should back up, Mr. Chairman, and put this mission in the 
context of peacekeeping over the last 5 years. I first arrived 
at the United Nations in peacekeeping in 2003. At that point, 
the budget for all of peacekeeping was approximately $1.8 
billion. It is now over $7 billion. Darfur is the 18th new 
mission my colleagues and I have started up in the past 5 
years. In the last 18 months alone, we have done five new 
peacekeeping missions. Peacekeeping now represents, with Darfur 
and with the associated and simultaneously starting mission in 
Chad, the second largest deployed military presence in the 
world with the functions and responsibilities that it has. For 
this, we have a staff of less than 800 in New York. But, we are 
complemented by our colleagues in the field, who work 
tirelessly under difficult and arduous conditions. I can assure 
you, Mr. Chairman, we have no peacekeeping missions in Paris. 
Our peacekeeping missions around the world are in some of the 
most difficult, challenging, and increasingly dangerous 
circumstances that are around the world. Darfur represents, in 
that context, only the latest of a series of very difficult 
situations in which peacekeepers have been introduced. And the 
situation is, as I describe it, a bad one, particularly for the 
victims, the displaced, and those who have been terrorized year 
after year after year as the world has watched.
    The purpose of our recent trip, Mr. Chairman, was to sit 
down with the mission and assist them in looking at all of the 
factors that need to be assembled in order to maximize the 
deployment of the force in 2008. Our goal, of course, is a 100-
percent deployment. We will likely achieve something less than 
that before the end of the calendar year, but it is our 
committed and collective effort to do what we can to maximize 
the deployment, not only of the military force which is so 
essential for the--to support the delivery of humanitarian 
assistance, provide a security backdrop for the political talks 
that are going on, but also to provide the very necessary 
protection functions that are required in its mandate--to 
deploy that force, which will number over 19,000; in addition, 
to deploy over 6,000 police, through a combination of both 
individual policemen and -women and--which is a relatively new 
phenomenon in U.N. peacekeeping, the deployment of formed 
police units, the mandate of 1769--Security Council Resolution 
1769 calls for the deployment of 19 such units, which number up 
to 140 individuals each. Now, this policing component is an 
essential component to the success of UNAMID, as we call the 
mission in Darfur.
    In addition to that, we have projected to deploy over 5,000 
civilian personnel--roughly two-thirds of them will be national 
civilian personnel; one-third, international civilian 
personnel--spread out over a variety of grades and specialties, 
numbering over three dozen.
    Our operational concept for the deployment in the coming 
period is designed specifically to address some of the 
questions that you have raised: The impediments that have 
presented themselves to the deployment, the shortfalls that 
exist, and trying to craft creative ways to overcome those 
shortfalls and overcome those impediments.
    Essentially, the force will be deployed along the lines of 
a half battalion laydown spread out over Darfur. Darfur is a 
province in Sudan, a part of Sudan that is the size of France. 
The total force, when it is deployed--military, police, and 
civilian--will number 31,000. This number, we believe, while 
considering it an extremely robust mission, may not be all that 
needs doing on the ground in Darfur to turn the tide 
definitively from conflict and allow the population to exist in 
peace. But, our deployment and the force commanders' concept of 
operation makes the maximum effective use of the force on the 
ground. It will be spread over very great distances. Therefore, 
it needs the mobility, it needs the command and control, it 
needs the self-sustaining assets as part of the deployment of 
the forces to maximize their presence to fulfill their mandate.
    In this regard, I can tell you that we have had pledges of 
nearly all the infantry units that we require. Where we are 
still lacking commitments are in key enabling capabilities, Mr. 
Chairman, some of which you've highlighted, in the area of 
helicopters, certainly in long-haul transportation and in other 
areas. The Member States of the United Nations have been made 
aware of these shortfalls that we continue to have without 
which this mission will be severely handicapped in trying to 
fully implement its mandate.
    The operational concept calls for Darfur itself to be 
broken into three sectors, and the allocation of these units by 
sector reflects the force commander's and the head of mission's 
judgment regarding the critical areas where the protection 
responsibilities are greatest initially. It's also designed to 
give the leadership in the mission, which is jointly answerable 
to the United Nations and to the African Union, which has been 
fully involved itself in every phase of planning and 
implementation of this operation, to be--to give them the 
flexibility they need to respond to an unfolding circumstance 
on the ground.
    I want to take a moment, Mr. Chairman, because it is my 
specific set of responsibilities to address the logistical 
personnel, financial, and other operational aspects of the 
mission, to spend a moment on what is needed now.
    What is needed now, fundamentally, is land to deploy all of 
these forces, but not just terrain on the ground; we also need 
land with associated proximate water access so that this force 
can be sustained. Part of our water strategy, I should point 
out, Mr. Chairman, at the outset and for the years that we have 
had it under development, is a water-sharing strategy, because 
we are aware that, certainly, this is at the heart of so much 
privation in the region. And so, we represent a large consumer 
of water when we come in, and so, our strategy, again, at the 
outset, and as we have developed it over time, is designed to 
share that water with the population and in full concert and 
consciousness of the demands that we will be presenting in what 
is already a very fragile system in place. So, land, associated 
water rights, this requires drilling for water in an 
environment where proven water sources are far between and 
uncertain to establish.
    We need engineering capability to accelerate the deployment 
of forces on the ground. We have spoken to a number of troop-
contributing countries about how to configure their forces 
through their initial deployment to bring, as an organic part 
of their capacity, a pioneering or light-engineering ability to 
facilitate the introduction of forces until such time as the 
U.N. can follow through with our normal logistics package and 
sustain them over time.
    We talk a lot about self-sustainment in the context of U.N. 
deployment, and here in Darfur, this will be key. The units 
must come equipped, trained on the equipment that they have, 
with organic mobility, command and control, and communications, 
as I mentioned before, to administer and discharge their 
operational responsibilities, as well as provide for their 
self-sustainment in the camps and as they are out in 
operations. This will be key. The ability of the force to 
deploy robustly in this year will depend on the self-sustaining 
ability of the troop-contributing countries.
    In this regard, Mr. Chairman, I should say that partner 
countries, including, specifically, the United States and 
others, have been extremely important in partnering with many 
of the TCCs on the ground to help provide them the enabling 
capabilities they need to meet their requirements of troop 
deployments and operations. This engagement of the partners 
must continue. We will not be able to mount and sustain this 
force and present the kind of foundation for the onward 
deployment of subsequent troops and forces if the elements that 
are currently present are not brought up to strength, in terms 
of the U.N. numbers that we require and their sustainability 
and mobility, and command-and-control capacities are enhanced, 
as well. For this, the partnering countries will be critical.
    I mentioned before, Mr. Chairman, that we, in the U.N., do 
feel responsible for our role in helping to get this mission in 
on the ground as we feel for every mission that we deploy. And, 
as I mentioned briefly in my remarks, the troop-contributing 
countries themselves have a responsibility, and the partnering 
countries have responsibilities, as well, to stay engaged with 
the troop contributors, with the United Nations, with the 
mission on the ground, with the African Union, and with the 
neighboring countries, as well, to do what they can, and do 
what they can, Mr. Chairman, not only for the operation that's 
on the ground, but for the peace process, as well.
    The purpose of peacekeeping is to protect and strengthen 
fragile peace. That's why the world has peacekeepers. And we, 
in the United Nations, who have been doing peacekeeping--this 
year marks the 60th anniversary of United Nations 
peacekeeping--understand, through many lessons over those 
years, many bitter lessons through the decade of the nineties, 
the conditions under which peacekeepers are right to deploy and 
when they can maximally contribute to a durable peace. There 
must be a peace to keep. Peacekeepers can usefully accompany 
political processes. We cannot substitute for the lack of those 
processes.
    And, as you rightly pointed out, Mr. Chairman, the peace 
process for Darfur needs the attention and care and engagement 
of the international community, and of all key actors with a 
role to play, to encourage the parties to come to talk and 
pursue their continuing differences around a peace table.
    The Government of Sudan, of course, itself has 
responsibilities. I meet with them every time I go to the 
region, both in the region and in Khartoum, engage them at an 
operational level with the pragmatic challenges that we have on 
the ground. It's my view they clearly understand what their 
roles and responsibilities are. It's a continuing dialog and 
challenge for us.
    Finally, Mr. Chairman, I would like to close the way I 
began, by thanking you for this opportunity that you've given 
to my colleagues and I to brief you this morning, to thank the 
United States, not only for its role and attention that it has 
paid to the problem in Darfur, but to thank the United States 
for its contribution to peacekeeping over 60 years, and for its 
contributions and support to the United Nations. The United 
Nations is an extraordinary institution. It's not perfect. We, 
in peacekeeping, are not perfect. But, it does represent the 
kind of aspiration where the world can pool its strengths to 
share its burden, and it's our privilege to be a part of it.
    Thank you very much.
    The Chairman. Well, thank you very much, Doctor. With your 
permission, we'd like to ask a few questions, if that's OK.
    Let me begin where you ended. I think an awful lot of 
Americans--and, I suspect, Europeans and others, as well--are 
sometimes confused by the distinction between peacekeeping and 
peacemaking. And, for example--we have a line--I'm informed by 
Chairman Dodd that--a line that is all the way down the 
hallway, here, of people wanting to come in to hear your 
testimony, and this is an issue that has caught the heart, 
imagination, and attention of people all around the world, 
because it seems so intractable, and so many innocent people. 
I've only visited it once. I visited the camps on the border in 
Chad, the northernmost camps. It's amazing what the U.N. is 
doing, keeping those folks alive in what is a Godforsaken part 
of the world.
    But, let me begin talking about peacekeeping versus 
peacemaking. I would posit that there's no peace to keep right 
now. There is an agreement, of sorts. You mentioned engineering 
necessities--capacity, self-sustaining capability. As I 
understand it, Sudan--notwithstanding their assertions, 
Khartoum is holding up supplies at the Port of Sudan, 
restricting communications equipment that can come in, which is 
essential to a self-sustaining capacity on the ground for any 
force. I may be mistaken, but I am told, denying engineering 
capacity--that is, the very things that come in to construct 
the capacity for troops to be self-sustaining--and a number of 
other obstacles. And I would like to ask you to contrast that 
to what I would suggest in the parlance is a slightly different 
kind of force--EUFOR-Chad. The European Union is deploying, 
quote, ``a peacekeeping force'' inside the Chad border with 
Darfur, approximately 3,700 people. Most of these troops are 
French. France has a long history, a former colony. They have 
an airbase there that could be used. And Russia is contributing 
helicopters.
    Now, one of the things that I'm a little bit confused about 
is that it seems as though the distinction between, in broad 
terms, the European Union's action to deploy 3,700 troops that 
are self-sustaining, know how to shoot straight, are organized, 
are capable--and that's not a criticism of the AU. I met with 
the AU commanders on the ground; they desperately need 
everything from infrastructure to training to equipment. And I 
know the Rwandans are probably ahead of the game, because of 
the training they've gotten, and probably the most capable of 
the AU forces. But, how would things change for you if the 
continued resistance from the various sectors for deployment of 
this force, the peacekeeping force that you are charged with, 
if, in fact, there is a deployment of 2,500 to 4,000 NATO 
troops on the ground establishing, without having to any longer 
put up with the interminable delays of the Sudanese Government, 
just within west Darfur and just initially--which they could 
do--not establish peace, but establish some order, set the 
table, set the groundwork for all that infrastructure you're 
talking about. I know that's heretical, I know no one but me 
supports that--I shouldn't say ``no one,'' but not many 
people--and I'm not sure, at this point, that its force would 
be available; but, how would that change your circumstance? 
Would it just make it impossible, or would it, in fact, send a 
message to Khartoum that there are certain actions that when 
countries engage in genocide, they forfeit their sovereignty, 
that the international community has a right to come in to 
protect people?
    And I want to make it clear--it's a long question; it's the 
only question I'll ask--I want to make it clear what Senator 
Lugar pointed out in his statement, I don't think that portends 
for a political settlement. That will not create a political 
settlement. That will not alter a lot of the other pieces on 
the ground. But, one thing it would do, it would sure in hell 
shut down the Janjaweed real quickly, and it would blow away 
those rebel groups that are engaged, real quickly, in the area 
where they were. Is that a good thing or a bad thing, if it 
could happen?
    Dr. Lute. At every level, this is an extremely relevant 
question for us in the United Nations. We have our own piece, 
the Chad operation, to deploy. That operation consists, really, 
of three parts: The EUFOR, which you described; the United 
Nations mission, which will be about 1,200 and that mission is 
designed to support the third component; the 800 Chadian 
police, whose job it will be to bring security to the camps and 
to the refugee sites and to the IDP sites and to the 
surrounding cities. That operation is being stood up 
simultaneous to our effort to stand up Darfur.
    The Chairman. Right.
    Dr. Lute. So, from the U.N.'s perspective, it is there----
    The Chairman. My guess is, it'll be stood up 20 times 
faster than your operation.
    Dr. Lute. Certainly, the European component of this 
tripartite mission will be. They project to stand up--to be at 
initial operating capability--by May. And that is with the bulk 
of their force.
    As you know, the U.N. has no standing military.
    The Chairman. No; I understand. Yes.
    Dr. Lute. We have no standing training. We have very little 
doctrine. We've just begun to write that. We have no standing 
civilian cadre of personnel. Every single mission is, to a 
certain extent, stood up as if for the first time. We are able 
to rely on troop-contributing countries that, themselves, feel 
stretched around the world. There is not only the operation in 
Chad, but other operations, as well, which are pressing down on 
troop-contributing countries and police-contributing countries.
    But, your point about the presence of a robust force on 
both sides of the border, frankly, Mr. Chairman, is what's 
necessary, and we're aiming to do our part.
    The Chairman. I thank you very much.
    I yield to Chairman Lugar.
    Senator Lugar. Dr. Lute, as has been mentioned in opening 
statements and your testimony, one of the compelling reasons 
why world attention is focused on Sudan and on Darfur is 
because there has been testimony here in the United States by 
Secretary Powell and, the chairman mentioned, by the President, 
that genocide is being committed.
    Now, let me just ask you, as a very close observer of the 
situation, who is committing genocide? That is, what group of 
persons? And who are the victims of genocide? So that at least 
the public can get clear in its own mind precisely where that 
charge lies.
    Dr. Lute. Mr. Chairman, I am no expert on the tribal or 
ethnic politics of Darfur, but I can tell you that the so-
called militias, the Janjaweed, in addition, have used force 
against populations that are themselves unarmed, that live in 
huts and encampments made of twigs, that burn these to the 
ground. There are other actors, as well, engaged. Very few 
conflicts, in my experience, exist in splendid isolation. There 
is the existence of forces, there is the existence of funding, 
there is the existence of ammunition that fuels these groups in 
targeting innocent civilians in a conflict that, in some 
instance, traces itself, deep roots, in the region----
    Senator Lugar. Well, now----
    Dr. Lute [continuing]. In some instance----
    Senator Lugar. Yes. What are the deep roots? In other 
words, what group or racial/ethnic characteristic are the 
Janjaweed, and what are the ethnic characteristics of the 
victims, these persons in the huts?
    Dr. Lute. Again, Senator, I'm really not the best person to 
ask for the kind of detailed information that you're asking in 
this regard. I have a layman's understanding of that element of 
it. My focus has been on the U.N.'s logistics effort and 
peacekeeping effort to address the situation on the ground, and 
I don't want, under the pressure of time, to make a 
misstatement that would be misleading in this context. But we 
can certainly provide the detailed information, that I know my 
colleagues have, to you.

    [The information referred to above was not available at 
press time.]

    Senator Lugar. I think that's important, and I don't mean 
to dwell on this, but clearly one aspect of the Sudan situation 
that has elevated attention, in the religious community and 
persons in humanitarian causes all over the world, has been 
because the word ``genocide'' is applied to this. You know, 
it's a very tragic circumstance that, throughout Africa, there 
are many groups currently fighting each other and trying to 
undermine each other, undermining governments and so forth. 
Sudan has had at least some relative success with negotiations 
between North and South Sudan.
    Now, experts will point out how that has come unraveled. 
And yet, at the same time, there has been at least some 
negotiating process moving toward a peace settlement. You're 
involved, admittedly, in peacekeeping, but you're not divorced 
from trying to negotiate peace, but, nevertheless, this is a 
part of the process. There have to be persons, even around a 
table, a campfire, or somewhere, who are prepared to 
compromise, who see at least some--and, therefore, you can come 
in, along with the international community, and hopefully 
retain that agreement.
    So, I suppose my second line of inquiry is: Where in this 
process are, in fact, the negotiations of any sort? Are they 
occurring in any part of Sudan, quite apart from parts of 
Darfur? In other words, is there some promising negotiation 
that might establish even 
a modicum of peace that somebody could, as a peacekeeper, help 
enforce?
    Dr. Lute. Senator, the conflict in Sudan, in Darfur, is, by 
some experts' description--a reflection of the conflict that 
also existed, North/South, a deep question of identity and 
political enfranchisement of those identities in Sudan as a 
whole. There are a number of groups that are involved in the 
talks in Darfur, which have gone back for several years now. 
There have been many efforts at bringing the militias, the 
warring factions, the government, supported again around--but 
with key regional actors around a table. Jan Eliasson and Dr. 
Salim Salim, from the African Union, have been jointly 
mediating the talks. They have just concluded a 2-week trip to 
the region, and it's very clear that some of the key groups 
have determined that fighting is the preferred strategy to 
talking. And this is why I mentioned, in my remarks, that all 
of the key actors need to stay engaged to put the pressure on 
those parties to pursue meaningful talks in an effort to create 
the kind of viable dialogue that a peacekeeping mission can 
support.
    Senator Lugar. Are these groups who would prefer fighting, 
are their objectives racial or ethnic domination, or are they 
trying to just simply carve out spheres of land, more food, 
water? In other words----
    Dr. Lute. All of the above.
    Senator Lugar. Yes. So, I'm trying to--not to separate the 
problems of the genocide and the ethnic conflict and so forth 
from the fact that people are warring in many parts of the 
world over food and water. But, I think, at some point, in 
discussing this, we really have to begin to sort out what at 
least the world perceives as the various motivating factors, as 
well as the players, to have some sense--otherwise, we have one 
hearing after another in which we come, understanding we're 
going to hear that things are once again amiss, sort of almost 
beyond reconciliation, and we're not doing enough. And I'm, 
sort of, one who, at this point, would like to have much more 
of a business plan of who is who and what are the equities and 
how could any type of agreement come about that then armed 
forces or peacekeepers might be helpful?
    Well, that is my dilemma, Mr. Chairman. I'll leave it at 
that and pass it along.
    The Chairman. Thank you, Senator.
    Senator Dodd.
    Senator Dodd. Thank you very much, Mr. Chairman.
    And welcome to the committee. I appreciate your being here.
    And let me just pick up, I guess, on where Senator Lugar 
and Senator Biden were heading. There's obviously a sort of an 
antiseptic quality here as we gather in a hearing room like 
this and talk about the situation. And, you know, and you read 
these numbers, and the numbers can be dulling, in a way. You 
read the number of a quarter of a million to half a million 
have died, two million displaced, they just don't seem to have 
the--kind of, the potency I wish they did, because the fact 
that there are many young people lined up around this building 
trying to get into this hearing is an indication of how deeply 
felt this issue is, and growing, and with great legitimacy.
    Let me just focus on two areas. One is, it seems to me that 
we've tried several things, here. In the committee that I 
chair, the Banking Committee, we were able to pass, 
unanimously--Senator Bob Casey is a member of that committee, 
Senator Bob Corker, Senator Hagel, all on that committee with 
me--and we passed out of our committee, back in December, 
unanimously, a sanctions bill on the Sudanese Government, 
assisting States and localities to be able to disenfranchise 
their financial support for the Sudanese Government. And I 
wonder if you might share with us, because, in some sense, if 
you can stop feeding the beast that supports these activities 
financially, it may have a desired effect. And I wonder if 
you'd comment on that. How effective are these measures? Why 
aren't we getting more support for that approach around the 
world? I guess I understand, from time to time, the 
unwillingness or the inability for people to find helicopters 
or other equipment to provide for a situation that could 
provide some stability and resolve a military conflict, but, to 
the extent the world community could stand up and decide not to 
finance those who are doing this, would be one quick measure. 
In fact, the mere announcement of it may have the desired 
effect. But, when you're acting, sort of, alone or not getting 
the kind of cooperation, it's awfully hard to achieve that. So, 
I wonder if you'd comment on that approach.
    And then, second, in a very practical matter, Senator Biden 
and Senator Lugar have a proposal here, which I think all of us 
are supporting--I certainly am--a resolution calling for the 24 
helicopters that are needed. Would you comment on the 
likelihood of the international community responding to that 
request, for that very practical request for assistance to be 
able to manage, or at least to try to do something more 
constructive to avoid the continued genocide that's going on.
    Dr. Lute. Thank you, Senator.
    I, too, am always struck by the way we talk about death and 
dying in the context of conflict. I had an uncle who wrote a 
poem once, called ``Stars and Atoms Have No Size.'' And it's 
true. I mean, how can you imagine a star or an atom? And we 
talk about conflict, and we talk about war in a way that, at 
times, offends me.
    I spent the first half of my adult life as a soldier in the 
United States Army. And one thing you learn as a soldier early 
on is, people die one at a time. In the end, numbers can add up 
pretty quickly.
    We talk about the Rwandan genocide; it was 800,000 people 
in 90 days. In Darfur, it's two-thirds of the population of 6 
million--4 million people have been affected by this conflict. 
The brutality has been staggering. Part of the tragedy is that 
people forget why. So, I take the numbers very seriously, and I 
share your sensibility.
    This is a challenge of monumental proportions. We've used 
the word ``intractable'' several times this morning. Can that 
really be so? Can it be we are so bereft of ideas and of things 
and of knowledge to do something about this? And our part of 
it, and my part of this, is the peacekeeping effort.
    You mentioned the effectiveness of sanctions. Before I 
joined the U.N., I had the privilege of working with former 
Secretary of State Cyrus Vance and David Hamburg, the former 
president of Carnegie Corporation of New York, on the Carnegie 
Commission on Preventing Deadly Conflict. And some of you 
around--Senator Lugar, certainly, and others I had the 
privilege of associating with during that work--and we examined 
the role of sanctions. Are they effective? If not, why not? 
What does it take to make an effective sanctions regime? And 
the work was not purely theoretical. It was, What does it take? 
And what we learned is that sticks are not enough. Sticks have 
to be balanced against carrots, an upside. Because sticks 
against returning to the status quo, the status quo is no 
reward, so the sticks have to be balanced against an upside. 
What is in it on an upside to make the sanctions have more 
bite? But, sanctions are a necessary step, in the mind of many 
governments, before they can take more stringent measures.
    As a peacekeeper in the United Nations, it is not for me to 
pronounce myself on the advisability of a sanctions regime, its 
dimensions, et cetera. But, it is very clear that the conflict 
that continues to rage in Darfur is still funded, it is still 
supplied with arms and ammunition, and they are coming from 
somewhere.
    On the question of helicopters, this has been a deep 
puzzlement to me, personally. You--the chairman, in his 
remarks, mentioned that he had meetings with the African Union. 
And, depending on whom you speak to in the African Union, they 
are very forthright and honest about what the challenges are 
and what the challenges were when they agreed to go into Darfur 
when no one else would. And they needed everything from boots 
to Black Hawks, in some cases.
    And do we need helicopters? This is a region the size of 
France. We have a military force of 19,000. There are 4,000 
helicopters available, I understand, in the inventory of the 
NATO countries, collectively. Are there not 24 for Darfur?
    So, we are working with the Member States of the United 
Nations, including with the United States. Ambassador 
Williamson has been aggressive in his efforts to find creative 
solutions. So, we're turning over every stone.
    Senator Dodd. Well, let us know. I mean, 4,000 helicopters 
with the NATO countries, it seems to me this shouldn't take a 
piece of legislation. Do you have any suggestions for us here 
as to how we might effectuate that--the release of 24 
helicopters?
    Dr. Lute. I--Senator, I wouldn't presume to--I'll tell you 
what we are exploring. We are exploring whether or not we can 
find--our preferred solution is to go to a contributing country 
to give a complete squadron of helicopters, with the airframes, 
with the pilots, with the maintenance package, as a self-
contained unit to operate the way this government recognized 
its military operating, or anyone else, for that matter. 
Second, we're looking to--for countries to put on--offer what 
they can. Again, equipping the airframes with the pilots and 
the maintenance package. Failing that, we're looking at each of 
these pieces--airframes, pilots, maintenance packages--to see 
what can be put together.
    We deeply appreciate the effort that has been undertaken by 
the chairman and by Senator Lugar in this regard, and by others 
in this committee. And we will continue to look for them.
    Does this mean the mission won't deploy? No; the mission 
will deploy. But, it will not be as operationally effective as 
it needs to be without these assets.
    Senator Dodd. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you.
    And, Doctor, thank you. Thank you, as well, for your many 
years of service to these great world challenges, as well as 
your husband. And, to you both, we're grateful for your 
service.
    I'd like to just focus on one general question, and it 
frames, at least in my mind, this great challenge that you are 
dealing with, a good deal of the world is dealing with, and it 
is this. Are we in need of a different kind of organizational 
institutional structure in the world today to deal with these 
kinds of events? Now, recognizing that the world has always 
been violent, we have always experienced some number of these 
human catastrophes, genocide certainly being one of them. But, 
as we look, today, and we project beyond the horizon, 6\1/2\ 
billion people on the face of the Earth, projecting to be 8 to 
9 billion one of these days, we are much aware that resources 
in many of these areas are scarce.
    Some of the line of questioning that my colleagues have had 
this morning--food, water, fuel--oil is getting close to $120 a 
barrel--is it possible that the 21st-century challenges are of 
such a magnitude that the world is going to have to 
restructure, in some formalized way, a system to better deal 
with this? Or is it just a matter of lack of will by 
governments, by the developed countries? Is it a lack of 
prioritization? Certainly, when we focus on the helicopter 
issue, we are all befuddled why we can't find 24 helicopters in 
a significant arsenal of the world's leading military powers.
    Now, we can continue to have hearings, and you can continue 
to make statements and give speeches, but, just as you note, 
Doctor, about dying and death and your experience as a soldier, 
these are not abstractions, but, far too often, we speak in 
abstractions, and then believe, somehow, that we've 
accomplished something. Sanctions are a good example of that, 
which you have responded to.
    But, I would like, in the time I have left, if you would 
respond to that general question.
    Thank you.
    Dr. Lute. Thank you, sir.
    Do we need a new organizational structure? I'll tell you 
what we need in peacekeeping. We need a strategic planning 
capacity. We need a standing brigade-sized force--that is 
ready, able, equipped, deployable--to move into a situation 
while there's still a peace to keep, or to prevent a conflict 
from spreading unacceptably. World Bank data show that when 
ongoing conflict has an adverse effect 800 kilometers away, 
within--if you drew a circle around a conflict zone that had a 
radius of 800 kilometers, you would find the affected zone of 
that conflict. We need a cadre of professional people skilled 
in a variety of areas, everything from human rights monitoring 
to political analysis to engineering, aviation safety, and 
everything in between, that is deployable on a moment's notice 
within the context of rules and accountability, that can assure 
Member States that we are reflecting their collective will.
    So, the organizations exist. There are regional 
organizations--the African Union, the EU. There are other 
organizations, such as NATO and others around the world, and 
the United Nations. The United Nations is unique, in that it is 
deeply inclusive. We have an ability to mobilize complexity. 
It's not always pretty. But, we can reach resources around the 
world--governmental, nongovernmental, international. And, 
again, reflecting the engagement of the Member States.
    Is it a lack of political will? You know, the old 
expression, ``When you want to do something, any excuse will 
do. When you don't want to do something, any excuse will do.'' 
Is it political will, or is it the fact that we all exist in an 
environment of constrained choice? And where are your 
priorities? If a problem is intractable, is it because we don't 
understand the problem? Is it because we lack the capacity, or 
it's because we don't have good theories of remedy in trying to 
solve that problem? All of the above. Is some answer a new, as-
yet-uninvented organization? Perhaps. But, I think the tools 
are on the table at the moment.
    Senator Hagel. So, why can't we get it done?
    Dr. Lute. It's all----
    Senator Hagel. Why are having this hearing today? Why can't 
we get it done? NATO Foreign Ministers met in December of last 
year, and all agreed, every one of them, that we would all work 
on this, carry forward, get the peacekeeping force structure, 
helicopters, resources, prioritize this in our foreign policy. 
But, here we are. So, why can't we get it done?
    Dr. Lute. I will only speak for myself, Senator, and for 
the issues under my control. And that's a question I also ask, 
Why is this not happening? What's happening? What's not 
happening? How we can effect the difference? And there are 
reasons that are unacceptable, there are reasons that are 
unexplainable.
    You know, is it a lack of contributions? In some cases, we 
don't have it. The U.N.--we don't own all of our troops, we 
don't own all of our equipment. We depend on the contributions 
of the Member States. We depend on the agreement of the 
government to facilitate our operations in and on the ground. 
We depend, in part, on commercial contractors, and the 
contracting process is, as you know, for the United Nations, is 
not unlike in the United States--long, difficult, and engaged. 
So, it--none of these reasons are satisfying.
    Senator Hagel. But, you said something in your first 
response, it seems to me, to make sense that we're going to 
have to pursue it in some way, and the next administration is 
certainly going to have to deal with this, as all other 
governments. Some strategic context. We have this tremendous 
framework of assets within the developing country. And, as you 
say, we've got NATO. We've got the United Nations. We've got 
dozens of these multilateral institutions focused on carefully 
crafted, defined missions within the structures of the 
organizational charter. But yet, somehow we can't connect it 
with getting the job done.
    Strategic context is pretty critical. And I think that is 
as much the answer to what you're saying today, but that 
strategic context must be within the arc of the membership to 
get it done. And if there's no international strategic context, 
these kinds of problems that we've been dealing with for years 
in this part of the world are going to get worse, they'll get 
deeper.
    And, just as you say in your answer to Senator Dodd 
regarding sanctions, sanctions don't work if it's just all 
sticks; somehow we're going to have to find some balance and 
new--some new strategic context here that you will, hopefully, 
have a significant role in. But, it seems to me that's the 
essence, very much, of your answer to this committee.
    Thank you for what you and your colleagues are doing.
    Dr. Lute. Thank you, sir.
    The Chairman. If I could interject, just a second, back in 
1988 I proposed that there be a small standing force under U.N. 
Charter. We're allowed to have that happen if the U.N. votes 
for it. It received a very cold reception here in the United 
States, and not a very warm reception anywhere else. And all we 
were calling for is, in the post-cold war, that there be a 
provision to have this peacekeeping capacity. Senator Lugar is 
trying to--with the help of me and others, trying to provide 
such a capacity here at home, civilian as well. But, as they 
say, it's above both our paygrades. But, I think it's a 
worthwhile thing to pursue again.
    The Senator from Florida, Senator Nelson.
    Senator Bill Nelson. Mr. Chairman, my wife and I wanted to 
go to Darfur, and the government would not let me in, so I had 
to go in the back door, and I went through Chad. And, of 
course, when anybody sees what we saw, you just can't 
understand how the world community, through this organization, 
the United Nations, cannot come together.
    Now, I want to ask you--just in the last couple of days, we 
find out that there are Chinese-armed shipments going to 
Zimbabwe, and we know the problem there on whether or not an 
election is going to be honored in Zimbabwe and all the 
controversy there. And, in light of that and the fact that some 
Chinese AK-47s have turned up in the Sudan, in the Darfur 
region, what should we, the United States Government, and you, 
the United Nations, be doing to lean on the Chinese not to make 
arms shipments into the Sudan?
    Dr. Lute. Senator, in this respect, I'm--I apologize, I'm 
not as current as you on the information of the last several 
days, but what I will say is, it is incumbent on the Member 
States of the organization to uphold the required--under 
international law and on the basis of their own commitments, to 
uphold the rules and--of the organization and of the 
pronouncements of the Security Council. This is not a wish, 
this is a requirement. They agreed to be bound by its 
provisions. It's not appropriate, as a U.N. official, to 
comment on--or to engage in----
    Senator Bill Nelson. Well, I agree.
    Dr. Lute [continuing]. Bilateral behavior----
    Senator Bill Nelson. I agree. There is a U.N. Security 
Council ruling that says that there is an arms embargo in 
Darfur. Member nations of the United Nations ought to be 
honoring that U.N.----
    Dr. Lute. Yes, sir.
    Senator Bill Nelson [continuing]. Declaration. But, we see 
that China is pushing arms into Africa. And I used the example 
of Zimbabwe, just in the last couple of days. It's also been 
sending arms sales to the Sudan. So, how do we get people--if 
we're ever going to get to the bottom of this and stop this 
thing, we've got to stop items that continue to foster the 
unrest, and arms are certainly one of them.
    Dr. Lute. For our part, Senator, the presence of the 
peacekeeping force in and on the ground, the existence of a 
robust political dialog among the warring parties, will create 
an environment where--that will alter--it is our--it is not 
only our expectation, it is our hope and expectation that that 
will alter the circumstances on the ground.
    Member States are--have available to themselves a whole 
host of bilateral means of engaging on these questions, in 
addition. But, it is our responsibility, job, and obligation to 
get this peacekeeping mission in, to create the circumstances 
that are better for the people of Darfur on the ground, and for 
the Member States to use all of their means to help that be so, 
and to help reduce the levels of violence.
    Senator Bill Nelson. Well, Mr. Chairman, when the 
government witnesses come up, this question needs to be put to 
them, the representatives of the United States Government, 
about leaning on the Chinese to stop the arms sales to the 
Sudan.
    Let me ask you, what is the U.N.'s strategy to keep Darfur 
from destabilizing the neighboring countries--Chad, where I 
came in, and clearly there was, increasingly, a problem of 
destabilization on the eastern part of Chad, near the border--
and also the Central African Republic?
    Dr. Lute. Thank you, Senator.
    It is--it's, indeed, a concern. I heard, in my talks in 
Khartoum, government officials were certainly watching the 
situation in Chad, as well, for their own reasons. The 
peacekeeping mission in Chad is a separate mission from the 
mission in Darfur, but obviously there is a common border, and 
the dynamic is such--it's a very porous border, and the 
situations bear on each other measurably.
    In the broader regional context, as I mentioned earlier, no 
conflict exists in splendid isolation. Our strategy in Darfur 
has three parts: Engage with the humanitarian situation on the 
ground to bring relief to those who are suffering; to support a 
political process designed to bring those warring factions to a 
table to broker their differences at that table, as opposed to 
military force; and to introduce the peacekeeping force on the 
ground for the protection of innocent civilians, to support the 
peace process, and to facilitate that humanitarian agenda; and 
also to bring regional--to provide an anchor point for 
stability in that region.
    Senator Bill Nelson. And I compliment you, and I compliment 
the United Nations. I can't tell you how admirable--these 
people were, representing the United Nations--what's the 
organization for food and refugees?
    Dr. Lute. Well, there are several out there. There's the--
--
    Senator Bill Nelson. Well, they were there. And since then, 
they've had to abandon part of that area that I went--east of 
Abeche, Chad, to the border there--they've had to abandon that 
area because of Chad being destabilized. I can't say enough 
good stuff about those U.N.-provided people and their 
dedication and their selflessness.
    But, the bottom line is, it's not working. And that's what 
we're trying to get at, here.
    Thank you, Mr. Chairman.
    Senator Dodd [presiding]. Thank you.
    Senator Corker.
    Senator Corker. Thank you, Mr. Chairman.
    And, Dr. Lute, thank you for your testimony and your life's 
work.
    I want to follow up a little bit on the final questioning 
that Senator Hagel brought forth, just the--and you alluded 
to--the strategic piece. And I don't know how you do what you 
do. It's almost like--when you were talking about standing up 
efforts as they come about and not having a standing operation. 
But, it seems like a big piece of making the most of a very 
difficult situation, where you have to stand these up, means 
having, at the central office and United Nations headquarters, 
sort of, the personnel, if you will, to organize and 
logistically make these things occur. Could you tell us a 
little bit about that? Because, in addition to--because, in 
addition to having to get countries to volunteer to help, if 
you will, I suppose that the whole issue of having things 
logistically planned out and ready are--is another huge 
obstacle that you have. Could you tell us a little bit about 
how you're set up at headquarters, how many authorized 
positions, how many of those are filled, and, sort of, where 
you are in that position?
    Dr. Lute. Yes, sir. That's what we do. That's what I do. It 
is--we stand up every mission each time as if for the first 
time, with the exception of in--the OPTEMPO for us over the 
past 5 years has been intense. We currently have 20 
peacekeeping missions on the ground.
    Every mission consists of some combination of three things: 
What the U.N. is able to bring to the table or put on the 
ground, what the troop-contributing countries, and, 
increasingly, police-contributing countries, can put on the 
ground, and what services we can contract out for commercially. 
So, every mission is some combination of those three things.
    We actually have very little standing capacity, as I 
mentioned. We have no cadre of civilian personnel. We have no 
standing military capacity. We have no----
    Senator Corker. But, at the headquarters itself, as far as 
the people who are to line these things up and make all of 
these things happen, talk to us a little bit about that 
capacity.
    Dr. Lute. My--the Department of Field Support, which I 
oversee, has 442 people, in New York, and there is nothing 
standing between them and, actually, 35 missions out in the 
field. They liaise with them directly. There are no intervening 
headquarters. And, you're right, we have to find the personnel 
every single time. Every vacancy is an individual vacancy. 
Every travel is an individual travel. We have roughly, at the 
moment, 27,000 civilian posts authorized in peacekeeping 
worldwide. They're managed by an office of about 125, in New 
York.
    Senator Corker. OK. It seems like, to me, that even if you 
had tremendous cooperation, which we do not have right now in 
these efforts, that you lack just the basic infrastructure to 
be successful. Matter of fact, if you had a standing operation, 
it seems to me that you lack the basic infrastructure--440 
people to support that large number of missions and all the 
many logistical issues that need to be dealt with--that that's 
an impossible task. I'd like for you to respond to that.
    Dr. Lute. It feels like that, a lot of days. But, we rely 
on the Member States. Each mission has its own headquarters 
element, leadership element. It's supported by headquarters, in 
addition to my department, the Department of Peacekeeping 
Operations has another 600 individuals. We total about 1,000, 
collectively, overseeing--but, we do rely on the contributions 
of the Member States. Each mission is stood up largely to be 
self-contained and self-sufficient, from an operations point of 
view, in terms of implementing its mandate and sustaining 
itself, supported back in New York by the headquarters and by 
the important role of the troop- and police-contributing 
countries, which rotate.
    The challenge is an enormous one. We have a fairly chronic 
25-percent vacancy rate of our civilian personnel in the field. 
We say that we will have 140,000 peacekeepers in the field when 
Darfur is deployed. We actually manage, annually, about twice 
that number, because all the troops rotate every 6 months--the 
majority of the troops rotate every 6 months. It is a way of 
doing business that has come to characterize the U.N.'s 
approach to peacekeeping. And this is--this is as hard as it 
gets. It's as hard as it gets.
    Senator Corker. It seems to me that, in spite of the 
apparent great leadership you're providing, that what we have 
right now is built for failure.
    Dr. Lute. That's not how we view it.
    Senator Corker. But----
    Dr. Lute. It's both--it's both the minimum necessary and 
the best possible that the international is able to provide a 
situation like that. We're the operators. These--we choose none 
of our missions on the ground. These are a function of 
political choice. Our job is to mobilize, deploy, support, and 
operate the resources--the human, the materiel, and other 
resources on the ground that have been given an enormous 
challenge and privilege by the international community.
    Senator Corker. But, my point----
    Dr. Lute. We are not----
    Senator Corker. But, my point is----
    Dr. Lute [continuing]. We're not built for failure.
    Senator Corker [continuing]. The infrastructure--the 
infrastructure that lacks seems to me to--is that one of the 
reasons that we have difficulty getting people to contribute 
troops and contribute helicopters, which I want to get to 
before we end--it's--what--you've been in the U.S. military--
let me just go to that, with a minute-25 left--you were part of 
the U.S. military.
    Dr. Lute. Yes, sir.
    Senator Corker. Just--I know we've sort of been nibbling 
around the edges. I've asked this in other hearings. But, what 
is it that keeps the United States, with its vast resources--
with its vast resources, from participating at least, if you 
will--I know they don't want our troops there--but at least in 
having the helicopters available?
    Dr. Lute. Sir, certainly--and my colleagues in the U.S. 
Government will speak for themselves--the United States has 
been fully engaged in helping us find the helicopter assets 
that we need.
    Senator Corker. We're fully engaged in trying to find them.
    Dr. Lute. Yes, sir.
    Senator Corker. Twenty-six helicopters.
    Dr. Lute. Yes, sir. Every conversation that I have with 
U.S. officials is extremely supportive, and they recognize 
what--the challenges that exist, and are working with us along 
these lines that I outlined before, in trying to find creative 
ways to solve the problem, to meet the shortfall.
    Senator Corker. But, do you--I know you sense what spoof 
that sounds like, to say that our military is working with you 
to try to find 26 helicopters, and yet has not produced one.
    Dr. Lute. Sir, I'll--that's--I'll ask my colleagues from 
the U.S. Government to respond to that.
    Senator Corker. It's almost beyond belief that we have 
hearings--I know we had one in a secure setting recently, 
talking about this, but it's almost beyond belief that, with 
the numbers of people that are dying, the number of people that 
have been affected, we sit here and we're criticizing China, 
rightfully so, but that our own country, with the vast 
resources we have in military hardware, cannot even produce one 
helicopter as it relates to this particular conflict.
    Dr. Lute. Sir, there are 192 member nations of--Member 
States of the United Nations. And we have been unsuccessful 
with any of them.
    Senator Corker. Mr. Chairman, thank you.
    And thank you for your testimony.
    Senator Dodd. Well, I'd just say, we all have that same 
sense of lack of credulity in all of this. How can we be in 
this situation, with these numbers over this period of time? 
And this pathetic response is breathtaking, candidly.
    Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Dr. Lute, you are the officer responsible for the 
deployment of UNAMID, are you not?
    Dr. Lute. I am--my responsibility is for the logistical 
operations personnel and support aspects; yes, sir.
    Senator Menendez. So, you would, in essence, be responsible 
for its deployment?
    Dr. Lute. Yes, sir; I have a share of that responsibility.
    Senator Menendez. Now, on July 31 of last year, the U.N. 
Security Council adopted Resolution 1769, and its goal, as I 
understand it, was to fully deploy 26,000 peacekeeping troops 
to Darfur by mid-2008. Is that correct?
    Dr. Lute. Yes, sir.
    Senator Menendez. So, here we are today, April 23, 2008, we 
have only about 300 new personnel on the ground--150 
Bangladeshi police officers, and 140 Chinese engineers. And, at 
this pace, we will have the 26,000 peacekeepers on the ground 
by June 2026. At this pace. Eighteen years after the goal set 
by the United Nations. I don't understand--I've heard your 
answers, and I understand you're not solely responsible, so it 
is not all aimed at you. But, I think we need to be more 
explicit about what Member States are not giving you the 
support.
    You know, the U.S. Government has done some things. We talk 
about the helicopter, and certainly we should be able to do 
something in that regard. Of course, our engagement in Iraq and 
Afghanistan leave us, in large degree, unable to respond in a 
way that we should. But, the fact of the matter is, I know that 
we have come up with over $450 million to construct bases. 
Maybe that's not enough. But, at the rate that we're going, the 
United States Government's ability to work with the United 
Nations, we should forget about the next administration and the 
next administration after that and the next administration 
after and the next administration after that, before we finally 
get to the deployment of what we are looking for.
    I hope you can give this committee some sense--what do you 
expect to have, boots on the ground, at the end of this year?
    Dr. Lute. Eighty percent.
    Senator Menendez. Eighty percent?
    Dr. Lute. Yes, sir.
    Senator Menendez. Eighty percent of the 26,000?
    Dr. Lute. Yes, sir.
    Senator Menendez. If we have achieved only 300 new 
personnel during this period of time, can you give us the 
projection of how you're going to get to that 80 percent?
    Dr. Lute. Yes, sir.
    Senator Menendez. I'm listening.
    Dr. Lute. We have spoken to the troop-contributing 
countries about--they have conducted their reconnaissance. We 
have, at the moment, streaming in what we call COE, contingent-
owned equipment, from several of them. We will have additional 
battalions from a number of the existing troop-contributing 
countries on the ground. We are engaging the partners--that is 
to say, the non-troop-contributing countries--to engage with 
other countries who are willing to put troops on the ground, to 
ready them in the area of equipment, important training, 
mobility, command and control. As I mentioned before, we are 
bidding out a multifunction logistics contract to facilitate 
the support to these units on the ground. We are asking them to 
deploy, self-sufficient, with a light-engineering capacity, 
to--because they will be going into brownfield sites. So, yes, 
we are working out the detailed planning to accelerate the 
force deployment.
    Senator Menendez. So, you are telling the committee that, 
by the end of 2008, you will have a little over 20,000 troops 
there?
    Dr. Lute. We--the numbers--the total force of UNAMID, the 
total mission size, is just over 31,000, consisting of 
military, police, including formed units and individual police, 
and civilians. We project to have 80 percent of those numbers 
on the ground, if we--if our assumptions hold true, if the 
partners stay engaged, if the government continues to allow us 
to deploy smoothly. So, yes.
    Are there planning assumptions in that? Yes; there are. Is 
it a plan? Yes; it's a plan.
    Senator Menendez. So far, the government has created its 
own set of obstacles. What leads us to believe that, in fact, 
it won't continue to provide those obstacles, moving forward?
    Dr. Lute. We're going to continue to stay engaged with the 
government, both at the national level and at the regional 
level, and throughout, from the port of entry, Port Sudan, 
through to the forward-positioning sites of these battalions. 
That's our job. And then, we're going to have to stay engaged.
    Senator Menendez. Well, I must say that I hope that your 
testimony ends up being fact, because if you are sitting, as a 
Darfurian, in the camps in the Sudan, if you are being attacked 
by the janjaweed, if your life is a living hell, you would 
really have a doubt about the value of the United Nations. You 
would wonder about the world and its response to genocide.
    And, just because it takes place within the confines of a 
country, if that is going to be our view of genocide, then we 
should stop saying ``never again,'' because ``never again'' can 
continue to be a hollow promise if all we are allowed to do is 
see the genocide take place and talk about impediments. I 
cannot believe the world cannot come up with 26 helicopters. I 
cannot believe that the world cannot generate enough pressure 
on the Sudan to make sure that all of the roadblocks are 
removed, as well as the redtape and all of the bureaucracy.
    And let me just close with this, we're going to hear from 
Ambassador Williamson. In part of his testimony, he says, ``In 
the face of these obstacles''--he talks about what's going on 
today--``the United Nations has demonstrated far too little 
creativity or flexibility in addressing the slow pace of 
UNAMID's deployment.'' Would you disagree with this.
    Dr. Lute. I absolutely disagree.
    Senator Menendez. You would.
    Dr. Lute. Yes, I would.
    Senator Menendez. You've had a lot of creativity, and 
you've had a lot of flexibility.
    Dr. Lute. You know, I'm--we have explored--as I mentioned, 
Senator, when I started, this is the 18th new mission I've done 
in 5 years. We have both expertise and we have some experience 
under our belt about how to put a mission in on the ground, 
what it takes to mobilize the civilian expertise, the military 
expertise. We know how to do it when it's easy, and we know how 
to do it when it's hard. Have we been as creative as we should 
be? Probably not. Have we done our best? We can always do 
better. Have we been flexible? The system is not really 
designed for flexibility. Have we stretched the limit--the 
system to its limits? Yes, and we'll continue to do so.
    But, I don't agree, and I don't think my colleagues deserve 
an accusation of inflexibility and a lack of creativity. But, 
we'll--we just have to stay at it, and we have to continue to 
work to do our best.
    Senator Menendez. My time is up, but let me say, Dr. Lute, 
if I was sitting in one of those camps, the counsels of 
patience and delay would not be something that I want to hear.
    And I hope that, Mr. Chairman, this committee looks, as we 
look at the supplemental, at opportunities to further show U.S. 
leadership in this regard; otherwise, these words about ``never 
again'' are hollow promises, and I don't believe in that.
    The Chairman [presiding]. Thank you, Senator. We will look 
at that. But, it takes an administration commitment, which I 
have been talking directly with the President about for 4 
years, and I don't see it yet. But, that's a different story.
    The Senator from Maryland.
    Senator Cardin. Thank you, Mr. Chairman.
    First, Dr. Lute, let me thank you for your service and your 
commitment to do everything you can to help the people in the 
Sudan.
    I think you share our frustration. It's been 5 years. And I 
ask myself, on a regular basis, is there anything more I can do 
as a Senator? And we're all frustrated. The tragedies continue. 
And we look at what we can do to be more effective.
    Now, you have one responsibility. I appreciated that you 
started your testimony by accepting responsibility for the role 
that you play in trying to get the forces on the ground to 
provide the stability and security in the Darfur region of 
Sudan so that humanitarian assistance can be delivered and 
people can live without fear of being killed. That's one part 
of the problem. And, in that area, we're not getting the 
international cooperation we should. Too many countries have 
not cooperated.
    When you responded to Senator Menendez's point about the 80 
percent by the end of the year, you put, as you should, many 
``ifs.'' Some of those ifs involve players that have been far 
from consistent, including the Sudanese government. We don't 
know what their attitude will be tomorrow.
    The difficulty we have is that it's not just the stability 
on the ground, it's the peace process within Sudan, it's the 
meddling of Sudan's neighbors, it's a complicated situation.
    So, my question to you is: Who is responsible here for the 
overall strategy? The United Nations is the premier 
international organization. We know that the leadership within 
the region is not capable or willing to resolve the problems, 
and it involves the international community. We've acknowledged 
that with the U.N. resolutions. So, if you were the chairman of 
this committee, who would you suggest that we bring in for 
briefings? Who can bring this all together? As you make 
progress on one front, we lose ground on the peace process, or 
we find that Chad's getting involved here in a very 
unconstructive way. So, who? Is it the President of the United 
States? Who is the person who can bring the type of progress 
that each one of us wants? We don't want to continue to say 
that genocide is continuing under our watch.
    Dr. Lute. I always feel like I should never speak for 
others. I was born into the middle of seven children, and it's 
not a habit I developed. From Jersey. It's--there's a certain--
dealing with reality that you have. My reality, Senator, is 
getting that operation in on the ground. Who's responsible? You 
won't like my answer. We all are. We're all doing everything we 
can. We're all, every day, waking up and looking at our hands, 
saying, ``How are we acquitting ourselves today?'' You know? 
Are we all doing everything--the answer, of course, is ``No.'' 
Could we be doing more? Yes; we could do more. Could the 
Government of Sudan do more? Sure. Could the leaders of the 
people under duress do more? Could the leaders of these 
militias and the groups that insist to pursue their agenda by 
fighting do more and do better? Yes. Could the regional actors 
do more? Could the international community do more? Yes. We can 
all do more.
    Senator Cardin. The problem is that a lot of the players 
you just mentioned have very narrow views. There's a power 
struggle, there's hatred, there's all things that go on when 
people's lives are destroyed. Yes, they could do more. But what 
can the international community do to stop the genocide in the 
Darfur region of Sudan? What can we do to end this? Our 
chairman, at one time, suggested a more robust U.S. 
involvement, militarily, to stop the genocide. I can't think of 
a more appropriate use of military than to stop genocide. So, 
what can we do?
    Dr. Lute. What I--I can only answer that for myself, 
Senator. What we have to do is--we've been given a challenge to 
deploy a 31,000-person force onto the ground in Darfur. I need 
some help to do that. I can't do it by myself. We can't do it--
the U.N. can't do all that needs doing, and all that needs 
doing can't be done alone. I need the Member States to continue 
to stay engaged politically, both through the Government of 
Khartoum and with those parts of the warring factions on the 
ground with which they have influence. And they do. We need the 
regional actors of prominence to engage and--supportive of the 
political process that has been led by Mr. Eliasson and Dr. 
Salim Salim. We need troop-contributing countries willing to 
put their forces on the ground. We need countries who don't 
have, or for other reasons cannot, put forces on the ground to 
be willing to equip those forces, to help train them, and to 
provide them with the means necessary to discharge their 
operational mandate on the ground, and achieve their self-
sustainability.
    We need a lot of things and all of these things. There's no 
simple answer.
    Senator Cardin. And I would suggest one more thing we 
need--and our chairman has really been out in front on this--is 
to keep this issue before the public.
    Dr. Lute. Yes, sir.
    Senator Cardin. And I appreciate the fact that we have a 
large group at this hearing. I think that's reflective that the 
United States, people of this Nation, are really concerned 
about what's happening. We cannot let countries and leaders and 
factions continue to go unchallenged.
    I'm frustrated. I would like to see us come up with 
creative new ideas. I think that we've let a lot of deadlines 
go by without action. To me, that just encourages the factions 
that want to cause problems to continue to cause problems. I 
think we should have been a lot firmer earlier. I am 
disappointed that the international community has not shown the 
same urgency that I think has been demonstrated by your 
activities and by the activities of our country.
    I am proud that America has really made this a priority. I 
think we could have done a lot more. But, we certainly haven't 
had the help of the other countries with the same urgency that 
this circumstance requires.
    I thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Senator Casey.
    Senator Casey. Thank you, Mr. Chairman.
    And, Doctor, I want to thank you for your service, as both 
a soldier and a peacekeeper, under terribly difficult 
circumstances.
    I wanted to ask you a couple of questions, some of which 
may be redundant, but I think it's important to repeat 
ourselves a little bit in order to establish certain facts.
    I'm thinking about this issue from the context of my 
responsibility as a U.S. Senator, as well as in the context of 
people listening to this hearing. You know the frustration. We 
share it; there's a lot of frustration in this room, which is a 
dramatic understatement. But, I want to give people who are 
watching this hearing, who will report on it, and have the 
record reflect some of the basics.
    When anyone looks at this continuing failure to have enough 
troops deployed on the ground to be able to effectuate what 
we're trying to get done--in terms of providing the apparatus 
or the conditions to provide help--it's very hard for me or 
anyone--and I know it's hard for people in this room--to 
understand why we can't get 25 or however number of helicopters 
we need on the ground. It's very hard for people to understand 
why years have gone by, or at least many months have gone by in 
this specific case, when troop level commitments have been 
made, yet they're not on the ground. Can you just speak to--in 
terms of the mechanics--why this isn't happening?
    Dr. Lute. It--Senator, it's challenging, because we have no 
existing capacity. So, every time a mission is developed, a 
mandate is given by the Security Council, we go to the Member 
States and compose the force, unit by unit by unit, from the 
Member States that are willing to put their soldiers on offer, 
their peacekeepers, their police men and women on offer. We 
design the force and we compose it, and then we go to the 
troop--our familiar troop-contributing countries and others and 
ask them, can they provide this battalion, can they provide a 
transportation unit, can they provide a helicopter squadron? 
Every time, one by one.
    Senator Casey. But, I guess I still don't understand the 
disconnect there. Commitments are made, but----
    Dr. Lute. Oh, they're--and, by and large, they are followed 
through on. But, for our major troop-contributing countries, 
for example, they agree to a force deployment. It goes through 
the political process of being acknowledged, agreed, and 
formulated into a coherent peace operation strategy for the 
ground. The units then--or the countries, the contributing 
countries then go through the process of preparing their units 
for deployment to those specific circumstances in the area 
where you're asking them to go, easily recognizable by anyone 
in the U.S. military as the standard way of preparing a force 
for a specific application in mission duties on the ground. 
They conduct a reconnaissance. They mobilize the equipment that 
they need. They train their soldiers. Sometimes they don't have 
the equipment or the training hasn't yet occurred. We need, 
then, to work with them. They need to work bilaterally with 
other partners to augment their capabilities with this 
additional equipment. It all takes time.
    Senator Casey. It doesn't make much sense to me. It really 
doesn't. But, let me move on.
    With regard to the armed groups and the militias, can you 
describe those groups to us? That's part one--and part two is: 
Are U.N. peacekeepers allowed to, and have they, recently 
engaged those armed groups or militias in any way that's been 
productive?
    Dr. Lute. Senator, with your permission, again, I am 
familiar with, but I fear it would be too superficial for your 
interests. The array of militia groups on the ground, the 
various SLA factions, the SLM, the JEM, et cetera, we can 
provide that information----
    Senator Casey. Sure.
    Dr. Lute [continuing]. To the committee with an assessment 
of, by and large, their agenda that is in play.

    [The information referred to above was not available at 
press time.]

    Dr. Lute. The force has the--it is a force that is equipped 
to defend itself and to use force, if necessary, to discharge 
its mandate. There has--it is a force that has been under 
attack. Eleven soldiers were killed in an attack on one of our 
camps in Haskanita. It was essentially a fixed encampment with 
nothing between it, the forces that were sleeping--it was a 
nighttime attack--and acres and acres and miles and miles of 
dirt--nothing between them and as far as the eye can see, 
except concertina wire. And these soldiers were, tragically, 
killed. It is, therefore, important to us--we know there is 
still fighting going on--it is important to us that this force 
have the political backing of all of the Member States, that it 
have the support of the government, that it be well equipped, 
well trained, and ready to defend itself for these kinds of 
contingencies. So--and, yes, it is--we are designing a force. 
It is not a warfighting force. It is a peacekeeping force; 
nevertheless, armed to use force, if necessary, to discharge 
its mandate.
    Senator Casey. But, has there been any recent engagement 
between peacekeeping forces and militias or similar groups?
    Dr. Lute. January was the most recent.
    Senator Casey. OK. Let me ask you--I know I'm out of time, 
but--we have a responsibility here to do everything we can. If 
you could mandate or have a magic wand, so to speak, to direct 
the U.S. Senate to do something, what would you want us to do 
to help?
    Dr. Lute. Senator, I will--I'm a little in danger of 
repeating myself, so forgive me, but--I can tell you what we 
need, to do robust peacekeeping. We--there must be a peace to 
keep. You will decide for yourself if you have--the Senate has 
a role in enforcing that process. There must be unanimity in 
the Council and political unanimity and consensus among the 
Member States of support for this mission in every way 
possible, in their bilateral relations, in their multilateral 
relations, as well. There must be willing troop-contributing 
countries who have the capacity, because a peacekeeping mission 
is not just about numbers, it's about the capacity of those 
numbers to discharge their mandate on the ground in difficult, 
austere, and dangerous circumstances, including, when 
necessary, the use of force.
    Some of our troop contributors lack key capacities, and 
partnering countries, such as the United States, have been very 
supportive in the past. We're very grateful for that support. 
They need to continue to stay engaged and do everything they 
can to ensure that the follow-on forces committed into the 
peacekeeping mission have the capacity that they need, as well.
    Coming back to the chairman's point earlier, the only thing 
about the standing force is, every idea whose time has come 
began as an idea ahead of its time. This is an idea whose time 
has come. We need a robust strategic planning capacity at the 
United Nations. We need the ability to draw on standing 
resources, material, personnel of all kinds. This is not 
spending money on peacekeeping, this is investing in the 
capacity of this organization to mount and sustain these 
operations instead of doing them ad hoc or in haste.
    Senator Casey. Thank you.
    The Chairman. Doctor, let me--I just have one comment and 
maybe one question, then we'll let you go. First of all, you 
live in a busy household. You're taking care of Darfur, and 
your husband is taking care of Iraq and Afghanistan. No easy 
problems in your house.
    Dr. Lute. No, sir.
    The Chairman. It must be great kitchen-table discussion.
    Dr. Lute. We don't see each other that much, sir. 
[Laughter.]
    The Chairman. Not a lot of pillow talk. [Laughter.]
    Let me say to you what I said at the outset. I just know 
more about you, maybe, than some of my colleagues do, because 
some of my staff worked with you. You are held in exceedingly 
high regard, and I mean that sincerely. I think you're really 
smart and you're really in a difficult spot.
    I'd like to--not for you to comment, unless you choose to, 
but I think that we all know why things have dragged on as long 
as they have. I don't know of any situation that has 
spontaneously solved itself like the situation in Somalia, in 
the North/South issue, or Darfur.
    I went to see one of your former military colleagues, and a 
colleague of your husband of similar rank, 4 years ago, and he 
gathered together a group of his compatriots, who had stars and 
bars on their shoulders from NATO, and I spent some time 
sitting in the headquarters in Europe, and I said, ``What would 
it take to stabilize the situation in Darfur?'' This was 4 
years ago, now. And they whipped out a plan. And the bottom 
line was, to oversimplify it, 2,500 to 3,500 NATO forces, 
trainers to go in, cargo planes, airlift capacity, 
helicopters--but, to go in and shut down the Janjaweed. I 
visited an airbase in Chad, which you're familiar with, former 
French base, where you could impose the no-fly zone. I know 
that would impact on what already is impacted on anyway--food 
delivery and aid. But, the answers that I got from the military 
was, ``We can do this, but there's not any political will to do 
this, in Europe or in the United States, for that matter.'' And 
it was suggested, by one general in particular, that if the 
President of the United States made this an issue, took it to 
the forefront at the NAC, that this could get done. This could 
get done.
    Now, things have deteriorated significantly since then. Our 
situation, in my view, in Iraq has complicated things. You had 
a great expression; I can't remember it exactly--but, ``If 
you're looking for an excuse, you can find one,'' or whatever 
the phrase you used before. Now, I had called for the 
unilateral use of American forces, absent NATO's willingness to 
move. Didn't get any reception here in the Congress, didn't get 
any reception in Iowa or anywhere else. And I said if I were in 
that spot--yes, with present company excluded, present company 
excluded----
    [Laughter.]
    The Chairman [continuing]. That's why we both got out so 
quickly. [Laughter.]
    The Chairman. But, all----
    Senator Dodd. Now they say experience matters. [Laughter.]
    The Chairman. That's right. [Laughter.]
    The Chairman. We spent more time endorsing one another in 
Iowa, and it probably was the kiss of death when I said, ``If I 
wasn't in, I'd be for him.'' And he said the same. That was it. 
So, we both came home.
    [Laughter.]
    The Chairman. But, all kidding aside, the arguments now--
and I may ask you to comment on one aspect of what I'm going to 
say--only one, because you're not in a position, in your 
present role, to comment on all of them--there's an argument 
that, because of Iraq--whether we made mistakes or everything 
we did was right--we now have a, ``Muslim problem'' worldwide. 
So, for the United States to go in and take on a Muslim 
government in Khartoum that is, in my view, responsible for the 
killing, we would lose further standing throughout the Muslim 
world. So, that's one of the ``why we can't''--we, the United 
States, can't do anything unilaterally.
    China, big problem. China could be a major part of the 
solution. But, China has a--oil resource stream there. They 
don't want to be any part of any real crack down on Khartoum.
    The no-fly zone. The very community that I care most about, 
and we all do, the humanitarian community, was very critical of 
my suggesting imposing a no-fly zone. Understandably. I 
understand that. But, what I predicted happened anyway, they're 
not able to deliver the food anyway now.
    And then, there's this overarching concern here in the 
United States, which totally understandable, starts on my 
pillow with my wife, who's also a doctor, who says, ``Joe, I 
don't want us to be involved in any more. I don't want to send 
my son. He's already going to Iraq. I don't want him going 
other places.'' I mean, we can't solve this. We can't solve 
this.
    One thing I want you to comment on--there are all the 
pushbacks I've been getting for 4 years. And I'm not saying 
they're not legitimate. I think this is a very tough call. But, 
were I making the call, I would, literally, not figuratively, 
unilaterally deploy U.S. forces. I would do it. NATO would 
follow, because they'd have no choice, in my humble opinion. 
And I believe, when a nation engages in genocide, it forfeits 
its right to claim sovereignty. And so, I would not even 
consult with Khartoum. That would leave a lot of problems. A 
lot of problems. But, I think we have to face up to the fact 
that if we really want action, there's only one way it's going 
to happen: If the United States mobilizes the rest of the world 
and says, ``We're going to act.'' Short of that, no one else 
is. No one else is. In the near term.
    That's why I raised the issue of the Euro-U.N. force in 
Chad. And--because you could argue the same problems exist 
there. We're siding with the Chadian Government against the 
rebels in Chad. We're in a position where we're making a 
judgment. We're engaged in the sovereignty issue in Chad. We're 
dealing with all the same problems, except it's more doable in 
Chad, so we're prepared to do it, in my view.
    So, here's the point, and I apologize for going on. Absent 
the United States leading the way and deciding to go in, 
providing the cargo capability, providing the helicopters--I 
mean, the idea of the United States of America with a half-a-
trillion-dollar military budget now? It's about a half a 
trillion, isn't it? A half a trillion dollars. As I said to the 
President, ``We can't find eight helicopters?'' Literally, if I 
were President, or if Roosevelt were President, guess what? 
He'd manufacture them. Literally, not figuratively. We'd pass 
legislation, special authorization, a supplemental, authorizing 
the construction of eight new helicopters. We'd go to Boeing, 
whoever, and say, ``Build 'em.''
    Senator Dodd. Sikorsky.
    The Chairman. So, we go to Connecticut and----
    [Laughter.]
    The Chairman [continuing]. And do it.
    Senator Dodd. Just want to get in a pitch. [Laughter.]
    The Chairman. That might end up being the biggest problem 
of building them. [Laughter.]
    The Chairman. The Senator from Pennsylvania and I might 
want it at Boeing, down in south Philly. All kidding aside, you 
know, short of that, though, for us to go at the U.N. for not 
doing something, I find it inconsistent--what can you all do?
    So, here's my question, after that long, long prelude. In 
the experience of you and your colleagues in the peacekeeping 
side of the mission, is there, for lack of a better phrase, an 
``allergy'' to U.S. forces being involved, in any capacity, in 
a country led by a Muslim government? Is it--do you hear, from 
your colleagues at the United Nations, talk that I hear coming 
from those who don't want us to--and there's good reasons not 
to want to get engaged in a military operation unilaterally in 
the United States after asking people to help, but not being 
willing to do it--but would it be different if the--Khartoum 
were not a Muslim government? How much does that play, when 
you're putting together forces, when you're pushing for 
engineers, when we're trying to get communications equipment 
in--how much of it is cast in the light of the United States 
imposing its view on another Muslim country? Do you hear that 
chatter? Is that part of what goes on up in New York? Or is 
it--if you're able to--and you can demure, obviously, if you 
wish, because, again, you're in a difficult position. But, I'd 
like to have a sense of that.
    Dr. Lute. What I would say in response, Senator, is that 
there has--there had been a traditional avoidance of using any 
of the Permanent-Five Members of the Security Council in a very 
large way in peacekeeping, with a few important exceptions. 
That traditional----
    The Chairman. Well, let me go back. We both would agree, 
we're not really peacekeeping here. We've got to establish 
peace. I mean, I would argue, this is a helluva lot more like 
when I was pushing Clinton to go into Bosnia. This is a helluva 
lot more like ending genocide, where we had to unilaterally 
act. We went to the United Nations, the United Nations was 
unwilling to act, and we eventually go the point where, quite 
frankly, I think, the French and others were shamed into 
acting, once we decided we were going to act. Up to that time, 
people sat--I sat in Sarajevo, talking to people who had been 
butchered, their families, I mean, literally 2, 3 days before. 
And Lord Owen--the Foreign Minister of Great Britain--was 
talking about the cantonization of Bosnia. And we were talking 
about getting the U.N. in. The U.N. was the problem. Not their 
fault. The U.N. stood there and watched people in Srebrenica 
get loaded onto trucks, with the whole world watching, and drug 
off to stand above a pit, get their brains blown out, and put 
in mass graves. The U.N. did not intentionally, but it 
indirectly facilitated it. I remember speaking with General 
Rose, heading up the U.N., wearing a blue helmet, him telling 
me, ``You can't bring in air power, you may strike one of the 
U.N. forces.''
    So, I mean, at some point, you've got to establish the 
peace. I'm talking much too much. But, my frustration is, like 
yours, intense. I've concluded there's no way anything's going 
to happen unless the President of the United States says 
something's going to happen. And they're going to have to take 
a great risk. Other than that, we're going to beat up on you, 
we're going to beat up on the U.N., and the truth of the matter 
is, it is beyond the capacity of the U.N., without the 
willingness of Khartoum to genuinely cooperate, and without the 
willingness of the rebels to genuinely begin to negotiate, and, 
in the meantime, as that old expression attributable to the 
world-famous economist says, in the long run, they'll all be 
dead. They'll all be dead in the long run. Nothing is--the best 
thing that's happened so far, in my opinion, Doctor, is the 
fact that you and the EU have committed 3,700 EU troops on the 
ground in Chad because that will end what's happening in those 
camps. It will significantly reduce the killing going on in the 
camps and people outside the camps. It will impact the cross-
border raids. Short of that, I don't know what you can do.
    But, do you hear any talk about this Muslim-U.S. conundrum? 
Is that a topic of discussion?
    Dr. Lute. By and large, Senator, the--that is not a major 
feature of the conversation. It is the other commitments that 
exist that permit or preclude Member States from committing. 
And the same is true with the United States.
    The Chairman. I--again, I'll yield to anybody who has any 
question--I would like to give to you time, and I know we have 
a second panel, and my staff is telling me ``get going,'' here. 
But, I want to note--article 43 says, ``All members of the 
United Nations, in order to contribute to the maintenance of 
international peace and security, undertake to make available 
to the Security Council on its call, in accordance with special 
agreement or agreements, armed forces assistance and 
facilities, including rights of passage, necessary purpose,'' 
et cetera, et cetera. That's article 43, section 1. For your 
benefit, I'm going to give you a copy of that proposal I made 
in 1992----
    Dr. Lute. Thank you.
    The Chairman [continuing]. And I would appreciate your 
constructive criticism of whether or not it may be more 
feasible today than it was in 1992, because it is--it's more 
along the lines of what you were saying regarding what you need 
to have to effect this capacity.
    So, are there any further questions for the Doctor?
    [No response.]
    The Chairman. Doctor, again, thank you for your service. 
What rank were you in the military?
    Dr. Lute. I was a major, sir.
    The Chairman. Well, I'll tell you what, you talk like a 
really tough sergeant-major.
    [Laughter.]
    The Chairman. I tell you what, I don't think anybody gave 
you any guff. [Laughter.]
    And I'm glad----
    Dr. Lute. I have a 3-year-old. [Laughter.]
    The Chairman [continuing]. You're in the position you're 
in.
    Dr. Lute. Sir, if you'll permit me, Mr. Chairman, I--you 
have been very kind, and the Senators have been very kind in 
complimenting me, and I would just like to say, in response, is 
that the ones who deserve the compliments are the young men and 
women, the young soldiers who are peacekeepers, who go to these 
places expecting the worst humanity has to offer, and the young 
civilians, some of whom I have with me today, who go to these 
places believing in the best humanity has to offer. This is the 
combination of peacekeeping. And, sir, it's my privilege just 
to be one of their number.
    The Chairman. Well, it's our privilege to have you here. 
And it seems to me it's our obligation, as one of the leaders 
in the world, to try to get the major nations to move toward a 
position where we establish peace before you have to go keep 
it.
    But, at any rate, thank you very, very much, Doctor.
    Our next panel, and our last panel, is the Honorable 
Richard Williamson, the President of--Special Envoy to Sudan, 
to whom a lot of the questions we had might more appropriately 
be directed; and the Honorable Katherine Almquist, who is the 
Assistant Administrator for Africa, U.S. Agency for 
International Development. Both have equally difficult jobs. I 
welcome them. And I particularly welcome back Mr. Williamson, 
the Special Envoy, whose predecessor had some very strong 
words, a year ago. We may have been better if we had listened 
to him, I think.
    But, at any rate, ladies and gentlemen, thank you very much 
for being here. Thank you for your patience. And, why don't we 
recognize you for your statements in the order in which you 
were called. And if you do not want to do your whole statement, 
we will include it in the record, and you can summarize. But, 
the floor is yours.
    Good to have you. Thank you.

STATEMENT OF HON. RICHARD WILLIAMSON, PRESIDENT'S SPECIAL ENVOY 
         TO SUDAN, DEPARTMENT OF STATE, WASHINGTON, DC

    Ambassador Williamson. Thank you, Mr. Chairman.
    I've submitted a lengthy written statement and look forward 
to the opportunity for questions and trying to respond to them. 
And I deeply appreciate the interest of the members of this 
committee in the terrible situation that is ongoing in Sudan.
    Rather than go through my written statement, I'd like to 
make just a few observations, including regarding the dialog 
that's now going on, which was in the New York Times last week.
    First, I think it's important to recognize that there are a 
lot of bad actors in Sudan, in Darfur. The government, in its 
reply to a rebel attack in 2003, opened the gates of hell. 
Since then, the Arab militia, the Janjaweed, the ``devils on 
horseback,'' sometimes in coordinated attacks with the 
government now, sometimes on their own, are engaged in terrible 
acts, and rebels also--rebel movements are also engaged in acts 
that harm innocent civilians.
    I have a slightly different take on the question of whether 
or not there's a peace to keep. I first became involved in U.N. 
peacekeeping over 25 years ago, in my first ambassadorship. I 
think, in my opinion, in Sudan you will not move to peace until 
you change facts on the ground. And a key to changing facts on 
the ground is moving to some--more toward sustainable 
stability.
    I agree with you, Mr. Chairman, I think the deployment of 
the EUFOR forces are important. Those 3,700 European forces, 
and their activity on the Chad border is important to gain 
security. That's why, last Monday, I had discussions in Paris, 
including with Foreign Minister Kouchner exactly about that, 
because the bleed-in of violence in Chad into Darfur, and the 
bleed-in of violence from Sudan into Chad, are interlinked, and 
progress has to be made on both sides.
    Further, I--and so, the deployment--and I hope I have a 
chance to discuss the particulars--of these peacekeepers are 
very urgent. They are not ``the'' answer in Darfur, they are 
not ``the'' answer for peace, but they will contribute to more 
stability. It will crowd out the space in which bad actors can 
be perpetuating atrocities, insecurity, preventing humanitarian 
assistance to flow, et cetera.
    Second, I agree with you, Mr. Chairman and others who have 
commented, that there needs to be progress on a political 
solution. I cannot sit here and say I am optimistic that we are 
making that progress. I am in frequent contact with my old 
friend Jan Eliasson, the U.N. mediator; in fact, talked to him 
this morning about his most recent trip. And we, of course, 
support Ambassador Eliasson and AU Representative Salim in 
their efforts.
    But, if I can, let me just talk through the events that 
went on the last 3 months that have resulted in a dialog, going 
forward at Addis, and about the AU summit. The Sudanese Foreign 
Minister Deng Alor, who is from the South and is a member of 
the SPLM, in a meeting with Assistant Secretary of State for 
African Affairs, Jendayi Frazer, and I, approached us and gave 
us the message that President Bashir and the NCP, and in 
consultation with the SPLM members of the National Unity 
Government, had a series of meetings and wanted to make an 
overture to see if it was possible to have an adjustment of 
relations with the United States. After consultation back with 
Washington, Secretary of State invited Foreign Minister Deng 
Alor to come here for a discussion. He did so, along with 
Mustafa Ismail, a principal advisor of President Bashir and a 
member of the NCP. There were a series of meetings with Deputy 
Secretary Negroponte, the Assistant Secretary Frazer, and 
myself, and then with Secretary Rice, in which this was 
explored.
    Secretary Rice made absolutely clear that this should not 
be an initiative entered into lightly, that we had a trail of 
broken promises and broken efforts in the past and any 
discussion with the Government of Sudan, and that it would not 
be good for the Government of Sudan unless it was a serious 
effort. They assured us it was.
    After some deliberation, we then proceeded to prepare a 
document with specific actionable, verifiable steps. We've had 
lots of promises about peace and other generalities, stability. 
The items we developed, with the help of Kate Almquist and 
USAID on the humanitarian side, dealt with specific matters, 
such as multiple entry of visas for humanitarian workers, visas 
within 48 hours, container in the Port of Sudan released within 
7 days, allowing the corn soy blend product, which is high in 
nutrition, is used all over the world to deal with malnutrition 
of children, and had been prevented from being allowed into 
Sudan, that that would be entered, et cetera.
    We sent that paper. And then I traveled to Sudan. I had a 
series of meetings in Khartoum; of course, traveled to Darfur, 
visited a camp, et cetera, met with UNAMID officers, and in 
Juba, sat down with Salva Kiir to review this and to share it 
before we went up back to Khartoum to meet with Dr. Nafie and 
President Bashir and give them a copy of this nonpaper 
outlining the sort of things we would need for any discussion.
    And let me emphasize that we said, repeatedly, that we were 
laying out a long, tough road that had to be verifiable and 
progress on the ground for any better relations. Also let me 
say that, in my conversation with President Bashir, he said he 
was suspicious of the United States. We've had a troubled 
relationship. They feel there were certain representations when 
the CPA was signed in the DPA that we've not followed through 
on. Of course, we felt it's impossible to follow through on 
them because of the continued violence in Darfur. But, I also 
said to him we think the Government of Sudan lies. There's 
going to be nothing taken on faith, nothing on promises. I 
referred to my first diplomatic tour during the Reagan 
administration, 25 years ago, when President Reagan called the 
Soviets the ``Evil Empire.'' Nonetheless, on nuclear 
nonproliferation, we made deals, step by step, verifiable. We 
were able to make some progress. And, while on many areas in 
those days, we couldn't, at least in the nonproliferation 
areas, we built some bridges and did make some progress.
    The Government of Sudan replied, a couple of weeks later, 
with their paper, which we--I think I'll give a--maybe I'm a 
generous grader. They got their bat on the ball, they didn't 
hit it very far. We shared it with them. We agreed to have 
meetings in Paris. We made clear that past agreements, such as 
the Joint Communique on Humanitarian Issues, the CPA, cease-
fire, et cetera, were not part of these discussions, those were 
commitments they had to live up to. We went through the very 
specific things I've alluded to earlier, and we said if there 
is change on the ground--we promised nothing up front, but if 
there is change on the ground and these things are happening, 
which we believe would help alleviate humanitarian assistance, 
would contribute to greater stability, then we would look at 
taking steps.
    Let me emphasize, what we've done is outlined, laid out in 
detail, a long, tough road to better relations, similar to how 
Senator Jack Danforth did when he had--was the President's 
Special Envoy to Sudan, and initiated the talks on the 
Comprehensive Peace Agreement, and he laid out what the 
Government of Sudan must do.
    Senator, I wish I could sit here and say I'm optimistic 
that this will be fully successful. I also wish I could tell 
you that, in the foreseeable future, there's possibility for 
peace. There are a lot of bad actors who have done 
incomprehensibly evil things to innocent people. The violence 
continues. The genocide in slow motion continues. But, one 
thing I know is, we can take practical steps to get boots on 
the ground. We have done them. I'll look forward, during the 
question-and-answer period to outline them in more detail.
    I know we can do a better job of humanitarian assistance. 
Last year, the areas accessible for humanitarian assistance 
have shrunk. That means more people aren't getting the aid they 
got just a year ago. Even as you mentioned in your opening 
statement, 90,000 more people have been driven from their homes 
because of violence near El Geneina.
    We do think a political dialogue is necessary. We support 
the United Nations-African Union effort. We also will have our 
discussions, which I have talked to rebel leaders, as well as 
Government of Sudan officials, and, of course, consultation 
with the southern government.
    Let me, finally, say, any progress in Darfur is contingent 
on the continued implementation of the Comprehensive Peace 
Agreement. And there have been times it has seemed threatened. 
It has been frayed. There were concerns, legitimate concerns it 
might unravel. The United States continues to be deeply engaged 
to try to give every support it can for that process to 
continue to keep the Comprehensive Peace Agreement on track. 
We're pleased an arrangement was worked out between the North 
and the South so the census could go forward in a few days. 
We're pleased the SPLM will have its first political convention 
next month. We're disappointed there hasn't been progress on 
the Abyei border. We're disappointed that there are other 
issues that remain outstanding, including the transparency of 
oil revenue sharing.
    But, as you've said, Mr. Chairman and other members of this 
committee, this is a complex issue. But, I don't think its 
complexity is an excuse for us not to make progress. And I do 
know progress will result by getting more boots on the ground. 
Progress will result if we can get humanitarian aid to more 
people. Progress will result if we work more closely with the 
French and others on the joint problem in Chad, in Darfur, 
where there's cross-border support, cross-border travel, and 
Darfurians, either in IDP camps in Sudan or in refugee camps in 
eastern Chad, continue to be terrorized.
    Thank you, Mr. Chairman.
    [The prepared statement of Ambassador Williamson follows:]

   Prepared Statement of Hon. Richard S. Williamson, the President's 
      Special Envoy to Sudan, Department of State, Washington, DC

    Thank you, Chairman Biden and members of the Senate Foreign 
Relations Committee. I am grateful for the opportunity to be here with 
you today to discuss how the United States is addressing the tragic 
situation in Darfur and working to support the Comprehensive Peace 
Agreement (CPA).
    The suffering and misery of the Darfur people has gone on too long. 
The humanitarian situation is deteriorating. Since the horrific 
atrocities committed in 2003 and 2004, civilian lives continue to be 
taken, displaced, or shattered by rape, beatings, malnutrition, and 
disease. Since 2003, an estimated 200,000 people have died in Darfur as 
a result of this brutal conflict and some 2.5 million people have been 
displaced. Countless women have been raped and children have been 
injured. The number of killed and displaced persons continues to grow 
and reflects an atmosphere of continuing violence.
    Civilians who have been forced from their homes and live in 
internally displaced persons (IDP) camps are not safe from violence. 
Women who venture out to gather wood without escorts are molested, 
robbed, and raped, while men are abducted and tortured or murdered. 
Armed men have been known to enter these camps to either attack or 
harass the IDPs.
    A December 10, 2006, Save Darfur Coalition Press Release from their 
Advocates Rally in the Nations Capital Against Rape and Sexual Violence 
in Darfur recounted the horrific experience of a survivor of the 
violence in Darfur, only one of too many lives that have been destroyed 
by this tragedy. She recalled, ``Janjaweed militia and Government 
soldiers attacked a primary school for girls, raping the pupils. . . . 
Because I told people what happened, the authorities arrested me. They 
said, `we will show you what rape is.' They beat me severely. At night, 
three men raped me. The following day the same thing, different men. 
Torture and rape, every day, torture and rape.''
    In recent months, the security situation on the ground has become 
increasingly chaotic. Civilians are caught in the crossfire of rebel 
groups, armed militia, tribal groups, and government forces. Villages 
are desolated, livelihoods destroyed, and people are either killed or 
forced from their homes.
    Attacks in west Darfur this past February displaced more than 
50,000 people, including an outpouring of more than 13,000 who have 
crossed into eastern Chad, and caused over 200 casualties. According to 
the United Nations (U.N.) Office for the Coordination of Humanitarian 
Assistance (OCHA), nearly 80,000 Darfuris have been displaced since 
January 2008. This lack of security in Darfur fuels the humanitarian 
crisis by impeding humanitarian operations in Darfur. The priority of 
the U.S. Government is to ensure the delivery of life-saving 
humanitarian assistance to the more than 2.4 million internally 
displaced persons and more than 200,000 Darfurian refugees and 
displaced host populations in eastern Chad.
    After renewed clashes over recent months in areas north of El 
Geneina, west Darfur, between rebels and the Sudanese Army, there was 
limited humanitarian access to the area. Beginning in mid-December 
2007, the northern corridor (an area north of El Geneina that stretches 
north to Kulbus) was a ``no-go'' for the U.N. and nongovernmental 
organizations (NGOs). As a result, humanitarian supplies were not 
dispatched to the north until late February of this year. Access to 
this area was completely restricted as a result of government-imposed 
restrictions on the movement of people, goods, and services after the 
area fell into the hands of the Chadian Government-supported Justice 
and Equality Movement (JEM). OCHA estimated that a total of 160,000 
civilians were affected by this blockade. In addition, on February 20, 
the Government of National Unity (GNU) Humanitarian Aid Commission 
(HAC) cancelled flights in west Darfur for 1 week, significantly 
limiting NGO access and ability to respond to humanitarian needs. 
Flights resumed by March, and although the situation has improved since 
that time and some IDPs have begun to return home, maintaining the 
delivery of humanitarian assistance remains an urgent concern. Indeed, 
accessibility to humanitarian resources remains a concern due to 
government and rebel military activity and outright banditry. This 
means there is ongoing malnutrition, disease, and deaths.
    Despite dangerous conditions, approximately 13,000 humanitarian 
workers and embassy staff are doing a remarkable and heroic job. Darfur 
is currently the largest humanitarian relief operation in the world, 
and the United States remains the single largest donor. In FY 2006 and 
FY 2007, the U.S. Government contributed over $1.3 billion to support 
emergency humanitarian activities in Sudan, including more than $920 
million for Darfur. Since 2005, the United States has provided more 
than $4 billion in humanitarian, peacekeeping, and reconstruction 
assistance to Sudan. To date, the World Food Programme (WFP) has been 
able to work at 90 percent capacity to distribute food aid to the 
people of Darfur. However, since the beginning of the year, 60 WFP-
contracted trucks have been hijacked in Darfur and 39 trucks and 26 
drivers remain missing, and the WFP has stated it will have to cut its 
food distribution by 50 percent for May because of an alarming rise in 
banditry. The people of Darfur will not experience long-term progress 
until there is security on the ground in Darfur.
    The conflict that has created all of this humanitarian suffering 
has mutated from the Sudanese Government's counterinsurgency campaign 
against new active rebel groups in Darfur in 2003 which targeted 
innocent Darfurians with unconscionable savagery to a situation that is 
complicated by shifting alliances, growing ambitions, tribal conflicts, 
and regional meddling. The Government of Sudan, the Arab militias, and 
rebel leaders all have blood on their hands. Make no mistake; this 
``genocide in slow motion'' continues, casualties mount, and more must 
be done to alleviate the terrible humanitarian suffering and bring 
sustainable stability and peace to this region brutalized and stained 
with the blood of innocent people.
    Khartoum's policy in Darfur has been the same tactic they used in 
the South: To ``divide and destroy.'' By manipulating tribal divisions, 
creating militias from Arab tribes, forcing people from their homes, 
and separating them from their tribal leaders, the government has 
created a lawless environment in Darfur that it can no longer control.
    Renewed clashes between Sudanese Armed Forces (SAF) and the 
Chadian-backed Justice and Equality Movement (JEM) in west Darfur 
resulted in a major military campaign by the Government of Sudan. The 
Sudanese military attacks involved aerial bombardments by helicopter 
gunships and fixed-wing aircraft, accompanied by ground offensives by 
SAF and militias, the ``devils on horseback.'' Human rights officers 
from UNAMID, the United Nations/African Union (AU) Mission in Darfur, 
underscored that these actions failed to distinguish between civilian 
and military objects and noted that the scale of destruction of 
civilian property suggests the damage was deliberate. A Reuters story 
quoted a resident of Abu Surug in west Darfur, saying, ``The 
helicopters hit us four times and around 20 bombs were dropped. I am 
outside the city and can see it burning. They (the attackers) are still 
inside.'' There were also credible accounts of rape committed by armed 
uniformed men during and after an attack in Sirba.
    The government-supported Janjaweed militias that are responsible 
for most of the attacks on civilians have been neither disarmed nor 
controlled, as outlined in the Darfur Peace Agreement (DPA). A report 
by the Office of the U.N. High Commissioner for Refugees (UNHCR) 
describes an attack on January 24 in which witnesses described their 
attackers as ``Arabs'' in military uniforms, riding on camels, horses, 
and a number of camouflaged military vehicles. The attackers entered 
the town and started torching houses and shops and shooting 
deliberately at people. This style of fighting mirrors the gruesome 
attacks by the SAF in 2003 and 2004, indicating fighting may be 
reverting back to the 2003/2004 style of engagement. The Washington 
Post reported on February 15 a story of a woman who ``had no breast 
milk to feed her 5-month-old baby after she spent a week under a tree 
with no food following the attack. `The Janjaweed came and took 
everything; our food, our furniture,' said the 35-year-old mother, who 
did not know where any of her other six children or her husband was.'' 
As this ongoing conflict mutates, Arab militias not only support SAF 
attacks on civilians in Darfur, but also shift alliances, join the 
rebels or attack SAF forces in retaliation for not being paid. Their 
services are available to the highest bidder.
    Government forces and Janjaweed are not the only parties to the 
conflict in Darfur inciting violence. In December 2007, JEM forces 
launched an attack on the local police station and SAF forces in Silea, 
a town north of El Geneina. These attacks prompted harsh counterattacks 
by SAF forces and started the ongoing fighting in west Darfur in early 
2008 that led to exacerbated humanitarian suffering and increased the 
areas that were inaccessible to humanitarian workers.
    Because rebel leaders have growing ambitions about wealth and 
power-sharing, many of the rebel groups have fragmented due to internal 
disagreements. The situation on the ground in Darfur is no longer 
simply a war between the GOS and rebel groups. Violent clashes between 
signatories and nonsignatories of the DPA, interethnic clashes, 
banditry and general lawlessness proves this is not a simple war. It is 
not only the Government of Sudan that is culpable in the ongoing 
bloodshed in Darfur. Some rebels have taken on the role of warlords and 
even criminals and are responsible for attacks on civilians. Armed men 
attack convoys carrying humanitarian assistance to Darfur, stealing 
vehicles and kidnapping drivers. NGO compounds are being looted, and 
local humanitarian staff are being intimidated.
    Quite simply, there is no shortage of bad actors in Sudan: In the 
Government of Sudan, among the rebels, and within the militia. I have 
seen with my own eyes the tragic consequences of the massive violence 
in Darfur. When I traveled there in February, I visited the Al Salam 
Camp for internally displaced persons and met some of the innocent 
victims of this ``genocide in slow motion.'' I met one beautiful, 10-
year-old girl whose father was killed in an attack on her village 3 
years ago. Her mother and sister rode on a donkey for 19 days before 
arriving at an IDP camp. This young girl told me she loved Sharea, the 
village she left behind. Her days were happy there. She misses her 
village, but she does not know if she will ever return home because 
``now it is too dangerous.''
    For this young child and thousands of others, there is little hope. 
And one thing seems certain. If we continue on our current path, the 
numbers will continue to rise. Despite our empathy for the innocent 
victims, our condemnation of the aggressors, our punitive sanctions, 
and our substantial humanitarian offering, this great tragedy will go 
on unabated. Our actions must give meaning to our words--we must work 
to create stability and security for the people of Darfur.
    The deployment of UNAMID peacekeepers would be a significant step 
in the right direction to help change facts on the ground in Darfur. 
But unfortunately, since the transition from the African Union Mission 
in Sudan (AMIS) to the African Union/United Nations peacekeeping 
operation, UNAMID, there has been little change on the ground.
    Without a doubt, it is a difficult and complex endeavor to 
coordinate and deploy a hybrid peacekeeping mission in a country with a 
strong and often uncooperative central government. The Government of 
Sudan has been characteristically obstructionist, especially with 
regard to the composition of UNAMID. Earlier this year, engineering 
units from Norway and Sweden were rejected by the Government of Sudan, 
even though they would have provided vital resources in the transition 
from AMIS to UNAMID and helped to quickly create the necessary 
infrastructure for new troops. Without the Nordic engineering company, 
the only engineering unit that has arrived in Darfur is the advance 
party from China. These 140 engineers are less than one-third of the 
overall engineering assets necessary for the mission--and the slow 
deployment of engineers has made it more difficult for UNAMID to 
receive the troops necessary to complete their mission.
    Unfortunately, many of the obstacles presented by Sudan have been 
difficult to pinpoint, and the lack of a ``smoking gun'' has made it 
difficult to use the U.N. Security Council to address these problems. 
For example, access to land is a critical issue in Darfur. UNAMID 
cannot be successful without adequate camp structures, and the 
Government of Sudan has delayed the mission's expansion by limiting 
access to land. One of the largest UNAMID headquarters, in Nyala, 
experienced delays in construction due to prolonged negotiations with 
the Government of Sudan, which ultimately yielded land that was 
significantly lacking in water resources.
    The delays in UNAMID's deployment are also due in part to a lack of 
troop contributor resources. There has been an insufficient pledging of 
specialized units that provide critical force multipliers vital to the 
mission. We have been engaged in an intense high-level diplomatic 
campaign to lobby on behalf of the United Nations and help to generate 
and deploy tactical and utility helicopters as well as other critical 
mission requirements. This diplomatic campaign is starting to bear 
fruit: Ethiopia has recently offered helicopters to the mission. Our 
efforts have also included high-level coordination and outreach to 
multiple NATO and non-NATO countries, including China. The United 
States has worked closely with the U.N. to identify those countries 
most likely to contribute helicopters to this operation. Senior U.S. 
officials, including the President and Secretary of State, have urged 
their international counterparts to provide the required support. In 
addition to helicopters, it is important to note that UNAMID also will 
require additional military transport and logistical units--these so-
called ``enabling'' units are vital to the creation of the proper 
infrastructure and support of a larger peacekeeping mission. These 
units will help move materials and personnel to begin the construction 
of storage, maintenance, and fuel storage facilities as well as 
improving security on existing compounds.
    In the face of these obstacles, unfortunately, the United Nations 
has demonstrated far too little creativity or flexibility in addressing 
the slow pace of UNAMID's deployment. In early March, I met with United 
Nations Secretary-General Ban Ki-Moon and Under Secretary General for 
Peacekeeping Jean-Marie Guehenno to discuss my concerns and explore 
ways to give more urgency to UNAMID deployment. The United States is 
focused on practical steps that we and partner countries can take to 
assist with deployment. The United States and Canada have organized a 
standing committee of partner countries--the Friends of UNAMID--which 
meets on a weekly basis in New York to review the status of UNAMID 
deployment and address problems as they develop.
    The United States has already contributed significant funding for 
the AMIS and UNAMID in addition to funding 25 percent of these missions 
through assessed peacekeeping dues to the United Nations. Since 2004, 
the United States has contributed over $450 million to construct and 
maintain 34 base camps in Darfur for AMIS peacekeepers. And during the 
President's trip to Africa in February he announced the U.S. commitment 
of more than $100 million to assist African nations willing to step 
forward for the cause of peace in Darfur. These funds are being used to 
provide training and equipment--ranging from personal troop kits to 
Armored Personnel Carriers--for Ethiopia, Rwanda, Senegal, Ghana, 
Burkina Faso, Malawi, and Tanzania. The training provided by the United 
States through the African Contingency Operations Training and 
Assistance (ACOTA) program includes courses on peacekeeping with an 
emphasis on issues such as human rights. The contribution of the United 
States to UNAMID has encouraged an additional $59 million worth of 
support from countries such as Canada, the United Kingdom, the 
Netherlands, and France. Through the Friends of UNAMID group, we are 
closely coordinating these efforts.
    Together with the United Nations, the Friends of UNAMID group has 
worked to speed deployment by addressing problems such as the U.N. 
practice of placing technical requirements on Troop Contributing 
Countries that--in some cases--they are unable to achieve. The 
application of these practices would have prevented African troops from 
deploying to Darfur. I am pleased to report that the Friends group and 
the U.N. Department of Peacekeeping Operations (DPKO) have devised a 
solution that will allow troops to deploy as quickly as possible with 
appropriate training and equipment. Technical experts will continue to 
work to ensure that deployment is not impeded by bureaucratic 
practices.
    The conflict in Darfur must be resolved through a political dialog, 
and the United States continues to urge the parties to the conflict to 
commit to negotiated political settlement. The United States supports 
the United Nations/African Union-led peace process, and we have called 
for the appointment of a single chief negotiator to provide leadership 
and vision to the Joint Mediation Support Team for a successful pathway 
to peace. The conflict in Darfur cannot be resolved by a peacekeeping 
mission alone. But thus far, Sudanese civilians have not received the 
protection promised to them by the United Nations Security Council. We 
have an obligation to alleviate their suffering, and increasing 
UNAMID's size and capabilities is a step in the right direction--toward 
peace and stability. When I returned from my travels to Sudan in March, 
I urged UNAMID to focus its efforts on the deployment of an additional 
3,600 African troops by June 1--the scheduled spring deployment of 
Egyptian and Ethiopian troops and a rotation of former AMIS battalions. 
The arrival of new troops will enable UNAMID to achieve greater 
stability on the ground by this summer, and the United States is 
working with great dedication to make this objective a reality. The 
United Nations continues to work with Ethiopia and Egypt to schedule 
their deployment. Although those deployment dates have been delayed, 
the United States is coordinating with African Troop Contributing 
Countries, such as Rwanda and Senegal, to train and equip peacekeepers 
for rapid deployment to Darfur. The United States has already delivered 
equipment for Ethiopian troops and is pressing forward to provide 
training and equipment for Rwanda and Senegal in the first phase of our 
assistance. We have urged the United Nations to deploy the Ethiopian 
troops and rotate new Rwandan soldiers by June, when they will be 
prepared for deployment. We are working to ensure that relief arrives 
quickly, but ultimately the responsibility lies with the United 
Nations, Troop Contributing Countries and donors to meet their 
deployment targets and deliver on our shared commitments to the people 
of Darfur.
    In addition to on-the-ground measures to relieve the suffering of 
the people of Darfur, I am focusing on steps the United States and 
international partners can take to make progress in achieving peace and 
stability in Darfur and throughout Sudan. Last week, I held discussions 
with various parties on these issues in response to an overture from 
Khartoum. At the African Union summit in Addis Ababa in February, 
Government of Sudan Foreign Minister Deng Alor had raised, with 
Assistant Secretary of State Jendayi Frazer and me, a decision by 
President al-Bashir to explore the possibility of Sudan and the United 
States moving toward a path of constructive engagement. In February, 
Minister Deng Alor came to Washington to deliver to Secretary of State 
Rice a proposal for improving relations between the United States and 
Sudan.
    I traveled to Sudan in late February to meet with officials from 
the Government of Sudan. During the course of our meetings, I provided 
the Government of Sudan with a response to their overture, a 
preliminary outline of specific, verifiable steps to be taken by the 
Government of Sudan to increase humanitarian relief to the people of 
Sudan, ensure the rapid deployment of UNAMID in order to achieve 
security and stability on the ground, and further the implementation of 
the CPA.
    During last week's meetings, officials from the Government of Sudan 
and the United States discussed the Sudanese response to this 
preliminary proposal for a work plan. We addressed matters ranging from 
multiple reentry visas for staff of nongovernmental organizations to 
passage of UNAMID equipment through the Port of Sudan. Some may wonder 
why the administration is choosing to accept the Government of Sudan's 
overture and attempting engagement with the Government of Sudan and 
rebel leaders now, when we have witnessed years of suffering, broken 
promises, and a trail of terror and tears. I believe that we cannot 
take any options off the table at this point. Let me be clear: There 
are many bad actors with whom I have engaged, and I do not forget that 
for a minute. But as with the CPA, their engagement may prove critical 
for progress to be achieved. The cost of human suffering is simply too 
high for us to let the Government of Sudan run out the clock. Instead 
of standing by and wringing our hands as more lives are destroyed by 
violence and displacement, we must seriously consider the full range of 
actionable options before us, from further sanctions to muscular 
actions and everything in between. This is why I have responded to 
rebel leaders and to the Government of Sudan, regardless of their 
violent history--to determine whether down this road there exists a 
path to a sustainable peace in Darfur. Finally, let me be clear. We 
will not rely on promises of future actions. Concrete, verifiable, 
significant progress must be achieved on the ground before we can 
contemplate improved relations.
    While the tragedy in Darfur demands our greatest focus and energy, 
we remain attentive to the CPA, which ended decades of civil war 
between North and South and provides the framework through which peace 
can be achieved and sustained for all Sudan. In the 3 years since its 
signing, we have seen great changes in Sudan. Formerly warring parties 
have joined together in a Government of National Unity. There is no 
more war in the South, and there is no more famine. The Sudan People's 
Liberation Movement (SPLM) established a Government of Southern Sudan 
(GOSS) in Juba, as well as 10 state governments throughout the South. 
$3.5 billion in oil revenues have been transferred from Khartoum to the 
GOSS. Roads are being built. Southerners are returning to help rebuild 
their homeland. With the support of the U.S. Government, the Sudan 
People's Liberation Army (SPLA) is being transformed from a rebel force 
into a professional military body. In FY08 the USG will provide over 
$40 million dollars to increase the SPLA's command and control 
infrastructure, advise its senior officers as they produce a Defense 
White Paper, and provide training to build institutional and strategic 
capacity. These efforts are intended to act as a security guarantee to 
prevent either party of the CPA from abrogating the agreement, as well 
as transform the SPLA into a smaller, disciplined, and defensively 
oriented organization.
    On my recent trip to Juba, I met with GOSS President Salva Kiir to 
hear his views and concerns about the CPA. Implementation of the CPA 
faces many challenges. Last week's initial decision by the GOSS to 
unilaterally delay their portion of the census, an important milestone 
in the CPA, was cause for dismay, though I welcome the decision of the 
National Congress Party (NCP) and SPLM to work together to reach a 
compromise to follow through on the census, delayed by only a week. The 
issue of border demarcation in the oil-rich Abyei region remains a 
sensitive issue, and Abyei could spark renewed hostilities. Therefore 
it is urgent that the CPA parties find a solution to the Abyei border 
issue. At the same time, the parties' recent decision to allow the U.N. 
Mission in Sudan (UNMIS) to monitor Abyei for 2 weeks demonstrates 
their interest in avoiding new violence. The continuing lack of full 
transparency in the oil sector also is a concern, as is the failure of 
the parties to withdraw their military forces from the North/South 
border in accordance with the timeline stipulated in the CPA. The 
parties themselves bear the ultimate responsibility to resolve these 
difficult issues, but U.S. encouragement and engagement concerning 
implementation of other CPA commitments will remain crucial for 
progress to be made in Sudan. And here I want to acknowledge the 
continuing and heroic work of U.S. Embassy Khartoum and Consulate Juba 
staff, including the State Department, the U.S. Agency for 
International Development (USAID), and other agencies, in making this 
happen.
    I stress the importance of the CPA not only because of the need to 
prevent a resurgence of war with Southern Sudan. If the CPA unravels, 
the tragic North/South civil war could reignite and our opportunities 
for peace in Sudan would disappear. Beyond that, it is helpful to 
consider Darfur from the wider perspective of the problems facing Sudan 
overall. We see through census efforts in Darfur that the citizens of 
that region are skeptical of the relevance of the CPA to their own 
political struggle. This reminds us that the importance of the CPA must 
be underscored across Sudan, not only in the South. Moreover, although 
this is an oversimplification of the matters, the conflict between 
North and South and that in Darfur both stem, at least in part, from 
problems in the central government's treatment of marginalized sections 
of Sudan. The CPA addressed the problem of marginalization of the 
South. We should be working to similarly address the marginalization of 
Darfur. Moreover, if rebels in Darfur see the Government of Sudan 
implementing a peace agreement, they might believe that a similar path 
might be achieved to secure peace in Darfur. Similarly, our continuing 
pressure on the parties to implement the CPA shows the international 
community's continuing support for the agreements it encouraged, 
facilitated, and guaranteed.
    And the relationship operates in the opposite direction as well: 
Continued violence in Darfur threatens implementation of the CPA. 
Without peace in Darfur, it will be extremely difficult to pull off the 
2009 nationwide elections called for in the CPA. Today, we are 
witnessing the impact of insecurity in Darfur on preparations for the 
census, another milestone under the framework of the CPA. We must not 
let the tragedy in Darfur displace the attention we must also give to 
the crucial matter of peace in the rest of the country, and we must not 
address one crisis without informing our perspective with the lessons 
of the other. They are not separate issues; instead, they go hand in 
hand.
    The U.S. Government is committed and is acting to end the suffering 
of the people of Darfur. We are committed to doing this by providing 
humanitarian assistance, by creating security and stability on the 
ground, and by pushing for implementation of the CPA. Only with 
sustained focus and creativity will we end this tragedy that has 
already gone on far too long.
    The innocent people of Sudan have suffered too much, and too many 
continue to suffer. It is unconscionable. We must be forward-leaning in 
pursuit of any and every avenue to alleviate human suffering, bring 
sustainable stability on the ground, and move to real peace. In that 
the American people, the President, and Congress are in agreement.
    Again, thank you for allowing me to be here today and participate 
in this hearing on an issue about which we all care so much.
                                 ______
                                 

 Statement attributable to the Spokesman for the Secretary-General on 
                  the ``Friends of UNAMID'' Initiative

    The Secretary-General welcomes the initiative to establish a group 
of ``Friends of UNAMID'' which will focus on supporting the deployment 
of the AU-UN peacekeeping operation in Darfur. The first meeting of the 
group was convened by the United States and Canada on 6 March 2008 in 
New York.
    The Secretary-General urges all UNAMID troop and police 
contributors to expedite the deployment of the units and assets that 
they have pledged to the Operation. In this connection, the Secretary-
General also welcomes the initiative of the U.S. Government to help 
accelerate the deployment of UNAMID by providing $100 million to 
African troop contributing countries for training and equipping 
military units which have been pledged for UNAMID.
    The Secretary-General also urges Member States to provide the 
outstanding enabling units, including air assets, in order to permit 
UNAMID to achieve full operating capability.
    The Secretary-General looks forward to sustained and focused 
international engagement on both peacekeeping and the political process 
in Darfur, and calls on all parties to engage in good faith in 
political negotiations in order to bring the current crisis to an end 
and achieve lasting peace.

New York, 6 March 2008.
                                 ______
                                 
    unamid deployability schedule for troop contributing countries 
                 receiving international donor support
    Below are the deployability target dates by which the United States 
and other international donors will have units from Troop Contributing 
Countries (TCCs) trained, equipped and fully prepared for deployment.

Ethiopian battalions: (1--April) (1--September)
Rwandan battalions: (3--June-August) (1--November)
Senegal battalions: (2--June-August)
Ghanaian battalion: (1--October)
Burkinabe battalion: (1--November)
Malawian battalion: (1--December)
Tanzanian battalion: (1--January, 2009)
                     international donors to unamid
United States--$100 million
Canada--$40 million
U.K.--$8 million
Netherlands--$4.5 million
France--(15 APCs loaned, valued at $6 million)
                    members of the friends of unamid
Cochaired by: United State and Canada

Members: Norway, Belgium, Netherlands, Sweden, United Kingdom, the 
European Union, the African Union, France, Denmark, Germany, Italy, and 
Japan

* This schedule assumes that each TCC contributor and DPKO finalize 
deployment dates and other issues in their bilateral MOU negotiations. 
The ``deployability'' schedule is subject to change depending on 
sovereign decisions of TTCs.
                                 ______
                                 
                                  U.S. Department of State,
                                    Washington, DC, March 27, 2008.
His Excellency Ban Ki-moon,
Secretary General of the United Nations,
New York, NY.
    Dear Mr. Secretary General: The United States appreciates your 
personal commitment to bringing stability and security to the people of 
Sudan, and we look forward to working in partnership with the United 
Nations to ensure the successful deployment of peacekeepers to Darfur. 
When we met earlier this month. you encouraged a direct and ongoing 
dialogue regarding the situation in Darfur. I appreciated our 
conversation, and wanted to raise with you a concern that I also 
addressed this week with Under-Secretary-General Jean-Marie Guehenno.
    We believe that the deployment of 3,600 new African troops by 
June--a target number based on the U.N.'s planning schedule--will bring 
increased security and stability to the people of Darfur. At this 
crucial moment, the deployment of new troops as quickly as possible is 
our best hope to change the course of this tragedy. The United States 
has committed $100 million to train and equip African peacekeepers 
pledged to deploy under UNAMID, and we will work to assist Troop 
Contributing Countries (TCCs) in meeting the U.N. deployment schedule.
    However, we are approaching an impasse that will prevent the timely 
deployment of peacekeepers, and a firm commitment to a deployment 
timeline will ensure we move forward with the greatest efficiency. We 
would welcome your commitment to address any outstanding issues that 
might affect the deployment of these troops.
    An excellent example has arisen which is causing some concern: 
Whether Troop Contributing Countries will be able to fulfill current 
U.N. self-sustainment requirements. The United States supports the 
U.N.'s objective to deploy the best-equipped troops possible, but it 
seems that some U.N. practices may hinder deployment. To promote 
sustainable deployment, the United States will continue to work with 
partner TCCs to develop their own self-sustainment and maintenance 
capabilities, but a complete transformation will not be achieved in the 
near future. We strongly encourage the Secretariat to consider bridging 
the gaps that might remain for TCCs. In particular, we note that 
current U.N. regulations provide an option that should be fully 
utilized to support Troop Contributing Countries--a robust ``dry 
lease'' arrangement.
    As we previously discussed, the new Friends of UNAMID group 
continues to meet on a weekly basis to identify and remove any 
impediments to the deployment of peacekeepers to Darfur. We appreciate 
the full partnership of the United Nations in this effort, especially 
as we focus on the deployment of the Egyptians, Ethiopians and Rwandans 
by June. We are pleased to report that Ethiopian and Rwandan troops are 
currently participating in U.S.-sponsored training prior to their 
deployment to Darfur, and the United States will urge additional 
partner countries to contribute to UNAMID.
    I look forward to discussing this matter with you further, and 
appreciate your partnership as we work to help bring peace to the 
people of Darfur.
            Sincerely,
                             Richard S. Williamson,
                                                Ambassador,
                                      Presidential Envoy for Sudan.
                                 ______
                                 
                                                    April 11, 2008.
His Excellency Ban Ki-moon,
Secretary General, United Nations,
New York, NY.
    Dear Mr. Secretary-General: As supporters of the UN/AU-led Darfur 
peace process, we commend your efforts to resolve the Darfur conflict 
and deploy UNAMID, and improve the humanitarian situation. We are 
highly appreciative of the efforts of United Nations Special Envoy 
Eliasson and AU Special Envoy Salim to advance the peace process.
    We remain concerned, however, that a Joint Chief Mediator has yet 
to be appointed to lead the UN/AU peace process. We therefore support 
the current Envoys in their view that having a single mediator working 
with the Government of Sudan, rebel movements, and other stakeholders, 
and providing day-to-day leadership of the Joint Mediation Support 
Team, will, be crucial for the success of the peace process. Such a 
mediator should be acceptable to all parties, dedicated full-time to 
the issue of resolving the Darfur conflict, anal of a sufficiently high 
rank as to compel the attention of the parties and the international 
community. He or she should be willing to live and work full-time in 
Sudan, and if not based in Darfur, should be willing to travel there 
regularly and for extended periods.
    At the recent meeting of the International Partners in Geneva, 
there was consensus that the appointment of a Chief Mediator is an 
urgent and important next step in moving the Darfur peace process 
forward. We count on such a step to translate into significant progress 
for the UN/AU process at this particular juncture We believe this issue 
to be extremely urgent, and respectfully request your immediate 
attention.
    We reiterate our appreciation for the work of the Special Envoys 
Eliasson and Salim, and your personal dedication to resolution of the 
Darfur conflict. We also remain committed to peace in Darfur and in the 
rest of Sudan, and are ready to assist your efforts as the process 
moves forward.
    Please accept, Excellency, the assurances of our highest 
consideration.

                                   John McNee,
                                           Permanent Representative of 
                                               Canada to the United 
                                               Nations.
                                   Sama Stiglic,
                                           European Union Presidency.
                                   Jean-Maurice Ripert,
                                           Permanent Representative of 
                                               France to the United 
                                               Nations.
                                   Frank Majoor,
                                           Permanent Representative of 
                                               the Kingdom of the 
                                               Netherlands to the 
                                               United Nations.
                                   Johan L. Lovald,
                                           Permanent Representative of 
                                               Norway to the United 
                                               Nations.
                                   John Sawers,
                                           Permanent Representative of 
                                               the United Kingdom to 
                                               the United Nations
                                   Zalmay Khalilzad,
                                           Permanent Representative of 
                                               the United States to the 
                                               United Nations.

    The Chairman. Ms. Almquist.

      STATEMENT OF HON. KATHERINE J. ALMQUIST, ASSISTANT 
    ADMINISTRATOR FOR AFRICA, U.S. AGENCY FOR INTERNATIONAL 
                  DEVELOPMENT, WASHINGTON, DC

    Ms. Almquist. Good morning, Mr. Chairman and members of the 
committee. Thank you for the opportunity to be here today to 
testify on Darfur and eastern Chad and our programs in Sudan.
    I've submitted a longer written statement for the record 
that I hope will be added. Thank you.
    As Ambassador Williamson has just said, we are 3 years into 
the Comprehensive Peace Agreement, and this is the most 
important thing for the overall stability and unity of the 
country, and our assistance programs across the map of Sudan 
continue to focus on implementation of the CPA and all of its 
related aspects. It is as much important for Darfur as it is 
for North, South, and the rest of the country.
    Sudan is USAID's largest program in Africa, and among the 
largest in the world. It's our top foreign-policy priority in 
Africa. Darfur is the largest international humanitarian 
operation in the world, providing lifesaving assistance to more 
than 4 million people each year; some 2\1/2\ million, nearly, 
are displaced inside Darfur, another 250-260,000 are refugees 
in Chad and the Central African Republic, and we have a massive 
investment in this humanitarian operations. We are the largest 
bilateral donor providing assistance, more than $1.5 billion 
since 2004 to Darfur and eastern Chad. Our total program for 
Sudan has averaged around $750 million for the last several 
years.
    Today in Darfur, however, we face the most formidable 
challenges in our long-term commitment to helping the Sudanese 
transition toward peace and stability. Insecurity is affecting 
humanitarian operations, and it's at its highest point, and our 
ability to access people in need is at its lowest point since 
2005. This is because of fighting among the Sudanese armed 
forces, tribal militias, and rebel groups, who continue to 
kill, injure, displace, and otherwise terrorize the civilian 
population.
    Since January 1 of this year, aerial bombardment and 
clashes between these groups have displaced a further 100,000 
Darfuris. In addition, banditry and lawlessness severely impede 
humanitarian aid deliveries on a daily basis.
    With most camps in their fourth or fifth year of existence, 
the infrastructure of assistance is largely in place, and 
people in camps are, for the most part, receiving food, water, 
health services, and other lifesaving interventions. However, 
with insecurity worsening and access decreasing, humanitarian 
conditions are precarious.
    Miraculously, the World Food Programme is still able to 
reach over 90 percent of its intended beneficiaries, despite 
the numerous obstacles that confront, both bureaucratic and 
security, yet Darfuris are tired of living in the camps, and 
the communities are becoming increasingly polarized and 
politicized and violent. In addition, many camps have reached 
capacity. But, the newly displaced continue to arrive.
    The people affected by this conflict desperately need 
lifesaving assistance, but it is becoming increasingly 
difficult and dangerous to provide it. In addition to the 
increasing bureaucratic obstacles by the Government of Sudan 
impeding humanitarian assistance, each day brings more danger 
and more challenges for the more than 14,000 humanitarian 
workers, who risk their own lives to provide assistance to 
Darfuris. According to the United Nations, assailants have 
killed six aid workers and abducted 90 staff members in Darfur 
this year, including 36 U.N. World Food Programme contracted 
drivers, 26 of whom still remain missing. So far, in 2008, 
bandits have hijacked over 100 vehicles from humanitarian 
organizations and UNAMID, twice as many as the same period in 
2007, and three times as many as the same period in 2006. As a 
result of attacks on WFP contracted commercial transport 
perpetrated by tribal militias and rogue rebel elements, 
starting in May WFP will cut by half the amount of cereals, 
pulses, and sugar provided to 2.45 million Darfuris in their 
general ration. WFP is planning to resume full rations and 
expand the number of Darfuris receiving food assistance in time 
for the June-to-September hunger gap. But, if the attacks on 
convoys continue and the United States does not bolster 
security for the convoys to get the food from the port and the 
distribution points into Darfur, WFP may be forced to make 
further cuts in the ration.
    Delivery of food assistance is not the only worry for the 
humanitarians. Security for all types of aid operations on the 
ground has steadily declined over 2007, and this year, in 2008, 
access is now at an all-time low. Cessation of all attacks on 
humanitarian operations is essential to ensuring that aid can 
continue to be delivered to the millions of Darfuris who rely 
on international assistance for survival. At a minimum, the 
Government of Sudan must remove its bureaucratic impediments to 
aid, and it should immediately increase the number and 
frequency of police escorts for commercial transport carrying 
humanitarian supplies, and further ensure security for 
humanitarian and commercial traffic along the routes most 
affected by military and rebel operations, banditry, and 
lawlessness.
    Even if the bureaucratic and security challenges to the 
delivery of aid are rectified, humanitarian assistance cannot, 
ultimately, resolve the conflict in Darfur; it is merely a 
Band-Aid attempting to mitigate the worst effects of the 
conflict. Lasting resolution requires recognition of the 
conflict's changing dynamics since it began, 5 years ago. 
Fundamentally, popular support for the rebellion, the 
resistance, continues, because the people of Darfur do not 
believe their grievances have yet been met. Darfuris want to 
know that their families, their land, their livestock will be 
protected from predatory attack, that basic social services 
will be provided by their government, that the lost assets 
essential to sustain their families and communities will be 
restored, that critical issues to the long-term sustainability 
of Darfur's economy and social structure will be dealt with 
transparently and fairly--its use of access to land and to 
water; and finally, that they will have meaningful 
participation, first and foremost, in their own regional 
affairs, and, secondarily, in the national affairs of the 
country.
    The transition from the African Union Mission in Sudan to 
the United Nations African Union Mission in Darfur, UNAMID, 
since the beginning of the year, has yet to improve the 
security situation for the civilian population, as we've been 
hearing.
    Now, the security situation is, ultimately, the 
responsibility of the GoS. Nevertheless, each additional day 
that the UNAMID cannot provide civilian protection, its 
credibility among Darfuris diminishes, and the difficulty of 
its task increases exponentially. Effective deployment is, 
therefore, of paramount importance to creating an enabling 
environment for a durable political settlement to be found and, 
ultimately, for displaced people to be able to return home.
    Redoubling our efforts to find this durable political 
framework to address the grievances of the Darfuri people, 
African and Arab alike, is equally vital to finding this 
resolution. Key spoilers to this process--and Ambassador 
Williamson has been talking to a number of them--must somehow 
be managed. This includes rebel leaders who variously wield 
significant political power over displaced communities or 
impressive military capability that allows them to prosecute 
war against the Sudanese Government and its proxy forces.
    The situation in eastern Chad is inextricably linked to 
what is happening in Darfur, and the security threats facing 
humanitarian operations there are similar to those in Darfur. 
USAID continues to provide humanitarian assistance for 250,000 
Sudanese refugees, 180,000 displaced people, and many of the 
700,000 affected populations or permanent residents of eastern 
Chad in the areas of refugee flows and displacement.
    Conflict and banditry continually disrupt operations, 
nevertheless, and as long as the Governments of Sudan and Chad 
continue to manipulate pre-existing domestic political 
animosities by fueling each other's armed oppositions, any 
viable solution or peace and stability on either side of the 
border will not be possible.
    While we struggle to overcome the challenges facing Darfur 
and eastern Chad, it is an equally critical time in the 
implementation of the CPA. Ambassador Williamson has mentioned 
the census. Enumeration, in fact, has just begun yesterday, 
after much controversy and some further delay in the South. In 
Darfur, it's even more of a flashpoint. The people of Darfur, 
one, don't understand the Comprehensive Peace Agreement, they 
don't understand the Darfur Peace Agreement, which is 
predicated on the Comprehensive Peace Agreement, and they feel 
that the census will solidify facts on the ground that do not 
represent their interests, in terms of displaced populations 
and other outsiders who may have come in and settled on their 
lands while they've been in IDP camps. Therefore, this process 
of the census is a critical testing point, these next couple of 
weeks, for the entire country, as the democratic transformation 
of Sudan unrolls and moves towards elections, which are due to 
take place by July 2009.
    USAID remains committed to carrying out the full range of 
humanitarian recovery, reconstruction, and development 
activities that are vital to supporting Sudanese efforts to 
consolidate peace in Southern Sudan and in Darfur.
    And before concluding, I would like to take a moment to 
remember two of our USAID colleagues who were murdered in 
Khartoum on January 1st this year. John Granville was a USAID 
Foreign Service officer and dedicated to making democracy a 
reality for people at all levels of society. He worked for many 
years on Sudan and other parts of Africa, and was an invaluable 
member of our team. He, in particular, put significant effort 
into our support for the census, and the technical assistance 
that was provided to Southern Sudan for this process to happen.
    Abdelrahman Abbas Rahama was a Sudanese Foreign Service 
national and an original member of the USAID Disaster 
Assistance Response Team in Darfur in 2004. And, by virtue of 
his role as one of our drivers, he got to know all of our staff 
personally and individually, and was also a very valuable 
member of our team.
    We miss these colleagues and friends very much, and their 
commitment and dedication will continue to guide our efforts 
toward a just, stable, and peaceful Sudan.
    Thank you, Mr. Chairman. I look forward to your questions.
    [The prepared statement of Hon. Almquist follows:]

      Prepared Statement of Hon. Katherine J. Almquist, Assistant 
 Administrator for Africa, U.S. Agency for International Development, 
                             Washington, DC

    Good morning, Mr. Chairman, and members of the committee. Thank you 
for the opportunity to testify on Sudan and in particular the ongoing 
crisis in Darfur and eastern Chad. My testimony will provide an update 
on the humanitarian situation and what the United States Agency for 
International Development (USAID) is doing to respond.
    Three years into the six-year roadmap known as the Comprehensive 
Peace Agreement (CPA), ``comprehensive peace'' in Sudan remains 
elusive. While there has been significant, albeit fragile, progress in 
the South, Sudan remains a sum of its troubled parts. Regionalized 
politics, and regional approaches to resolving political differences, 
are at the very core of these troubles despite the CPA's careful intent 
to guide the peaceful and democratic transformation for all of Sudan. 
While its integrity and durability have been tested, the CPA still 
provides Sudan the most viable approach to addressing the many grave 
historic political, economic, and social inequities in Sudan. The 
success of the CPA is of critical importance to maintaining stability 
throughout the country, including in Darfur, and therefore support for 
its implementation will continue to be the keystone of our assistance 
in Sudan. Darfur, however, is not yet positioned to contribute to, nor 
benefit from, the CPA, and recognition of this fact will be vital to 
any successful resolution of the issues driving conflict in Darfur.
    Sudan is USAID's largest program in Africa and among the largest in 
the world. It is the United States top foreign policy priority in 
Africa and Darfur is the focus of the largest international 
humanitarian operation in the world, which provides life-saving 
assistance to more than 3 million people a year. This devastating 
conflict has left 2.45 million people internally displaced and another 
250,000 refugees in Chad. Since 2004, USAID has spent an average of 
$750 million annually in assistance to Sudan, including a total of $1.5 
billion in humanitarian assistance in Darfur and eastern Chad.
    Today in Darfur we face one of the most formidable challenges in 
our long-term commitment to helping the Sudanese in their transition 
toward peace and stability. Insecurity affecting humanitarian 
operations is at its highest point and our ability to access people in 
need is at its lowest point since 2005, when the international 
humanitarian community first succeeded in reversing Darfur's dire 
humanitarian situation. Fighting among the Sudanese Armed Forces (SAF), 
tribal militias, and rebel groups continues to kill, injure, displace, 
and otherwise terrorize the civilian population. Since January 1 of 
this year, SAF bombardment of villages and clashes between armed groups 
has displaced approximately 100,000 Darfuris. In addition, banditry and 
lawlessness severely impede humanitarian aid deliveries on a daily 
basis.
    With most camps in their fourth or fifth year of existence, the 
``infrastructure of assistance'' is largely in place, and people in 
camps are, for the most part, receiving food, water, health services, 
and other life-saving interventions. However, with insecurity worsening 
and access decreasing, humanitarian conditions are precarious. Darfuris 
are tired of living in the camps, and the communities are becoming 
increasingly politicized and violent. In addition, many camps have 
reached capacity, but the newly displaced continue to arrive. The 
situation in south Darfur is particularly dire: Al Salaam camp does not 
have enough water for its current residents, much less the many more 
displaced people in the area who are not even yet registered.
    The people affected by this conflict desperately need life-saving 
assistance, but it is becoming increasingly dangerous and difficult for 
humanitarian agencies to provide it. The fact that morbidity and 
mortality rates are currently holding below-emergency levels is a 
tribute to the hard work, ingenuity, and forbearance of humanitarian 
agencies in Darfur and the more than 14,000 humanitarian workers who 
daily risk their lives to assist those by the conflict. However, if 
security and access continue their downward spiral, our ability to 
provide life-saving assistance will further degenerate--as will the 
lives of millions of Darfur's people.
                        bureaucratic impediments
    At the most basic-level aid delivery in Darfur has been impeded by 
bureaucratic obstacles imposed by the Sudanese Government since the 
beginning of the crisis. In an important step to address these 
bureaucratic impediments, the Sudanese Government and the United 
Nations signed the Joint Communique on the Facilitation of Humanitarian 
Activities in Darfur in March 2007. The Joint Communique did result in 
some improvements for humanitarian actors initially: For example, the 
government and the humanitarian community jointly developed a General 
Directory of Procedures listing the process requirements that all NGOs 
must complete.
    Unfortunately, despite this initial cooperation, the Sudanese 
Government continues to disregard articles of the Joint Communique and 
has created new impediments that further hamper humanitarian programs 
in Sudan. Between December and February, the Sudanese Government 
imposed blockades in some parts of west Darfur that prevented 
humanitarian agencies from providing lifesaving assistance to those in 
need. USAID partners report excessive delays in visa processing, 
inaction when approving technical agreements and lack of adherence to 
previously agreed-upon procedures. Delays in processing humanitarian 
goods through Sudanese customs threaten vital relief supplies such as 
medicines and food commodities.
    In addition to disregarding some articles of the Joint Communique, 
the Sudanese Government has also begun to create new bureaucratic 
obstacles for humanitarian actors. Since the beginning of 2008, the 
Sudanese Humanitarian Aid Commission has required NGOs to obtain travel 
permits for transport in commercial or rented vehicles--and then denied 
those permits; required that NGOs write technical agreements in Arabic; 
repeatedly cancelled high-level committee meetings on implementing the 
Joint Communique; and requested additional information regarding the 
transport, purpose, and recipients of NGO cash. For the past year, 
Sudan has blocked the use of processed food aid containing genetically 
modified organism (GMOs). This has restricted the U.S. Government from 
providing WFP with corn-soya blend, which is used mainly to treat 
malnourished children. The loss of this significant commodity 
contribution has stretched the already tight resources of WFP, which 
now has to spend precious cash to procure the commodity from other 
sources.
    Humanitarian operations are significantly hobbled by the Sudanese 
Government's lack of cooperation and its noncompliance with the signed 
Joint Communique. Their acts violate the Sudanese Government's 
commitment to respect the independence of humanitarian actors and 
undermine the principles and spirit of the Joint Communique. They defy 
the government's promise to respect the provision of assistance and 
freedom of access to all people in need.
                               insecurity
    In addition to the increasing bureaucratic obstacles impeding 
humanitarian assistance, each day brings more danger and more 
challenges for humanitarian staff who risk their own lives as they work 
to save others'. According to the United Nations, assailants have 
killed 6 aid workers and abducted 90 staff members in Darfur this year, 
including 36 U.N. World Food Program (WFP)-contracted drivers, 26 of 
whom remain missing. So far in 2008, bandits have hijacked 106 vehicles 
from humanitarian organizations and the United Nations-African Union 
Mission in Darfur--twice as many as the same period in 2007 and three 
times as many as the same period in 2006.
    As a result of attacks on WFP-contracted commercial transport 
perpetrated by tribal militias and rogue rebel elements, trucking 
companies are now refusing to deliver commodities to Darfur from 
logistical hubs without Government of Sudan police escorts. The 
escorts, however, have been slow to materialize and too inadequate to 
protect 150-vehicle convoys. At this time of year, WFP-contracted 
trucks should be delivering 1,800 metric tons of food daily to supply 
warehouses in Darfur ahead of the rainy season; deliveries have dropped 
to less than 900 tons a day.
    On April 17, WFP announced that the current environment will force 
it to reduce the general food ration in Darfur. Starting in May, WFP 
will cut by half the amount of cereals, pulses, and sugar provided to 
2.45 million Darfuris in their general ration. The United States is 
greatly concerned about the reduction of critical food assistance to 
the people of Darfur, and we are working with WFP to assure that full 
rations resume as soon as practicable. WFP is planning to resume full 
rations and expand the number of Darfuris receiving food assistance in 
time for the June ``hunger gap''--the time between the end of one 
year's food stocks and the next harvest. However, if attacks on convoys 
continue and the GOS is unable to bolster security for convoys, WFP may 
be forced to make additional significant reductions in assistance.
    Delivery of food assistance is not the only worry for the 
humanitarian operation, however. Security for all types of aid 
operations on the ground has steadily declined over 2007 and 2008. 
Access is now at an all-time low. In west Darfur, 90 percent of roads 
are closed to humanitarian agencies due to the presence of Arab militia 
and Chadian and Sudanese rebel groups. Here, many NGOs are only able to 
access project areas by helicopter, allowing them only 1 or 2 hours on 
the ground--enough time to take a whirlwind tour of a clinic, check the 
books and supplies, talk to the staff and maybe a few beneficiaries, 
and hop back in the helicopter. This type of visit is not unlike those 
many of you have experienced on a tightly scheduled congressional 
visit. And it is no way to manage programs or maintain effective 
operations. Some aid agencies have to rely on remote staff or 
volunteers who elect to travel insecure roads in order to reach the 
main office--literally risking life and limb--to provide guidance and 
oversight to operations.
    Cessation of all attacks on humanitarian operations is essential to 
ensuring that life-saving aid can continue to be delivered to the 
millions of Darfuris who rely on international assistance for survival. 
At a minimum, the Government of Sudan should urgently increase the 
number and frequency of police escorts for commercial transports 
carrying humanitarian supplies and ensure security for humanitarian and 
commercial traffic along the roads most affected by military and rebel 
operations, banditry and lawlessness.
    Even if the bureaucratic and security challenges to the delivery of 
aid are rectified, humanitarian assistance cannot ultimately resolve 
the conflict in Darfur. It is merely a band-aid attempting to mitigate 
the worst effects of the conflict. Lasting resolution requires 
recognition of the conflict's changing dynamics since the outbreak of 
violent rebellion in 2003, the signing of the N'Djamena Humanitarian 
Ceasefire Agreement in 2004, and the conclusion of the Darfur Peace 
Agreement in 2006. Yet even while alliances and patterns of conflict 
have shifted significantly during the past 5 years, fundamentally the 
conflict continues because the people of Darfur do not believe that 
their grievances have been addressed. Darfuris want to know that their 
families, their land, and their livestock will be protected from 
predatory attack; that basic social services will be provided by their 
government; that the lost assets essential to sustain their families 
and communities will be restored; that critical issues important to the 
long-term sustainability of the Darfuri economy and social order, such 
as access to land and water, will be addressed fairly and 
transparently; and that they will have meaningful participation first 
and foremost in the governance of their own regional affairs, and 
secondarily in the national affairs of the country.
    Even though the United States and the international community have 
invested considerable resources and effort in political and security 
arrangements to help address these grievances, many, if not most, 
Darfuris remain unconvinced and therefore popular support for continued 
political and violent resistance persists. This furthers an environment 
for opportunistic banditry to thrive and results in a downward spiral 
of lawlessness and violence. The transition from the African Union 
Mission in Sudan to the United Nations-African Union Mission in Darfur 
(UNAMID) since the beginning of the year has yet to improve the 
security situation for the civilian population. Each additional day 
that UNAMID cannot provide civilian protection, its credibility among 
Darfuris diminishes and the difficulty of its task increases 
exponentially. The efforts of the United Nations and the Friends of 
UNAMID to speed effective deployment of the peacekeeping force is 
therefore of paramount importance to creating an enabling environment 
for a durable political settlement to be found and ultimately for 
displaced people to return home.
    Redoubling efforts to find a durable political framework to address 
the grievances of the Darfuri people, African and Arab alike, is 
equally vital to finding a resolution that will move Darfur beyond its 
dependence on humanitarian assistance. Key spoilers to this process 
must somehow be managed--including rebel leaders who variously wield 
significant political power over displaced communities, or impressive 
military capability that allows them to prosecute war against the 
Sudanese Government and its proxy forces. The Darfur Peace Agreement 
did not fully address these issues, and therefore cannot be considered 
the final resolution to this conflict. Still, it represents a 
significant step forward on the path to peace and provides a framework 
to build upon. Essential next steps include implementation of the DPA's 
key provisions to support mediators' efforts to win over protagonists 
who remain on the outside. As well, a successful mediation will require 
an iterative process that accounts for the differing characteristics of 
the principal rebel movements. This kind of nuanced approach will 
require much more focused international support from countries with 
leverage over key parties in the process.
                              eastern chad
    The situation in eastern Chad is inextricably linked to what is 
happening in Darfur, and the security threats facing humanitarian 
operations in eastern Chad are similar to those in Darfur. USAID 
continues to provide humanitarian assistance for 250,000 Sudanese 
refugees, 180,000 displaced people, and many of the 700,000 affected 
permanent residents of eastern Chad, but conflict and banditry 
continually disrupt operations, including the fighting that occurred 
recently in N'Djamena and Ade. As in Darfur, aid operations are heavily 
reliant on air transportation to access people in need. The WFP food 
pipeline has been particularly challenged, as the logistics required to 
transport food into the land-locked country are enormous and must rely 
on the same limited routes as those used to supply the U.N.- and EU-
supported peacekeeping operations for Chad and the Central African 
Republic. The fighting in February particularly disrupted the transport 
of food into eastern Chad. However, despite these obstacles, USAID 
partners continue to deliver humanitarian assistance. In FY 2007, the 
U.S. Government provided more than $89 million in aid to eastern Chad, 
and so far in FY 2008, we have provided nearly $74 million.
    Just as any viable political settlement to the Darfur conflict must 
account for the principal Darfuri rebel spoilers, it must also account 
for the reciprocal effect that the Chadian domestic political crisis 
and the Darfur conflict have on each other. The Chad-Darfur border 
amounts to an international boundary on paper only. It will not be 
possible to ameliorate the humanitarian situation on one side without 
commensurately improving it on the other as both combatants and 
civilians move freely back and forth. As long as the Governments of 
Sudan and Chad continue to manipulate preexisting domestic political 
animosities by fueling each other's armed opposition, peace and 
stability on both sides of the border will remain elusive. The United 
States is working to put in place a political process that concurrently 
addresses Chadian political grievances with President Deby at the same 
time as Darfuri grievances with the Sudanese Government.
                     comprehensive peace agreement
    While we struggle to overcome the challenges facing Darfur and 
eastern Chad, it is an equally critical time in the implementation of 
the Comprehensive Peace Agreement, which ended two decades of civil war 
between Northern and Southern Sudan in 2005 and is intended to provide 
the overall framework for the democratic transformation of governance 
in Sudan. This week marks the realization of the CPA's first major 
milestone since standing up the Government of National Unity (GNU) and 
the Government of Southern Sudan (GOSS)--the first nationwide post-war 
census. In addition to giving the government and donors crucial 
demographic information to inform recovery and development plans, the 
results of the Sudanese census will be used to recalculate equitable 
representation in the central government as well as the distribution of 
national resources. This is both the census' promise and its downfall.
    Only 3 days before enumeration was scheduled to start on April 15, 
the South surprised us all by announcing a postponement, citing a lack 
of funding, insecurity, the unresolved issue of border demarcation, the 
inability of displaced people to return to the South, and the absence 
of ethnicity and religion questions on census forms. A strong, unified 
donor community reaction helped to put the nationwide census back on 
track. Enumeration began yesterday, April 22, and will continue until 
May 6.
    However, the census has also become a flashpoint in Darfur where 
neither the DPA nor the CPA is widely understood, much less well-
received. Darfuris view the CPA as a deal for Southern Sudan only. 
Consequently, they do not see the DPA, which is predicated on the CPA, 
as truly responsive to their grievances. Specifically, going forward 
with the census in Darfur at this time is not supported by any of the 
main rebel leaders, whether a signatory to the DPA or not. IDPs in 
particular fear that outsiders have entered Darfur and settled on their 
vacated land, and thus will be counted to the detriment of the millions 
of displaced who currently reside in camps. As well, late census 
preparations seemed to many Darfuris to clearly highlight how the 
region does not fit into Sudan's power-sharing mechanisms. (The final 
results must be endorsed by the northern and southern census agencies, 
as well as the Presidents of the Governments of National Unity and of 
Southern Sudan.)
    A valid nationwide census result nevertheless requires enumeration 
in Darfur, despite the formidable challenges. It will likely not be 
perfect anywhere, but its shortcomings can be managed and addressed. 
Delaying or canceling the census in one part of the country, whether in 
the South or Darfur, will call into question the integrity and 
therefore validity of the nationwide results. It would also be a 
dangerous precedent to compromise this first major milestone of the 
fragile CPA. If the leadup to the census provides an indicator for the 
next critical power-sharing benchmark--the elections before July 2009--
then much more work needs to be done to help keep the CPA on track and 
to reach an inclusive political settlement in Darfur in time for 
Darfuris to participate meaningfully in the democratic processes laid 
out in the CPA.
    The extensive negotiation of both the CPA and the DPA required 
persistent international effort. Stewarding their implementation 
requires no less. The difficulties of the last 3 years for the CPA are 
clear testimony that without committed, vigorous proactive and reactive 
international engagement, this fragile peace remains very much at risk. 
While imperfect in its implementation, it is the true ``whole'' 
solution that will strengthen Sudan's viability and integrity as a 
nation-state accountable to its people in the south, north, east, and 
west. Without it, the international community will be faced with the 
task of sustaining millions of Sudanese through the provision of 
humanitarian assistance for many more years to come.
    USAID remains committed to carrying out the full range of 
humanitarian, recovery, reconstruction and development activities that 
are vital to supporting Sudanese efforts to consolidate peace in 
Southern Sudan and to achieve it in Darfur. We look forward to the day 
when the people of Darfur are not substantially reliant on humanitarian 
aid for their very survival and we can work together with them, as we 
do with the people of Southern Sudan and the Three Areas, to realize 
their aspirations for development and democracy.
    Before concluding, I would like to take a moment to remember our 
two USAID colleagues who were murdered in Khartoum on January 1. John 
Granville, a USAID Foreign Service officer, was dedicated to making 
democracy a reality for people at all levels of society, and his years 
of work in Sudan and in other parts of Africa made him an invaluable 
member of our team. Abdelrahman Abbas Rahama, a Sudanese Foreign 
Service national and an original member of USAID's disaster assistance 
response team in Darfur in 2004, was a critical team member who, by 
virtue of where he sat, had the unique ability to get to know the USAID 
team one by one. They were our colleagues and our friends. The work and 
character of both of these men epitomized the goodness of the human 
spirit, and what we can accomplish when we are focused on bettering the 
lives of those in need. I can think of no better way to honor them than 
to rededicate our efforts to bring peace to those who endure violence, 
health to those who struggle with sickness, and prosperity to those who 
live in poverty. We hope that their commitment and dedication will 
guide our efforts toward achieving a just, stable, and peaceful Sudan.
    Thank you, Mr. Chairman, and members of the committee for your 
continued interest, and for all the work and support that you have 
dedicated to Sudan and the region.

    The Chairman. Thank you.
    And, on behalf of all of us, we really do appreciate the 
significant physical risk that you and your colleagues have 
taken.
    We'll do 7-minute rounds, if that's OK.
    And, Ambassador, I have some questions for you, but I'd 
like to make them fairly pointed. If you can give me relatively 
short answers and expand on it later, if you wish, it would be 
helpful as I try to stay within my time, here.
    We all know the story. December 31, the U.N. joined the 
African Union, and took charge, 7,700 folks on the ground then, 
we're now up to 9,200 folks on the ground to protect 4 million 
people in the affected area. It's 26,000 authorized. What's the 
primary obstacle, if you had to summarize it? And I'm asking 
you to summarize it for me. What's the primary obstacle to the 
U.N.-African Union force achieving operational capacity? Why 
haven't they achieved it by now?
    Ambassador Williamson. I think there was a lack of sense of 
urgency on all parties, leading up to the transfer. I think 
that there was a extra challenge, because there had been an 
agreement that it would be predominantly an African-troop-
filled force, and there was a lack of capacity in many of the 
African countries for peacekeeping. I was in northeastern 
Sierra Leone when Nigeria had its first peacekeepers there, in 
2002. They have learned an enormous amount. Nigeria is now 
quite good. We had many countries without the capacity. That's 
why President Bush stepped forward, made a $100-million 
commitment and--for training and equipping African forces. And 
we're now working with Ethiopia, Rwanda, Senegal, Ghana, 
Burkina Faso, and Mali----
    The Chairman. Mr. Ambassador, how long do you think it's 
going to take to have a sufficient number of troops trained to 
actually get to the point where we have 26,000 deployed? When I 
met with the commander of the AU on the border--this is now, 
how many years ago?--4 years--he said the mandate he had then 
was peacekeeping primarily by monitoring, and his folks--his 
troops would actually stand there and watch. There wasn't much 
they could do, they'd stand there and watch the Janjaweed make 
a son rape his mother. He showed us vivid photographs that they 
had. He said, ``But, there's nothing we can do. Our mandate 
is--we cannot--we cannot intervene.''
    So, I assume the folks we're training are trained to shoot 
straight and keep the peace. In your professional estimation, 
how much longer will it take for us to have help trained, with 
the $100 million we have--and I understand the Rwandans are 
doing pretty well--how long will it take to get a contingent of 
26,000 forces on the ground?
    Ambassador Williamson. It'll take--well, could I just say 
two things----
    The Chairman. Sure.
    Ambassador Williamson [continuing]. Quick? What was--one of 
the things important in the resolution passed last July, it was 
under chapter VII, which means the peacekeepers can be more 
robust. It's not just a monitoring force.
    The Chairman. Right.
    Ambassador Williamson. Second, we do have a deployment 
schedule that we've pushed and worked with through the U.N., 
and I can go through it very quickly, but the bottom line is, 
we'll have about an increase of 6,500 more troops by the end of 
this year, solely--because of our African partners and the U.S. 
assistance in training and equipping.
    The Chairman. So, if we're lucky, we'll get around 15,000 
forces on the ground within the next 6 months.
    Ambassador Williamson. Sir----
    The Chairman. Seven months.
    Ambassador Williamson [continuing]. We will have the troops 
trained. We will have the troops----
    The Chairman. Gotcha.
    Ambassador Williamson [continuing]. Ready to deploy. Right 
now, the U.N. does not have the capacity to absorb them.
    The Chairman. Well, they never have, have they? I mean----
    Ambassador Williamson. They're----
    The Chairman [continuing]. I mean, the U.N. doesn't have 
that capacity, do they?
    Ambassador Williamson. They have a budget of $1.28 
billion----
    The Chairman. Yeah, but do they have----
    Ambassador Williamson [continuing]. 12 months to go----
    The Chairman [continuing]. Cargo planes? Do they have----
    Ambassador Williamson [continuing]. End of June, they've 
only----
    The Chairman [continuing]. Helicopters? Do they----
    Ambassador Williamson [continuing]. Spent 26 percent.
    The Chairman. They haven't got that----
    Ambassador Williamson. They have camps, and they haven't 
spent----
    The Chairman. But--spent on what?
    Ambassador Williamson. On camps, sir. Right now, the camps 
they have, the United States paid for. We----
    The Chairman. No, no; I got that. I'm just trying to--I'm 
trying to find--focus on one thing.
    Ambassador Williamson. Yes, sir.
    The Chairman. The physical requirements to logistically put 
26,000 trained African Union forces, with U.N. Blue Helmets 
leading them, on the ground in Darfur. I understand the other 
pieces, and they're legitimate. But, I'm curious--we--you say 
``by the end of this calendar year,'' 7 months from now, 
whatever it is, 8 months, we will have--the United States will 
have trained another 6,500 forces.
    Ambassador Williamson. We will have trained 9,200----
    The Chairman. Total.
    Ambassador Williamson [continuing]. 65 new ones.
    The Chairman. See, that's what I'm saying. Sixty-five new 
ones, 9,200 total. There's 9,200 on the ground now, not all 
trained by us.
    Ambassador Williamson. Yes.
    The Chairman. So that we would have roughly 15-16,000 
troops, at least theoretically, available, 93 there, another 65 
to come, but they'll be trained by the end of the year--and I 
understand, by the way, I say to both of you, that, you know, 
putting boots on the ground doesn't solve the political 
problem, but that's an interesting thing; it keeps my daughter 
alive, it keeps my son alive, it keeps my wife from being 
raped, it keeps me being put in a grave. So, it does have some 
effect. You know, as I said, I'll use the phrase again, in the 
long run, they'll all be dead if we don't act--but, anyway, 
back to the question. It's not a criticism, it's a question, a 
genuine question. What is the expectation that you have, as a 
seasoned diplomat involved in these kinds of things--nothing 
quite like this, but you've been involved in an awful lot by 
this time next year, will there be 15,000 qualified forces on 
the ground, with communications equipment, with the ability and 
the infrastructure to be able to maintain, logistically, 15,000 
troops that are able to exert force to keep the peace on the 
ground?
    Ambassador Williamson. Yes, sir. I'd say there's been a 
change, both because of the U.S. being more proactive, but also 
I wanted to give credit to Secretary General Ban Ki-moon----
    The Chairman. Right.
    Ambassador Williamson [continuing]. Who has personally 
gotten more involved and been forward-leaning and helpful.
    The Chairman. OK.
    Ambassador Williamson. And let me just, if I could, sir, 
briefly--one of the mechanisms we've put together that's been 
enormously helpful is a Friends of UNAMID Group, chaired by the 
Canadians and ourselves----
    The Chairman. Right.
    Ambassador Williamson [continuing]. With 14 other 
countries, who can give assistance. And let me just give you 
one example. One of the difficulties is, most of these African 
countries have never negotiated an MOU for deployment. We've 
broken them up. So, Senegal--France has adopted, if you will, 
is working with them, helping them with the negotiations. These 
are the kind of needless impediments that we have tried to get 
through, and I think we're going to be successful.
    The Chairman. No; again, I'm not taking issue with that. 
What I'm trying to get at is: What, in the meantime, is going 
to happen while this deployment goes on? Is there anything we 
could do, temporarily, that will prevent the Janjaweed being 
transported by Sudanese helicopters, sitting above villages, 
wiping people out, riding in on horseback, wiping out and 
burning villages to the ground? Would a no-fly zone, which is 
totally within our wheelhouse to be able to do--would that be 
helpful? Would that be hurtful? What can we do to tell those 
people in the camps you've visited, I've visited, others 
visited, that, ``By the way, there's a chance you'll be alive 
next year by the time we get these troops on the ground?'' Is 
there anything we can do?
    Ambassador Williamson. I think there's a few things. One, 
we have to have serious discussions with President Deby and the 
Chad Government to stop their support of the JEM, which, in 
turn, are initiating military offensives which the government 
then responds in a totally disproportionate way, killing 
innocent civilians, creating the rapes, the burnings of 
villages, et cetera.
    The Chairman. Increasing, not creating. Increasing.
    Ambassador Williamson. Increasing.
    Second, we have to try to put pressure on those countries 
that Sudan listens to more carefully than they do us.
    The Chairman. China.
    Ambassador Williamson. It would be nice.
    The Chairman. Not likely. Is it?
    Ambassador Williamson. Um----
    The Chairman. Okay. My time's up; I'm over.
    Let me just conclude by saying, you know, we heard from the 
U.N. representative earlier about the need for engineers on the 
ground. I understand Norway just withdrew their offer, after 
the Sudanese stonewalling that took place. I understand it's a 
possibility to, maybe, accept troops from Thailand and Nepal. 
The Chinese may support these troops to go, that may be a 
possibility. They may have a self-interest in that. But, all 
kidding aside, I don't see anything that is going to, in the 
near term--meaning, the next 2, 3, 4, 5, 6 months--not be, on 
New Year's Day, when we look at the numbers, see another 90-
100,000, 125,000 innocent women and children either dead or 
displaced. I don't know what happens in the meantime. And 
that's the part I'm focused on. But, I've spoken too long.
    I yield to my friend from Tennessee.
    Senator Corker. Thank you, Mr. Chairman.
    And thank you both for your testimony, the thoroughness, 
and certainly for what you're doing.
    I want to, sort of, step back and--I think that the whole 
world, and all of us on this panel, and probably you, are just 
semi-, I guess, in shock, that, if you will, so much is 
happening in a part of the world, and yet, nothing is 
happening, in some ways, to rectify the situation. I think we 
all have, sort of, a range of thoughts. One is that this is a 
problem that cannot be solved--OK? I think we range in and out 
of that from time to time--that potentially the U.N. is 
incompetent to deal with this issue, or, third, the United 
States doesn't care.
    And, Mr. Williamson, I'd love, if you could, to sort of 
share your thoughts. I know you've just been on the ground, 
doing this for 6 or 8 months, but, if you would, sort of, walk 
us through that, briefly, just to give some context as to why 
we haven't made more progress.
    Ambassador Williamson. Senator, believe me, that's a 
question that I go to bed with every night. It's unbelievable, 
in the 21st century, that a genocide in slow motion like this 
could continue as long as it has. I give great credit to the 
American people, so many of whom have been engaged and moved 
and activated, and their representatives in Congress. And I can 
tell you, the reason I accepted this job--and it's reaffirmed 
every time I'm in the Oval Office--is how deeply President Bush 
feels about it.
    I do not think the U.N. is incompetent. I have worked it in 
many diplomatic and other capacities over the last 25 years. 
The U.N. is a useful tool in the United States foreign-policy 
toolbox. But, often--indeed, perhaps usually--it cannot be the 
only tool to solve a problem.
    I do think one area where they make a significant 
contribution is in peacekeeping. I do think, notwithstanding 
the frustrations and difficulties, deployment of UNAMID will 
make a significant difference on the ground. One of the 
institutional weaknesses is that any of the five permanent 
members can slow and delay and create obstructions for rapid 
movement. We are seeing some of that. We're seeing quite a bit 
of that.
    But, I also, looking at the tough peacekeeping missions in 
conflict areas, like Sierra Leone, like Timor-Leste, like 
eastern Congo--they are tough missions. And I think the 
commitment of the Secretary General is going to be enormously 
helpful, and I'm glad he was--he allowed me to meet with him 
and continue to communicate with him. I think Ban Ki-moon is 
making a difference in those that are working for him. But, 
it's frustrating, because it's slow.
    I think there's no question that the United States cares. 
You see that in the citizen involvement. You see that in the 
humanitarian assistance, that Kate knows better than I. You see 
that in our effort to try to move the political situation, like 
the effort of Senator Danforth for the Comprehensive Peace 
Agreement. But, it's devilishly difficult, because there's bad 
actors who see the current level of violence acceptable. And 
when you see the victims of this death, destruction, 
devastation, and deep despair, it's hard to understand how any 
human can be cold to their plight. But, they are. And so, we 
have to try to create different facts on the ground, pressure 
them, change the dynamics so they see it in their self-interest 
they're better moving toward peace, like they did in the 
Comprehensive Peace Agreement.
    But, Senator, I don't see a short-term victory, but we 
cannot divert our attention.
    Senator Corker. I know you took issue--I was--I went out in 
the hallway after questioning the--Dr. Lute, and you said you 
wanted to talk about some of the factual--I know this is all, 
sort of, diplomatic kinds of things you're talking about now, 
but, you know, this is--seems like such a low-level issue, I 
hate to keep bringing it up, and I wonder whether it's just a 
red herring and some excuse for some other major issue, but 
they--just the simple things like helicopters and things like 
this. I mean, could you, just very briefly, answer that? And is 
this just something people keep throwing out which matters not? 
Or, if it does matter, since you've been assigned to take care 
of all these things, why hasn't that, like, occurred 3 months 
ago?
    Ambassador Williamson. I don't know why I couldn't take 
care of that 3 months ago. No, sir, it's very--let me first 
say, the biggest problem with UNAMID is not helicopters. And 
I'll get to that. It's getting more boots on the ground. And we 
are doing----
    Senator Corker. So, the helicopter issue is, priority-wise, 
not a big deal right now.
    Ambassador Williamson. It wouldn't be in the top three or 
four issues.
    Senator Corker. OK. So, again, it's sort of a red herring 
at this moment. I----
    Ambassador Williamson. It's a legitimate----
    Senator Corker. I assume that's why----
    Ambassador Williamson [continuing]. Question.
    Senator Corker. I assume it's not been filled, for that 
reason, and--if people don't see it as a real need today.
    Ambassador Williamson. I think that's part of it. It's also 
because countries like Jordan, which came up with six 
helicopters, and India, that came up with three helicopters, 
ultimately the U.N. rejected, because it didn't quite fit. 
We're encouraging them to be more flexible.
    Senator Corker. OK. So, that really is just a red herring, 
according to you. And the other--the big issue is getting boots 
on the ground.
    Go back to the issue of the United Nations only spending 26 
percent of their money on camps. If you will, expand a little 
bit on that.
    Ambassador Williamson. Yes, sir.
    They've obligated more now, which is a good thing. But, we 
think we have suggested they could be more forward-leaning in 
using that money to construct camps, to be able to create water 
availability, to work on different aspects of sustainability. 
And, I will say, there has been progress since 3 months ago. I 
think it's, in part, because of the United States, more because 
of the joint effort of the 14 countries that are friends of 
UNAMID, and also because, instead of talking about 
generalities, we've rolled up our sleeves and gotten into each 
specific item, and then tried to find a solution. So, there's--
it's making progress, but it's been difficult. A lot more needs 
to be done.
    Senator Corker. Now, just in closing--I know my time is 
almost up--but, Senator Biden asked the question about the no-
fly zone. And I guess another solution to--I mean, you seem 
like a very competent person, and I know you have a very, you 
know, extensive career--it does seem like the--it's a relevant 
statement that, in fact, they're all going to be dead, because 
we continue just to talk and talk and talk. I know there are 
boots on the ground. Hopefully, they're going to occur later 
this year. But, tangible actions, like no-fly zone, like maybe 
blockades, those are things that we can do. I guess I wonder, 
Why don't we do those tangible things that might actually, now, 
save lives while we're doing some of the diplomatic--taking 
care of some of the diplomatic efforts?
    Ambassador Williamson. It's a very fair question. Let me 
make two observations and then defer to Kate, because one of 
the concerns is humanitarian community, who have been reluctant 
for us to take certain steps, because it would interfere with 
the delivery of humanitarian aid. First----
    Senator Corker. That----
    Ambassador Williamson. I'm sorry.
    Senator Corker. The blockades would interfere with----
    Ambassador Williamson. It's the no-fly zone.
    Ms. Almquist. The no-fly zone.
    Ambassador Williamson. The no-fly zone is the concern. But, 
let me--let Kate speak for herself, and let me answer as well 
as I can.
    I think the array of options that you've mentioned, and 
more punitive steps, are legitimate things. We are trying--I 
have tried, in my new capacity, to move so they're actionable 
options for the President to consider, from the most muscular 
to more punishing sanctions. As you know, the U.S. has gone 
further with unilateral sanctions, the divestment bill, et 
cetera. We are trying to explore ways to change that behavior 
and incentives. And I think it's a dialog that the Congress 
certainly has a right to express its strong views on.
    Senator Corker. I mean, in fairness, I think the Congress 
is--the dialog is--it almost seems like we have--it's a waste 
of time to have these hearings, because we constantly are 
talking about dialog. I know that--when, in essence, it seems 
like tangible activities are the only thing that are going to 
bring about less people dying and being raped and having no 
food. But, I know you want to say something--my time's up--Ms. 
Almquist.
    Ms. Almquist. Thank you.
    I would just like to say that the American people should be 
terribly proud of the fact that we help keep millions of 
Darfuris alive. It's through assistance from the United States 
and the American people, in particular, and with the 
facilitation of the U.S. Congress, that we can provide as 
robust a humanitarian response as we do, and that the impact is 
not far greater than what we see right now.
    The reason why the humanitarian community is very nervous 
about the idea of the no-fly zone and would find it difficult 
to support that option is that the Sudanese Government would 
almost certainly see that as a hostile act. If it sees it as a 
hostile act, we could predict that they would act to not 
cooperate in other areas that we are dependent on their 
cooperation for, and that includes the humanitarian operation; 
14,000 humanitarian workers cannot live and move around Darfur 
without the Sudanese Government allowing them to be there. And 
if they decided, for whatever reason--and a no-fly zone is a 
likely reason they would decide that--to shut down the 
humanitarian operation, that lifesaving assistance goes away. 
We depend on our nongovernmental organizations and the U.N. 
agencies to get that aid to IDP camps, and even beyond, to 
rural areas, and it's exceedingly difficult right now, and it 
would be virtually impossible if the Sudanese Government 
decided not to tolerate it, to facilitate it, support it, going 
forward.
    Second, I would just offer that, while aerial bombardments 
are very troubling and in clear violation of the N'Djamena 
Humanitarian Cease-Fire Accord, the Darfur Peace Agreement, and 
every other commitment that the Sudanese Government has made, 
it's not the most significant factor causing humanitarian 
displacement. It's a terrible weapon of war, it should not be 
used, should not be tolerated, but it shouldn't take a no-fly 
zone to get them to stop.
    In terms of practical impact on the security situation on 
the ground right now, what would really help the humanitarian 
community are police escorts for the humanitarian supplies. 
Food, namely; but also other sorts of supplies need to be moved 
out to Darfur. That's within the Government of Sudan's ability 
to step up and do, and could do, even while UNAMID deployment 
is taking place.
    Nonlogistic military support for signatories of the DPA: 
One of the reasons for the banditry and the lawlessness and the 
attacks on humanitarian convoys is because that's the only way 
they can supply themselves. And if there were another 
legitimate nonmilitary means for those who have signed the 
Darfur Peace Agreement, to--at least to be fed, we would 
probably cut down on a significant number of the attacks, 
particularly in north Darfur.
    And then, finally, UNAMID needs a cease-fire commission. In 
the transition from AMIS TO UNAMID, there is no effective 
mechanism to validate a bombing, an attack, establish 
culpability, and then hold individuals, groups, whoever, 
responsible and accountable for the insecurity that they have 
perpetuated. And that, Ambassador Williamson could probably 
speak to better, but that would also significantly help the 
humanitarian community, going forward.
    Senator Corker. Well, thank you for your testimony.
    Senator.
    Senator Kerry [presiding]. Thank you very much, Senator.
    Administrator Almquist, you should know that I think the 
American people are very proud of the humanitarian efforts, and 
certainly the risks that many of your people are taking. We're 
grateful to you for it.
    Your answer really underscores the absurdity of the 
situation in which you've been put, and this entire 
humanitarian effort is put. The humanitarian effort is to 
stopgap a slow genocide that nothing else is preventing. And 
so, we can continue to do that, and people will continue to be 
killed, and the country will continue to be in chaos. The 
bottom line is, there is no leverage. The leverage that exists 
is not being exercised.
    Mr. Ambassador, you said you lie awake and you wonder why 
what is happening is happening, and why we can't seem to break 
through. I don't think it's a mystery at all. What is happening 
there is, to a large measure, the lack of the United States 
ability to lead and follow through on its own statements, its 
own words. And the reason that that exists is just a little 
thing called Iraq.
    We are overextended, our troops are overextended, our 
credibility is exhausted, our bona fides don't exist, our 
leverage is not what it ought to be and has been in the past. 
And so, our ability to lift is diminished. Our ability to act 
unilaterally is diminished. Three hundred thousand people have 
been murdered, 2 million have been displaced, 2,700 villages or 
so have been destroyed.
    In 2004, when I was running for President, I said this was 
genocide. A few days later, then-Secretary of State Colin 
Powell followed and said it was genocide. Somewhere around June 
of the next year, President Bush joined the chorus and said it 
was genocide. Two years later, the President, I believe, on 
April 17, 2 years after that statement about the genocide, 
stated, at the Holocaust Museum, ``The brutal treatment of 
innocent civilians in Darfur is unacceptable,'' and that 
America wasn't, ``going to back down.'' Well, we haven't even 
stepped up to back down. And it has been acceptable. It's just 
going on. In fact, the violence, in many people's mind, is 
getting worse right now, not better.
    Of the 9,600 people who are on the ground, 7,700 of them 
were already AU forces that were on the ground. They've been 
rehatted essentially. This is not some great step up.
    It's beyond belief to many of us to have to witness the 
expenditure and the waste that we see in Iraq and the stunning 
expenditure of treasure and resources and credibility and our 
leverage and place in the world, and then see a slow-motion 
genocide taking place right before our eyes. I don't think 
there's any great mystery here about what is happening.
    So, let me ask you, bluntly, What is different about the 
administration's current strategy that is going to allow it to 
succeed where the previous months have not?
    Ambassador Williamson. Thank you for your comments.
    I think the first difference is, we are engaged in a 
different way, both with the United Nations and in training 
African peacekeepers. Before this began, just 2\1/2\ months 
ago, there was no prospect for any foreseeable deployment, 
except a few hundred more.
    Senator Kerry. But, the deployment depends on a government 
that is blocking movement, creating problems about access. The 
very facilitators of the genocide basically have a veto over 
the ability to be able to move effectively to deal with it. 
What kind of a policy is that?
    Ambassador Williamson. Sir, I don't think they can do a 
veto of----
    Senator Kerry. Well, they----
    Ambassador Williamson [continuing]. UNAMID's ability----
    Senator Kerry [continuing]. They----
    Ambassador Williamson. They can create impediments, and 
they have. And we're working both with them and through the----
    Senator Kerry. Wait a minute, now. Haven't they vetoed any 
troops from other than those that they approve of? You're not 
allowed to have troops that aren't signed off on--what's the 
delimitation there?
    Ambassador Williamson. Predominant African Union--African--
--
    Senator Kerry. Correct. Non-African units that have been 
offered have been refused. And now--I understand that there are 
offers from potential troop-contributing countries that would 
push UNAMID close to the mandated size, most of them are 
African countries, but their deployment has been stalled, too.
    Ambassador Williamson. Sir, if the last observation is 
correct, I'm unaware of it.
    Senator Kerry. You're not aware of that?
    Ambassador Williamson. I am aware that the--as the chairman 
referred to, the Norwegian and Swedish engineers that would 
have helped speed the deployment were stopped. This was based 
on an agreement in Addis Ababa before the passing the United 
Nations Security Council Resolution for UNAMID. I was not part 
of those talks. I don't know what went into them. But, there 
was an agreement, before, that was part of the arrangement for 
the U.N. Security Council to pass that.
    Is that a problem? Absolutely, sir.
    Senator Kerry. What is it about either the U.N. or the 
United States and China and Russia and other great powers that 
are sitting there while the complicit players have the ability 
to say, ``No, we don't accept that,'' and then the genocide 
continues? Have we lost all ability to leverage common sense, 
here? Where's the hue and cry? I don't get it. I don't think 
Americans get it. I don't think average folks anywhere in the 
world understand this reluctance to act.
    Of the non-African units that have been offered, I 
understand that Khartoum continually stonewalls the deployment 
of, say, the crucial Nepalese special forces and sector 
reserves and a Thai infantry battalion. Is that accurate?
    Ambassador Williamson. That is right, sir.
    Senator Kerry. Well, how can we accept that?
    Ambassador Williamson. United States is trying----
    Senator Kerry. It sounds to me like we're backing down.
    Ambassador Williamson. The United States is trying to fight 
that. We've tried to get the P-5 to agree to be more vigorous 
to force their acceptance. I've discussed this with the 
Government of Sudan. I am hopeful that we will get the 
deployment of the Thais and Nepalese. Your criticisms have a 
lot of merit, and I wish that the Addis agreement that gave 
them unusual leverage on what they could accept had not been 
made. Senator, I was not in Addis, I was not in the government 
during that time.
    Senator Kerry. Let me remind you, sir, that during the 
Clinton administration, when a genocide was beginning to take 
place in Bosnia-Herzegovina, et cetera, President Clinton 
moved, I might add, without the consent of the Congress and 
without even the willingness of a lot of folks in Europe to 
take part, and ultimately that has proven to be an important 
moment. We saw what happened, where Rwanda, to this day 
President Clinton regrets that we didn't decide to move. We are 
building up a very similar historical series of moments of 
regret here, in what is not happening in Darfur.
    I find it stunningly unacceptable. And it's not your fault. 
You're put in a tough position, and I've talked to Andrew 
Natsios before you, and John Danforth and others, but we have a 
museum in Washington that says ``Never again.'' And it's 
happening. And we appear to be impotent or unwilling, or both, 
with respect to the imperatives here. And I cannot help but 
believe that we have been significantly set back in our ability 
to do the right thing because of the tragedy of the spent bona 
fides with respect to Iraq and the sensitivities now with 
respect to another Muslim people, and all that goes with it.
    This can't happen from your efforts alone. The President 
and the Secretary of State and a few other folks have got to 
step up, here. Otherwise, Administrator Almquist, you're just 
going to run into more of those things you just reported to us, 
the dangers your people are being put under while people carry 
out their sick will within that tragic nation. And I think all 
of us are frustrated by watching it.
    Senator Isakson.
    Senator Isakson. Thank you, Senator Kerry.
    Administrator Almquist, did I understand you to say that 
the people in Darfur supported the militia and the rebels 
because they didn't trust the Sudanese Government?
    Ms. Almquist. The current conflict started with an--a 
rebellion, an outbreak in 2003 by the precursor to the five or 
so principal rebel groups now, but, yes, it started out of 
frustration over the grievances, over the attacks that they 
were under, and there remains popular support for rebel leaders 
and rebel movements in Darfur. Their grievances, they do not 
feel, still, have been addressed.
    Senator Isakson. Why, then, would those rebels be attacking 
the World Food Programme convoys if they were bringing food to 
help the people that support them?
    Ms. Almquist. First of all, unfortunately, we don't 
specifically know who is attacking the convoys. We think there 
are a variety of actors involved. Some of them are probably 
rogue elements from rebel movements or part--many of these 
splinter factions that have evolved, especially over the last 
year and a half. And there are resources they see moving by 
them on the road in a very resource-scarce environment, and no 
matter how many times we speak about humanitarian principles, 
those are attractive resources to go after. That's why the 
point of nonlogistic military support, particularly for 
signatories to the DPA, for groups who have signed up to the 
cease-fire and to the political framework that is in place 
right now, would be one way of further mitigating banditry and 
attacks.
    The rebels are not the only group taking advantage of the 
lawlessness that has now overtaken Darfur. So----
    Senator Isakson. I take it that that really plays into the 
hands of the Sudanese Government, which is reluctant to provide 
the security for the convoys, is that correct?
    Ms. Almquist. The--I can't speak to why the Government of 
Sudan hasn't been to provide more police escorts for WFP 
convoys, for instance, but they are slow in responding to 
requests for the convoys, and, in fact, some of these convoys 
are 150-vehicle-long endeavors, and protecting that is a pretty 
significant endeavor. So, ultimately, we need an environment of 
security in Darfur to properly continue to get humanitarian aid 
where it needs to go.
    Senator Isakson. Well, it makes it quite apparent of the 
absolute tragedy taking place in the Darfur area and the 
cooperation among some very bad people who make folks that are 
already suffering suffer even more. I admire what you do and 
appreciate what you do.
    Envoy Williamson, I want to ask you just one question. You 
referred to the five permanent members of the Security Council. 
One of those is China. Is that correct?
    Ambassador Williamson. Yes, sir.
    Senator Isakson. And you referred to them, in some cases, 
slowing down U.N. efforts in Darfur--``them'' being the 
permanent members?
    Ambassador Williamson. Yes, sir.
    Senator Isakson. And I understand that right now there's a 
Chinese freighter going up and down the east coast of Africa, 
trying to drop off weapons for Mozambique. Is that correct?
    Ambassador Williamson. For Zimbabwe, I think was----
    Senator Isakson. Or, Zimbabwe.
    Ambassador Williamson. Yes, sir.
    Senator Isakson. And do we know if they're supplying any 
weapons in the Sudan?
    Ambassador Williamson. We do.
    Senator Isakson. That they are supplying some?
    Ambassador Williamson. Yes.
    Senator Isakson. Is there any pressure point on the 
Chinese? They seem to be certainly profiting from the sale of 
arms in Africa and slowing down movement by the U.N. on the 
Security Council, and known to be a supplier within--to the 
Sudanese army, I suppose. Is there anyplace we can put pressure 
on that we're not trying to? Or are we trying to?
    Ambassador Williamson. Yeah. Can I give you one example of 
the type of problem, just to elaborate on what you've raised?
    Yesterday, there was a discussion in the Security Council 
about benchmarks, to put more pressure for more rapid 
deployment. The Chinese position was twofold; yes, it would be 
good to have more rapid deployment, but, no, let's not put 
pressure on, benchmarks are counterproductive.
    Senator, we need to be forward-leaning within the Security 
Council and elsewhere. Currently, there's an embargo on weapons 
sales to Darfur. Not to Sudan. So, there are weapon sales. Some 
reports indicate they've diminished--but, nonetheless, 
continue--through the Port of Sudan. Once they're in country, 
your imagination is as good as mine to where they end up.
    We have a complicated and large and broad relationship with 
China. Speaking for my responsibility, I continue to be 
disappointed that China doesn't have greater concern about the 
people that are suffering in Darfur and are not more 
proactively helpful to us.
    I believe the Congress has discussed a variety of things. 
The administration raises this, and engages with China. And we 
remain hopeful that their behavior will become more proactive 
and constructive.
    Senator Isakson. So, there's an embargo on sales of arms 
into Darfur, but there's no embargo on the Sudanese Government?
    Ambassador Williamson. Yes, sir; that's my understanding.
    Senator Isakson. So, the people that are suffering find it 
even harder to protect themselves, and the people they're 
suffering from still--have open access to the weapons?
    Ambassador Williamson. Weapons are available.
    Senator Isakson. Thank you, sir.
    Senator Feingold [presiding]. Thank you, sir.
    I'll start my questions, and then I'll turn it over to 
Senator Menendez.
    Thank you for being here. I know it's been a long morning 
for you.
    Mr. Williamson, given the disturbing track record of the 
Sudanese government, including a long history of going back on 
its commitments and its horrific record of human rights abuses 
and, as this administration has determined, committing 
genocide, I have very serious concerns about the bilateral 
discussions you have mentioned in your testimony.
    Will you commit to complete transparency with this 
committee with regard to the discussions that have taken place, 
the discussions yet to come, and the U.S. position in the 
negotiations?
    Ambassador Williamson. Thank you, Senator.
    As the chairman indicated earlier, we offered, and would 
continue to have an open-ended offer, for a briefing with the 
committee with the classified documents so you could see them 
and review them and ask any questions you want. Yes, sir. 
There's no reason for us not to want that transparency. Indeed, 
there are reasons for us to want it, because the press report 
last week is not accurate and raised legitimate concerns. If it 
were accurate, I could not defend it and would not have engaged 
in it. So, transparency, where you know what's going on, is a 
good thing, so you're informed. You're elected representatives 
with great responsibility and should have access. That offer's 
been made. It continues on the table. And I'll look forward 
to--when it is convenient, to provide such a briefing, sir.
    Senator Feingold. You acknowledge that you have engaged 
with, ``many bad actors,'' with a, ``violent history.'' Can you 
identify those bad actors?
    Ambassador Williamson. The bad actors--almost anyone I've 
dealt with----
    Senator Feingold. Is our----
    Ambassador Williamson [continuing]. Among----
    Senator Feingold. Can you identify----
    Ambassador Williamson [continuing]. Among the Government of 
Sudan leadership, have been engaged in supporting----
    Senator Feingold. Can you identify some of the worst of 
those actors?
    Ambassador Williamson. I can identify the people I met 
with, if that's what you are seeking.
    Senator Feingold. Who are they?
    Ambassador Williamson. Dr. Nafie, Mr. Ghosh, and I can 
provide you with a list of all the attendees in those 
discussions. I've also met with President Bashir. I have had 
meetings with rebels, both leaders and movement. I have not had 
any contact, and don't know, right now, how I would, with one 
of the worst bad actors, and that is these Arab militias, some 
of which under the control of the government, some of which are 
not. But, I think, like Jack Danforth found, if you're going to 
try to see if there's possibility for political dialog in this 
neighborhood, you're going to talk to bad actors.
    Senator Feingold. Well, I appreciate your answering that 
question. And I take it from what you said a few minutes ago, 
is that you have--you are confirming that there's going to be a 
classified members briefing.
    Ambassador Williamson. I'm confirming we've made the offer, 
and when it's accepted, we'll be here. Yes, sir.
    Senator Feingold. And that you're working--have people 
contacted you about your offer?
    Ambassador Williamson. There's been a discussion between 
the committee staff and the State Department, trying to work 
that out, and hopefully we could.
    Senator Feingold. Yeah.
    Ambassador Williamson. We had initially suggested right 
after this hearing, but that----
    Senator Feingold. OK.
    Ambassador Williamson. We were told that wouldn't be----
    Senator Feingold. Well, I appreciate that offer, and I hope 
the committee and staff and everybody will make sure this 
happens and that we have the staff there with appropriate 
clearance with full access to the details of these discussions.
    In your testimony, you say that, ``Some may wonder why the 
administration is now choosing to accept the Government of 
Sudan's overture.'' What has changed, other than that Khartoum 
has formally asked for carrots, which we presumably could have 
offered them at any time?
    Ambassador Williamson. I don't know what the swing was that 
changed the Government of Sudan to move toward the January 2005 
decision to sign the Comprehensive Peace Agreement. We can 
speculate, but I don't know.
    Senator Feingold. How----
    Ambassador Williamson. I don't know if this will be such a 
decision. But, I do think, while we're pursuing the other 
things--changing facts on the ground with greater security, 
changing the accessibility of humanitarian assistance, trying 
to create a political dialogue, including the rebels, trying to 
work on the Chad-Darfur bleed-in--that if they say, ``This 
door's open,'' we should test it. But, it is only in the 
context of making clear that we're laying out a long and tough 
and difficult road to any better relations, and only changes 
the facts on the ground will warrant any adjustment----
    Senator Feingold. And this----
    Ambassador Williamson [continuing]. Of that relationship.
    Senator Feingold [continuing]. Intended to be part of the 
broader multilateral peace process, or is it just an ad hoc 
thing?
    Ambassador Williamson. Sir, it's something--most recently, 
a few hours ago, I talked to Ambassador Jan Eliasson, who's the 
U.N.--along with Dr. Salim from the AU. It's something they're 
aware of and something that, on a relatively frequent basis, 
probably at least every 2 weeks, we talk about. Before I have 
discussions like this, I talk to Jan. Before he travels to the 
region, he talks to me.
    Senator Feingold. So, it's not intended to be ad hoc, it's 
intended to be part of a broader process.
    Ambassador Williamson. Yes, sir.
    Senator Feingold. Is that correct?
    Ambassador Williamson. Yes, sir.
    Senator Feingold. When you first met with us, in February, 
you indicated that your focus has been on Darfur, not on the 
20-year-long North/South civil war orthe Comprehensive Peace 
Agreement, which formally ended that war in 2005. I have said, 
for a long time, that strong support and pressure for the 
complete implementation of the Comprehensive Peace Agreement is 
essential, not only if the fragile peace agreement is to hold, 
but also to see legitimate peace through the whole of Sudan.
    Now, I know you discussed this briefly in your testimony, 
but now that you've had a chance to visit Southern Sudan and 
engage with the government and civil society there, what is 
your analysis of the current situation? And what are your 
priorities with regard to advancing CPA implementation and 
reconstruction efforts in the South?
    Ambassador Williamson. Sure. Sir, as I said earlier, I 
believe, even more profoundly now, that the continued 
implementation of the CPA is instrumental for a chance for any 
progress in Darfur. Furthermore, as you know, that civil war, 
which began in 1958, 2 years after independence, and except for 
an brief intermission in the seventies and early eighties, went 
on for over 50 years and killed more than 2 million people and 
displaced more than 4 million. We cannot--they cannot afford 
for that to unravel. And, beyond that, sir, I'd suggest to you 
that that's one of the achievements of U.S. leadership during 
the last--during this administration and to Senator Danforth.
    What are the keys? The census was very important. The fact 
that the North and South were able, despite disappointments 
with respect to the forms that were printed,--insecurity in 
Darfur, that was an important test. A compromise was reached. 
The census is going forward.
    We're going to have a big test with respect to the 2009 
election. And, of course, the ultimate issue is the 2011 
referendum.
    Meantime, issues of transparency on oil revenue continue to 
plague and cause trouble which isn't necessary. And, finally, 
there has to be resolution of the Abyei border issue.
    All that said, the good work being done, because of the 
United States people and USAID, to create political 
institutions in the South--and the SPLM's first convention is 
going to be in May, and the various arms of the National 
Endowment of Democracy are actively involved in helping that--
helping economic viability and independence--this is an 
agriculturally rich area, it should be a breadbasket, it should 
be able to have a certain independence in trading with itself, 
and it doesn't even have roads. There are things we can and 
should do to strengthen the South, which is part and parcel of 
successful implementation of the CPA, and cannot separated from 
getting peace in Darfur.
    Senator Feingold. Thank you for that answer.
    And I have additional questions, that I will submit to you, 
having to do with the regional efforts--CAR, Chad, et cetera.
    Senator Feingold. But, Senator Menendez has waited long 
enough, so I'll conclude and turn it over to him.
    Senator Menendez [presiding]. Thank you, Senator Feingold.
    Thank you both.
    Ms. Almquist, let me say, I was glad to see you again, 
since we presided over your nomination hearing. And our 
thoughts and prayers are with the families of the two AID 
workers who lost their lives. I sent letters to both of their 
families, and they committed the ultimate sacrifice in support 
of our soft-power initiatives in the world. This just shows how 
dangerous some of the work that our people do, and I just 
wanted to acknowledge that.
    Ambassador Williamson, I sent you a letter, on Monday of 
this week. Maybe you assuaged some of my concerns, based upon 
your response to Senator Feingold. In it, I said that, based 
upon press reports, that the negotiating strategy outlined in 
those reports that suggested placating Khartoum by normalizing 
relationships with the Sudan and removing the regime from the 
list of state sponsors of terrorism was definitely the wrong 
strategy--in my view--and sends the wrong message.
    I appreciated your answer to Senator Feingold, but am I to 
understand from your answer, that we are not looking to 
normalize relationships, at least at this point in time, with 
Khartoum, and not looking to take them off the list of state 
sponsored terrorism?
    Ambassador Williamson. Sir, first let me say we appreciate 
your deep interest, and continued interest, in Sudan and your 
leadership in the Senate. And, in fact, if I were trying to 
placate the Government of Sudan, I would have agreed with your 
letter. So, I think the concerns you raise are legitimate.
    What we're pursuing is laying out a long, tough road to 
better relations, which means living up to existing commitments 
on the Joint Communique on Humanitarian Assistance, living up 
to the commitments on the Comprehensive Peace Agreement, living 
up to commitments on the Darfur Peace Agreement, living up to 
commitments they've made to the U.N. with respect to deployment 
of UNAMID. Then, and only then, we start going through a list 
of a variety of steps to ensure rapid and full deployment of 
UNAMID so that it can contribute to security on the ground, and 
a number of steps to allow greater access, more security, and 
improved humanitarian aid getting to those in IDP camps and 
refugee camps.
    Sir, we have made clear, we will not trade promise for 
promise. We've done that before. And the history shows that 
they cannot be trusted.
    We have said, in these discussions, these are specific 
steps, each one of them is verifiable, they have to be 
performed, and there has to be progress on the ground, at which 
time we'll address other issues. But, it is a long, difficult 
road, and it has to be traveled before the issues you raised 
can be seriously discussed.
    Senator Menendez. I appreciate that answer, because I am 
concerned that we send the wrong message to Bashir, and we send 
the wrong message to other countries in the world, as well, 
that the way to get a relationship with the United States, and 
the way to get off the list of state sponsors of terrorism is 
to go ahead and have a conflict, and then promise that you'll 
do something, and then do absolutely nothing, at the end of the 
day.
    I listened to Ms. Almquist's statement, and there's plenty 
of things, right now, that the Sudanese should easily be doing 
in assisting those convoys, at a minimum. At a minimum.
    So, I have a real problem, if it was different. I 
appreciate your answer, and we'll have some opportunities, 
perhaps, to pursue some other classified opportunity, as well.
    But, I would be vehemently opposed and do everything I 
could to intercede in any way that was available to an 
individual Senator, or to, hopefully, a group of Senators, if 
that was our course at this point in time, because there are 
those who have suggested that, in our counterterrorism 
cooperation with Khartoum. We are, of course, interested in 
anyone cooperating with us on counterterrorism, but, at the 
same time, these are the same people who are responsible, in 
part--a very significant part--in creating the genocide in 
Darfur. And I am not one--as much as I want to have efforts on 
counterterrorism, to be engaged--to be willing to look the 
other way in response for information and assistance on 
counterterrorism while genocide takes place, and I hope that's 
the administration's view, as well.
    Ambassador Williamson. Mr. Senator, first let me say, as 
you know, President Bush wants to help the suffering people in 
Sudan. It's a deep commitment and strong belief of his, which 
is why we're initiating so many different avenues to try to 
make progress.
    Second, you have to understand those with whom you are 
talking. And I believe we have an understanding of the history, 
reliability, and experience of those to whom we talk, whether 
it happens to be members of the Government of Sudan, rebel 
movements, or the South. And to not test an overture that might 
change the dynamic would be a shortsighted decision, as long as 
we're disciplined and only act if there are positive results on 
the ground.
    And, finally, with respect to the state sponsor of 
terrorism, you are absolutely correct, the only criterion on 
whether a country should be on that list or off that list is on 
the merits of the issue of whether or not they're supporting or 
engaged in terrorism. And that will not change as a result of 
these discussions. And it's up for the members of our United 
States intelligence community, who I'm sure would be happy to 
discuss with you their views, but that would not be done until 
they were comfortable that all the substantive criteria had 
been met.
    We are not going to hold out that, separate from the 
substantive issues that have to be dealt with on whether or not 
terrorism is being sponsored.
    Senator Menendez. Let me ask you this. I appreciate your 
comments about how deeply President Bush feels about this. So, 
how many helicopters can we come up with?
    Ambassador Williamson. Sir, I would suggest--I'm doing what 
I can--I'd suggest you can offer to----
    Senator Menendez. Can we come----
    Ambassador Williamson [continuing]. Ask that question----
    Senator Menendez [continuing]. Up with eight?
    Ambassador Williamson [continuing]. To the Defense 
Department. It's a question I have raised.
    Senator Menendez. Can we come up with six?
    Ambassador Williamson. Question I've raised.
    Senator Menendez. Can we come up with four?
    Ambassador Williamson. Question I've raised.
    Senator Menendez. Well, the greatest country on the face of 
the Earth, with the greatest military prowess on in the world, 
and we can't come up, so far, with anything to begin to urge 
others to act in common cause but lead by example. Really hard 
to believe the depth of commitment, then, if we can't do that.
    Let me ask you this: With reference to our Chinese friends, 
who supplies the majority of the small arms to the Sudan?
    Ambassador Williamson. Senator, first let me say I think 
it's an incorrect characterization to say that we're not doing 
anything with respect to trying to deploy UNAMID, and I've 
tried to outline many initiatives. I think your questions on 
the helicopters are fair, but that does not mean we're not 
trying to lead and not do anything.
    Second, the major source of small arms, as I understand it, 
is the Chinese.
    Senator Menendez. Yes, the Chinese. As a matter of fact, 90 
percent of all of Khartoum's small arms are--between 2004 and 
2006, totaling about $55 million, including assault rifles--the 
most common weapon used in Darfur, come from the Chinese.
    We have a U.N. embargo, right? Originally posed in 2004, 
expanded in 2005?
    Ambassador Williamson. There is an embargo for arms to 
Darfur, yes, sir.
    Senator Menendez. To Darfur. And it prohibits all Member 
States from selling or transferring arms to Darfur, is that not 
true?
    Ambassador Williamson. Yes, sir.
    Senator Menendez. And the fact that the Chinese arms have 
been well documented in Darfur, and that the Government of 
China has either disavowed their existence, minimized the scope 
of China's arms trade with the Sudan, or denied that its 
weapons makes a difference in the conflict, shouldn't that give 
us cause for concern? Isn't China clearly, by virtue of 
continuing to provide the arms that makes its way to Darfur, 
and, for that fact, the Sudanese Government, violating the 
embargo?
    Ambassador Williamson. That the arms end up, or some of 
those arms end up in Darfur, is a legitimate area of great 
concern. To the best of my knowledge, we don't have the 
intelligence of a direct transfer of the arms that are sold to 
the Government of Sudan to Darfur. The issue might be, Should 
that embargo be widened? But, at least technically, they come 
into the country in sales to the Government of Sudan, which is 
not covered by the embargo.
    Senator Menendez. Well, I think the whole world knows, 
Ambassador, that these Chinese arms, sold to the Sudanese 
Government, are making its way to Darfur. The whole world knows 
that. I don't need to go to an intelligence briefing to find 
that out. But, the bottom line is, something is clearly wrong, 
the very Sudanese Government that we're talking to in this 
respect.
    Now, with the Chinese, they have the Olympics coming up. 
``One world and one dream,'' that's their motto, ``one world 
and one dream.'' You know, it just seems to me, whether it is 
Tibet, whether it is the genocide in Darfur, that we are 
allowing the Chinese to get away with, incredibly, so much. It 
may be because they own so much of our debt, that we are timid 
in our responses to them.
    I hope this administration--you know, commitment--I think 
the President--and I often disagree with the President--I'd 
like to believe the President honestly, honestly feels some 
degree of passion on this issue, but our actions, and 
notwithstanding the humanitarian part, which is a part to be 
complimented--but our actions in getting to the heart--the 
humanitarian part is only keeping people alive so maybe they 
can survive another day, and maybe they won't get raped, and 
maybe they won't get killed, but it doesn't go to the heart of 
the matter of the genocide that is taking place. For that, 
there must be a much more significant commitment by the United 
States to lead the rest of the world to act. And, in the 
absence of doing that, with all due respect, Ambassador, you 
will be here again and again and again with a report very 
similar to the one you are giving us today. So, I hope you take 
that back to the administration.
    I look forward to trying to challenge the administration, 
through the appropriations process, through the supplementals 
maybe, to see if they're willing to stand with us and provide 
the resources necessary to change the dynamics so that ``never 
again'' really means something. Otherwise, it will be a stain 
on America for continuing to allow a genocide to take place.
    And I wonder--and I'll just close--I wonder whether, if 
this was happening in Europe, that we'd be acting with much 
more urgency--wondering if this was happening in some other 
part of the world that isn't Africa, whether we would be acting 
with a different sense of urgency.
    Thank you for your testimony, and I gather, at this point, 
that the record will remain open for 2 days for members to 
submit any other questions that they may have.
    And, with that, seeing no other members, the hearing is 
adjourned.


    [Whereupon, at 12:53 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


Additional Questions Submitted for the Record to Special Envoy Richard 
                 Williamson by Members of the Committee

                  Questions Submitted by Senator Lugar


    Question 1. The peace process for political reconciliation in the 
Darfur region is as important to sustainable peace as it was in 
concluding the Comprehensive Peace Agreement between north and south 
Sudan.

    (a) Please describe the political process endorsed by the United 
States relating to Darfur. Please include the parties to the process by 
name and affiliation as well as observers to the process.

    (b) Are the parties sufficiently organized and willing to proceed 
in political discussions to resolve the underlying issues of the Darfur 
conflict? If they are not, how long should we expect it to take before 
the parties are sufficiently organized and willing to proceed 
politically?

    (c) What efforts have been made to reach non-military/militia 
leaders? What success has there been in including community leaders and 
women?

    Answer. The USG and the contact group, the United Kingdom, France, 
Norway, Netherlands, Canada and the European Union, are firmly 
committed to achieving peace throughout Sudan and believe there can 
only be a negotiated political solution to the conflict in Darfur. The 
USG fully supports the United Nation African Union (UN/AU)-led process 
to bring non-signatories together into the process and broaden support 
for the Darfur Peace Agreement (DPA). The UN Special Envoy to Darfur, 
Jan Eliasson, AU Envoy to Darfur Salim Salim and the Joint Mediation 
Support Team (JMST) are working closely with the regional partners 
Chad, Egypt, Eritrea and Libya to reach a peaceful resolution to the 
Darfur crisis. Each country has varying degrees of interest and 
leverage with both the government and the rebel movements. On August 3-
5, 2007, in Arusha, Tanzania, Salim Salim and Eliasson brought DPA non-
signatories together for the first time since the Abuja Peace talks, 
seeking to unify the various movements behind a single platform. 
Regrettably, no real progress was made on unifying the numerous 
splintered factions.
    Despite their failure, the talks in Sirte remained an important 
milestone in the process. One of the obstacles to progress in the 
political process was the number of movements and their inability to 
unify for a common cause due to internal power struggles and lack of 
political will. In November, the Sudan People's Liberation Movement 
successfully facilitated a unification initiative in Juba that reduced 
the major groupings involved in the peace talks to five (in addition to 
Sudan Liberation Army (SLA), Minni Minawi faction, the only signatory 
to the DPA). The movements vary in military and popular strength; the 
United Revolutionary Front (URF) for example, is an alliance of various 
factions including a splinter of Justice and Equality Movement (JEM) 
and SLA factions. The URF cooperates with the JMST even though it 
maintains a separate, credible military force and ties to Chad. The 
SLA/Unity, the largest and most militarily relevant of the SLA 
splinters is also engaged in discussions while considering merging with 
other movements. Finally, a group of ten movements coalesced around 
SLA/Abdul Shafie who has limited political or military influence.
    Two movements that are central to long-term peace in Darfur remain 
on the peripheries; SLA, Abdel Wahid el Nur faction (SLA/AW), 
predominately Fur, is reported to have the largest following in Darfur. 
The SLA/AW recently shifted from its position of non-engagement to 
begin tentative consultations with the JMST, although El Nur refuses to 
engage with the government. The JEM, led by Dr. Khalil Ibrahim is the 
most intransigent anti-government movement and a potential spoiler to 
the political progress. With support from neighboring Chad, where it 
continues to recruit from refugee camps, JEM has carried out attacks 
against the government and has a national agenda including ousting the 
NCP.
    At a recent international meeting convened in Geneva, it was agreed 
that prospects for formal talks in the short term were dire. In 
addition to the Chad/Sudan proxy war, which cannot be delinked from the 
conflict in Darfur, increasing insecurity in Darfur, and the absence of 
clear strategy from the JMST, disunity and the lack of political will 
among the movements remain a major obstacle. The Juba initiative was a 
step in the right direction, but much remains to be done before the 
movements will be ready to negotiate with the government. Given 
internal division and competition for leadership, there has been no 
real progress towards unification or discussion on the issues behind 
which they can form a common consensus. The USG continues to engage 
with the movement leaders to encourage participation in a political 
dialogue. I recently met with the SLA/AW and JEM separately to solicit 
what it would take for these two movements to join the dialogue for 
peace. Without the participation of these two movements in the peace 
process, any agreement reached would be short-lived.
    The United States, along with other members of the Contact Group 
have also been very engaged with the JMST to urge the inclusion of 
civil society in the formal negotiations for an inclusive peace 
process. The JMST included a small number of civil society 
representatives in the Sirte talks in November 2007 (additional civil 
society representatives were prevented from attending by the Government 
of Sudan). The UN/AU JMST has formed a Tripartite Steering Committee 
(TSC) consisting of the JMST, UN civil affairs, and the Darfur Darfur 
Dialogue and Consultations (DDDC), that is finalizing a strategy for 
including civil society and native administration in future talks. The 
DPA provided for the creation of the DDDC to address issues affecting 
non-combatants among Darfuris. The DDDC preparatory committee has 
already begun holding such consultations, and intends to provide 
feedback from those discussions to the TSC for an inclusive peace 
process when formal talks resume.


    Question 2. You have met repeatedly with Sudanese officials as well 
as rebel leaders in the course of your duties as Special Envoy.

    (a) Would you fully describe any significant overtures that 
President al Bashir or his key deputies have made to you or other U.S. 
officials that you consider noteworthy and signal a genuine readiness 
to resolve the crisis?

    (b) Have the Darfur rebel groups made any significant overtures 
that you consider noteworthy and signal a readiness to resolve the 
crisis?

    (c) Has the international community, including the U.S., many any 
significant overtures to President al Bashir or other Sudanese 
officials over the last several years? What has been the reaction of 
the Sudanese parties?

    Answer. We are deeply concerned about the increased violence in 
Darfur and the lack of progress in achieving a negotiated political 
settlement to the Darfur conflict. The United States continues to 
engage the Sudanese government diplomatically to urge its cooperation 
in peacefully resolving the crisis in Darfur. We also continue to 
engage the rebel movements, who also must show the political will 
needed to seek a pathway to peace. Recently, during his visit to the 
U.S., Minister of Foreign Affairs Deng Alor made overtures to Secretary 
Rice on behalf of his government to improve bilateral relations. I 
traveled to Sudan in late February to meet with officials from the 
Government of Sudan. During the course of those meetings, he provided 
the Government of Sudan with a response to their overture, a 
preliminary outline of specific, verifiable steps to be taken by the 
Government of Sudan (GOS) to increase humanitarian relief to the people 
of Sudan, ensure the rapid deployment of the United Nations-African 
Union Mission in Darfur (UNAMID) in order to achieve security and 
stability on the ground, and further the implementation of the 
Comprehensive Peace Agreement (CPA). Last month, officials from the GOS 
and the United States discussed the Sudanese response to this 
preliminary proposal for a work plan. The discussions addressed matters 
ranging from multiple re-entry visas for staff of nongovernmental 
organizations to passage of UNAMID equipment through the Port of Sudan.
    Some may wonder why the Administration is choosing to accept the 
Government of Sudan's overture and attempting engagement with the 
Government of Sudan and rebel leaders now, after years of suffering and 
broken promises. I have been clear with the Government of Sudan that 
the United States will not take any options off the table at this 
point. But, as with the CPA, the Government of Sudan's engagement may 
prove critical for progress to be achieved. Instead of standing by as 
more lives are destroyed by violence and displacement, we must 
seriously consider the full range of actionable options, from further 
sanctions to muscular actions and everything in between.
    This is why I have responded to rebel leaders and to the Government 
of Sudan to determine whether down this road there exists a path to a 
sustainable peace in Darfur. Last month, I met separately in Paris with 
the Sudan Liberation Movement/AW (SLM/AW) leader, Abdul Wahid el Nur 
and a seven-member delegation of the Justice and Equality Movement 
(JEM). El Nur, a Fur, commands strong popular support within the IDP 
camps and, until recently, remained outside the peace process laying 
down untenable conditions such as Janjaweed disarmament, return of the 
IDPs and full deployment of UNAMID. Though his faction is now engaged 
in consultations with the UN/AU team, el Nur maintains he will only 
come to the table when there is minimum security and the government 
refrains from bombing civilians. El Nur claims he is nevertheless ready 
to continue to engage with the U.S., other factions and the AU/UN on 
peace talks. The JEM is the most intransigent of the movements with a 
strong military support and strong ties to Chadian President Deby. 
Though JEM also claimed readiness to continue dialogue with the U.S., 
it rejects any prospects of talk with the newly formed factions, the 
government and maintains the government of Sudan believes in a military 
solution to Darfur and will continue to carry out attacks in Darfur 
unless it is countered by a military force such as JEM or the U.S. JEM, 
whose leader in under targeted sanctions by the U.S. saw this 
consultation as a new opportunity to engage with the U.S. The recent 
attack by JEM on Omdurman reveals its national agenda to seek power in 
Khartoum rather than negotiate for peace in Darfur. The U.S. must 
remain engaged to ensure the rebel alliances being formed are steered 
towards a pathway for peace.
    We and our allies within the international community will continue 
to engage diplomatically with the Government of Sudan to resolve the 
crisis in Darfur and implement the CPA for a democratic and stable 
Sudan.


    Question 3. The Global Peace Operations Initiative and the Africa 
Contingency Operations Initiative assistance programs have provided 
millions of dollars for the training of African militaries in 
peacekeeping operations. Per a White House press release, Amb. 
Khalilzad stated ``Since 2005, the United States has trained 34,750 
peacekeepers from 40 countries and has provided $375 million to 
increase global capacity for peacekeeping in Africa and elsewhere.'' 
``The program, known as the Global Peace Operations Initiative, has 
developed regional organizations' peacekeeping capacity in Africa, the 
Asia-Pacific region, South and Central Asia, South and Central America, 
Europe, the Middle East and elsewhere. One of the roles for the new 
U.S. Africa Command (AFRICOM) is to enhance overall AU peacekeeping 
capabilities.'' As the Darfur crisis has unfolded and the international 
community has responded, the U.S. has provided additional millions of 
dollars to train the deploying African battalions for Darfur. The most 
recent was $100 million for deploying UNAMID peacekeepers.

    (Note from State Department: In the last line above, it would be 
more accurate if the word ``deploying'' was replaced by ``training and 
equipping.'')


    (a) Recognizing the significant increase in demand for peacekeepers 
over the last few years, how many of those nearly 35,000 peacekeepers 
have ever deployed on a peacekeeping mission? Is the United States able 
to keep track of such activity?

    (b) How many U.S.-trained peacekeepers from the normal GPOI/ACOTA 
programs-as opposed to the just-in-time training for battalions 
deploying in the near-term-are deployed to Darfur?

    (c) What explains the lack of peacekeeper availability following 
training? What can be done to ensure U.S. resources for training are 
achieving the desired result of deploying, especially in African 
contingencies?

    (d) What is the purpose and mission of GPOI and ACOTA?


    Answer (a). Eighty-five percent, or 29,672 of the 34,750 
peacekeepers trained (at the time of the press statement) by the Global 
Peace Operations Initiative (GPOI), have deployed to 17 peacekeeping 
operations around the world--mostly in Africa. The United States is 
generally able to keep track of such activity. GPOI has a full time 
metrics/evaluation team which links into Department of State and 
Department of Defense (DoD) assets worldwide to gather auditable, 
verifiable statistics of this nature.


    (b) 3,124 personnel as of May 9, 2008.


    (c) As indicated in the answer to question 3a above, the 
peacekeepers trained by GPOI/African Contingency Operations Training 
and Assistance (ACOTA) program in Africa have been generally available 
for deployment after training. This is largely the result of careful 
State/DoD selection of countries that would receive GPOI/ACOTA 
training. In those cases where fewer peacekeepers were available for 
deployment, lack of equipment and logistics largely accounted for their 
inability to deploy.
    To ensure U.S. resources achieve the desired result of deploying 
fully-trained peacekeepers, the United States should continue the 
careful selection process described above, which focuses on countries 
with: (1) a strong commitment to peacekeeping; (2) the will to deploy; 
(3) the capacity or potential capacity to deploy contingents to peace 
operations; (4) the ability to provide or arrange for the provision of 
sustainment for their peacekeepers; and (5) demonstrated commitment and 
capacity to build on the training that the United States provides.


    (d) GPOI is a peace operations capacity-building program. Its 
purpose is to: (1) train and, as appropriate, equip at least 75,000 
peacekeepers worldwide, with an emphasis on Africa, from 2005 to 2010 
in order to increase global capacity to participate in peace 
operations; (2) enhance the ability of regional and sub-regional 
organizations to train for, plan, prepare for, manage, conduct, and 
obtain and sustain lessons-learned from peace operations through 
provision of technical assistance, training, and materiel; and support 
institutions and activities which offer these capabilities to a 
regional audience; (3) support the G8 Africa Clearinghouse and initiate 
and support a G8++ Global Clearinghouse for peacekeeping capacity-
building; (4) support development of a G8 transportation and logistics 
support arrangement to help provide strategic transportation for 
deploying peacekeepers and logistics support to sustain units in the 
field; (5) provide support to the international Center of Excellence 
for Stability Police Units (COESPU) in Italy to increase the 
capabilities and interoperability of stability police to participate in 
peace operations; and (6) conduct sustainment/self-sufficiency 
activities in support of objectives (1) through (5) above with a focus 
on assisting partner countries to sustain capabilities gained in 
training programs. ACOTA, a part of GPOI, is a peace operations 
capacity-building program that focuses mostly on the tactical and 
operational levels and on training African peacekeepers using, inter 
alia, a train-the-trainer approach.


    Question 4. The European Union (EU) has deployed several thousand 
peacekeepers in eastern Chad this year.

    (a) How will this force operate and what mandate do they have?

    (b) Is EUFOR experiencing similar problems as UNAMID in deploying 
personnel and equipment? What explains their experience?

    (c) How have the Chadian people, the regional rebels and the Chad 
government responded to the EUFOR deployment?


    Answer. (a) On September 25, the Security Council approved 
Resolution 1778 to establish the European Force (EUFOR) under the 
framework of the European Security Defense Program (ESDP) and the 
United Nations Mission in the Central African Republic and Chad 
(MINURCAT) peacekeeping operation in Chad and the Central African 
Republic (CAR) to protect refugees, internally displaced persons, and 
humanitarian operations. UNSCR 1778 authorized MINURCAT up to 300 
civilian police, who have a mandate to train and advise a special unit 
of the Chadian National Police to protect vulnerable civilians in 
eastern Chad. MINURCAT was also authorized to establish a 
multidimensional office of civilian and up to 50 military personnel to 
maintain liaison with host country governments, other UN entities in 
the region, and the EU force. EUFOR is to consist of 3,000-4,000 troops 
contributed by EU countries. While EUFOR has a UN mandate to provide 
force protection to MINURCAT in both countries, EUFOR remains under EU 
command and control and is not paid out of UN assessments.


    (b) Originally a lack of resources and shared willingness of other 
EU members to contribute resources to the mission delayed and 
complicated EUFOR deployment. The French, who were the leaders in 
promoting the idea of EUFOR, had pressured other EU members to share 
the burden and fill resource gaps with agreement for common funding and 
required equipment and personnel. There was resistance by some EU 
members to invest in the mission given heavy demands for other missions 
(including NATO missions) which had exhausted their deployment 
capabilities. There was also some disagreement among the member states 
on how high a priority this mission was for the EU as a whole.
    The United States demarched several EU countries urging all members 
to contribute and ensure that the deployment happened quickly and 
successfully. Ultimately, the mission went forward after the French 
increased their contribution to fill remaining force gaps. 
Additionally, for the first time, Russia agreed to participate in the 
mission, contributing four helicopters under the EU chain of command. 
We have provided $2 million to MINURCAT to cover monthly stipends of 
Chadian police trainees.


    (c) Although initially reluctant, by mid-2007 the Chadian 
government endorsed deployment of EUFOR and MINURCAT. Chadian support 
for EUFOR and MINURCAT increased further following the February 2008 
rebel attack on N'Djamena. In an April 1 letter circulated to the 
Security Council, Chad asked that MINURCAT be strengthened to increase 
security in the border region, but did not provide further details. The 
Security Council would need to approve a new resolution to authorize 
MINURCAT to monitor the border or to deploy military observers. We will 
notify Congress formally if the Council considers such expansion.


    Question 5. Describe the degree to which and the substantive 
changes that have occurred, if any, in the Darfur conflict related to 
the belligerent parties' goals, targeted groups, purpose of action, as 
well as their intent.

    Answer. The Government of Sudan continues its efforts to contain 
opposition in Darfur through both violent attacks and political 
maneuvering. Although the opposition Sudan Liberation Movement (SLM) 
has splintered into a number of factions, its overarching goals of 
improved political and economic conditions in Darfur are largely 
unchanged. The Justice and Equality Movement, led by Khalil Ibrahim, 
continues to pursue a national agenda, seeking to spread the conflict 
beyond Darfur to South Kordofan and other parts of Sudan in order to 
effect violent political change in Khartoum. However, as with any 
movement, the personal goals and interests of individual commanders and 
faction leaders may at times diverge from the political objectives of 
the movement, and this poses an additional challenge to the resolution 
of the conflict.
    Though there have not been significant changes in the goals or 
objectives of the parties, the nature of the violence in Darfur has 
shifted over the past two years, with a wider range of groups 
responsible for instigating violence. While attacks by the Government 
of Sudan and government-sponsored militias continued to take place, 
inter-ethnic violence, including inter-Arab tribal violence, has 
increased significantly. Arab militias not only support Sudan Armed 
Forces (SAF) attacks on civilians in Darfur, but also shift alliances, 
join the rebels, or attack SAF forces in retaliation for not being 
paid. Their services are available to the highest bidder. In addition, 
attacks initiated by rebel factions have dramatically increased since 
the signing of the Darfur Peace Agreement in 2006. In the past year, 
rebel movements have frequently attacked commercial traffic, including 
humanitarian aid shipments, and seized goods, vehicles, and persons.

                               __________

                Questions Submitted by Senator Feingold

Abeyei


    Question. We discussed the CPA briefly at the recent hearing, but I 
would like to hear from you specifically to know what the U.S. is doing 
to help achieve implementation of the Abyei boundary commission's 
ruling. What particular activities, conversations, programs, or 
initiatives is the U.S. government undertaking?

    Answer. The United States and key international partners were 
instrumental in achieving the Abyei compromise agreement embodied in 
the Comprehensive Peace Agreement (CPA). The agreement called for 
establishment of the Abyei Boundary Commission (ABC), which was tasked 
to ``define and demarcate the area of the nine Ngok Dinka Chiefdoms 
transferred to Kordofan in 1905.'' The Government of Sudan (GOS) 
rejected the boundary determination of the ABC, arguing that the ABC 
had ``exceeded its mandate.''
    Resolving the impasse on Abyei is a top priority for the 
Administration. We continue to make public statements calling on the 
parties to reach a resolution on Abyei, including the establishment of 
the interim Abyei administration. We also raise the issue continuously 
in bilateral and multilateral forums and are prepared to engage further 
as needed.
    Achieving stability in the Abyei region is critical to the 
resolution of the dispute. For that reason, the U.S. government pressed 
the Government of Sudan and the Government of Southern Sudan to allow 
the United Nations Mission in Sudan (UNMIS) to patrol in the area. 
UNMIS troops are now deployed north and south of Abyei town. The 
presence of UNMIS is essential to maintaining peace in Abyei, and 
preventing the situation from further deterioration.
    We are also funding programs aimed at fostering dialogue and 
preventing conflict between key tribal groups in Abyei, including the 
Ngok Dinka, Messeriya, and Reizegat. These programs involve training on 
the rule of law and conflict mediation, strengthening political parties 
and civil society, improving officials' methods for addressing citizen 
views, and a civil education campaign on the ABC decision.
Regional Dimension


    Question 2. As you are well aware, the ongoing violence in Darfur 
and tensions in southern Sudan have a direct impact on surrounding 
countries. This past February, rebels backed by the Sudanese government 
attempted to topple Chad's President Deby, and Khartoum's known to have 
supported the Lord's Resistance Army (LRA), a rebel group that has 
preyed on civilians in northern Uganda and along Sudan's southern 
border, as well as in the Democratic Republic of Congo and Central 
African Republic (CAR). What diplomatic efforts have you undertaken to 
address the regional dimensions of the conflicts in Sudan? To this end, 
how are you working with the Tim Shortley, the Assistant Secretary's 
Special Advisor for Conflict, and key U.S. diplomats in the region? 
Does the U.S. strategy for Sudan include a plan and resources to quell 
related violence in Chad and the CAR?

    Answer. The United States is deeply concerned about the regional 
impact of the Darfur conflict, particularly its impact on Chad and the 
Central African Republic. The Chad/Sudan border remains one of the most 
dangerous and inaccessible places for humanitarian workers and the 
recent Chad/Sudan cross-border attacks have contributed to the lack of 
progress in the Darfur political process as well as increased 
displacements with refugees crossing into Chad from CAR and Sudan and 
with some refugees fleeing into Darfur (250,000 Sudanese refugees along 
the Eastern Chad borders, 20,000 Chadian refugees in Darfur and 59, 000 
CAR refugees in South Chad).
    While I am charged with focusing on the situation in Sudan 
primarily, I am also concerned about the regional impact of the Darfur 
crisis and coordinates closely with other U.S. officials working in 
neighboring countries. I traveled to Egypt in March 2008 and plans to 
visit Libya and Chad in the near future. In addition, I raised the 
issue of Sudan's support to Chadian rebels with President Bashir during 
his March visit.
    The U.S. continues to engage bilaterally with Chad on political 
inclusiveness and the need to seek a negotiated settlement with the 
Chadian rebel movements. We have encouraged our allies such as France, 
who have more leverage on Chad, to take the lead in ensuring adherence 
to past agreements. The U.S. supports the March 2008 Dakar Accords that 
commit Chad and Sudan to normalize relations, cease all supports to 
rebels, and establish an international security force along their 
border. The deployment of the European Force (EUFOR) along the borders 
of Chad/CAR to protect Darfur refugees camps and humanitarian workers 
and the deployment of the UN Mission to the Central African Republic 
and Chad (MINURCAT) are key.
    We continue to encourage Chad to accept the deployment of a follow-
on UN operation. The U.S. also has pushed for collaboration between 
EUFOR/MINURCAT and UNAMID, which will facilitate humanitarian 
operations and peace efforts in the region. The U.S. has provided $2 
million to assist in MINURCAT efforts.


    Question 3. Darfur peace negotiations. Given the tumultuous 
relationship between Chad and Sudan and the frequent cross-border 
skirmishes, do you consider the Chadian government as well as the 
rebels in Chad to be key stakeholders in the now stalled Darfur 
political negotiations or are they outside the scope of that peace 
process?
    Is there a mechanism in place to engage representatives--including 
from the IDP population, community leaders residing in rural areas and 
Arab community leaders--in the Darfur peace talks, once they are 
resumed?

    Answer. The joint United Nations/African Union (UN/AU) mediation 
team has made an effort to include representatives of civil society in 
the Darfur peace talks. More than a dozen representatives of civil 
society attended the last round of formal talks in Sirte, Libya in 
November 2007. Additional civil society representatives were prevented 
from attending by the Government of Sudan. The UN/AU Joint Mediation 
Support Team (JMST) is in the process of drafting a more comprehensive 
strategy for inclusion of civil society in future talks, including the 
utility of a tripartite committee to address civil society issues, 
comprised of the JMST, the United Nations-African Union Mission in 
Darfur (UNAMID) Civil Affairs Office, and the Darfur-Darfur Dialogue 
and Consultation (DDDC) body. The DDDC is a product of the Darfur Peace 
Agreement, responsible for holding intra-Darfuri dialogues on issues 
affecting the people of Darfur. The DDDC preparatory committee has 
already begun holding such consultations, and intends to provide 
feedback from those discussions to the mediation team in order to 
inform the negotiations.

                               __________

                  Questions Submitted by Senator Obama


    Question 1. I am encouraged by the portion of your testimony 
stating that the Administration ``will not rely on promises of future 
actions'' as sufficient to trigger an improvement in US-Sudan 
relations. But it does raise the question of just how much will be 
enough to trigger a change in our relationship with the Government in 
Khartoum. Will individual steps, or action on commitments undertaken 
long ago by Khartoum but still not honored, be sufficient, in the 
Administration's view, to take steps toward normalization? If so, how 
do we expect to achieve progress on all of the other vitally important 
issues needed to bring lasting peace and stability to Sudan?

    Answer. After Foreign Minister Deng Alor's discussion in February 
with Secretary Rice regarding a proposal from the Government of Sudan 
for improving relations between our countries, our discussions with 
Sudanese officials have outlined a set of specific, verifiable steps to 
be taken by the Government of Sudan to significantly improve the 
humanitarian situation for the people of Darfur, ensure the rapid 
deployment of UNAMID in order to achieve security and stability on the 
ground, and further the implementation of the CPA. We have outlined the 
long, hard road of required steps that would need to be taken by the 
Government of Sudan in order to move forward. We have continued to make 
clear to the Government of Sudan that commitments on past agreements, 
such as the Joint Communique on the Facilitation of Humanitarian 
Activities and the Comprehensive Peace Agreement, must be upheld and 
implemented. We conveyed that this alone, however, is not enough to 
warrant an improvement in bilateral relations. We will not rely on 
promises of future actions, and concrete, verifiable, significant 
progress in Darfur must be achieved on the ground before we can 
contemplate improved relations.


    Question 2.  Can you assure me that the Congress will be 
meaningfully consulted before the Administration makes any commitments 
to the Government of Sudan regarding normalization of relations? In 
addressing a crisis of this urgency and magnitude, it would be terribly 
counterproductive to take action that would lead to a situation in 
which various elements of the U.S. government are arguing amongst 
themselves rather than working together toward the most effective 
possible policy.

    Answer. We have made clear to the Government of Sudan that there is 
a long, tough road ahead based on verifiable steps and tangible 
progress on the ground that the Government of Sudan must achieve before 
any commitments are made by the United States to normalize relations 
with the Government of Sudan. If the Government of Sudan takes the 
series of required steps to improve relations with the United States, 
many of the steps would require Congressional approval. We welcome and 
appreciate participation from Congress on these issues. The suffering 
in Darfur, the obstacles to the delivery of humanitarian assistance, 
and the urgent need to push forward on implementation of the 
Comprehensive Peace Agreement are matters of great complexity and 
importance that merit and require the attention, creativity, and 
resources of both the Administration and the Congress. We are committed 
to engaging the various elements of the U.S. government in order to 
pursue policies toward Sudan that most effectively alleviate the 
suffering of the people of Sudan and move the country toward peace and 
stability.


    Question 3. Your testimony vividly described the worsening 
conditions in Darfur over the course of recent months and the 
Government of Sudan's obstructionist response to the deployment of 
UNAMID. What concrete consequences for these developments, in terms of 
U.S. and multilateral policy responses, have been borne by the Sudanese 
Government in this same timeframe?

    Answer. It is a difficult and complex endeavor to coordinate and 
deploy a hybrid peacekeeping mission in a country with a strong and 
often uncooperative central government. Unfortunately, many of the 
obstacles presented by Sudan have been difficult to pinpoint, and the 
lack of a ``smoking gun'' has made it difficult to use the UN Security 
Council to address these problems.
    President Bush has made the full deployment of the UNAMID 
peacekeeping mission a top priority, and we are working to identify and 
remove any impediments to deployment in order to bring security and 
stability to Darfur. In conversations with officials from the 
Government of Sudan, we have raised specific problems faced by UNAMID. 
We will continue to work in close coordination with the United Nations 
to address any obstacles to deployment.


    Question 4. Do you believe that you have the resources and support 
needed to devote sustained attention both to the genocide in Darfur and 
the fraying North-South peace process? Are you satisfied with the lines 
of authority in the Administration as they are currently structured, 
and are you confident that you have the necessary authority and 
autonomy to be effective in your role?

    Answer. As the President's Special Envoy for Sudan, I am committed 
to help bring an end to the violence in Darfur, promote implementation 
of the Comprehensive Peace Agreement (CPA), and bring stability to 
Sudan as a whole. I am assisted in my work as Special Envoy by the 
Assistant Secretary of African Affairs and staff from Sudan Programs 
Group Office (SPG), the USUN mission in New York, the United States 
Agency for International Development, the National Security Council, 
and the Department of Defense. Our efforts are also supported by the 
hard work of the U.S. Embassy in Khartoum, including two Foreign 
Service Officers located in Darfur, and our Consulate General in Juba, 
Southern Sudan.
    Not only is Sudan USAID's largest program in sub-Saharan Africa and 
among the largest in the world, but Darfur is currently the largest 
humanitarian relief operation in the world, and the United States 
remains the single largest donor. I am confident that with these 
resources we will continue to devote sustained attention to activities 
to end humanitarian suffering and work towards achieving peace in 
Sudan. Because Sudan is a top priority of this Administration, I am 
devoted to serving the President in his efforts to bring peace, 
security, and prosperity to the people of Sudan. I am working closely 
with all elements of the Administration involved in Sudan to ensure 
that together we implement the President's policies and work to bring 
peace and security to the people of Sudan.

                               __________

                  Questions Submitted by Senator Casey


    Question 1. The U.S. is the leading international donor to Sudan, 
contributing nearly $4 billion for humanitarian programs in Sudan and 
eastern Chad since FY 2004. However, as we all know, the U.S. cannot 
solve this crisis alone. We must use the tools of multilateral 
engagement and work hand in hand with others to meet the challenges 
that the situation in Darfur presents.

    (a) What roles have China and Russia played in efforts to forge 
peace and security in Darfur this year? What steps have you taken to 
engage Beijing and Moscow, either in a bilateral or multilateral 
context at the UN?

    (b) China maintains a close defense relationship with the 
government in Khartoum, despite a 2005 UN-imposed arms embargo. What 
evidence do we have that China or its proxies are supplying military 
equipment to the Khartoum government for use in the Darfur region? What 
about Russia?

    (c) What is the administration's position on securing a stronger 
arms embargo against Sudan?

    Answer. (a) I met with the Chinese Envoy in Sudan in February, and 
encouraged China to use its influence in the region constructively to 
help bring peace and security to Darfur. Deputy Secretary Negroponte 
and other U.S. government principals have also contacted Beijing 
directly, asking China to exert additional pressure on the Government 
of Sudan on Darfur, provide additional practical support to UNAMID, and 
to halt Chinese arms sales to Khartoum.
    The United States has also engaged Russia regarding the situation 
in Sudan, including lobbying successfully for Russian (and Chinese) 
support for UN Security Council Resolution (UNSCR) 1769, which 
established the UN / AU Mission in Sudan (UNAMID). China has provided 
the first non-African personnel to UNAMID, consisting of 140 of an 
eventual 315 combat engineers, and has provided $500,000 to the UN 
Trust Fund to support AU/UN Special Envoys for Darfur.

    (b) Chinese-origin military equipment has been observed in Darfur, 
and Chinese arms sales and transfers to the Government of Sudan are 
well recognized. The Chinese government asserts that Chinese companies' 
arms sales to Sudan constitute normal trade and are not destined for 
use in Darfur. The United States has observed Chinese arms in Darfur. 
Several recent NGO reports have also highlighted Chinese arms sales to 
Sudan. Russian attack helicopters and other aircraft provided before 
the 2005 embargo (UNSCR 1591) remain in use in Darfur.

    (c) The United States strongly supports the UN arms embargo imposed 
in UN Security Council Resolution (UNSCR) 1556 (2004) against ``all 
nongovernmental entities and individuals.operating in'' the states of 
North Darfur, South Darfur, and West Darfur and expanded by UNSCR 1591 
(2005) to apply to the Government of Sudan in Darfur. The Resolutions 
call on all member states to take the necessary measures to ensure that 
their arms sales to Sudan are not used in Darfur, and establish a Panel 
of Experts to investigate any violations.
    The Panel has repeatedly asked countries like China and Russia to 
explain how they ensure that weapons sold to the GOS are not being used 
in Darfur as required by existing resolutions. Our own, bilateral 
sanctions against the Government of Sudan prohibit the sale of weapons 
to it. I have reiterated that all options remain on the table, 
including additional sanctions and other punitive actions, if the 
situation on the ground does not change for the people of Darfur.

                               __________

   Additional Questions Submitted for the Record to USAID Assistant 
              Administrator for Africa Katherine Almquist

                Questions Submitted by Senator Feingold


    Question 1. Humanitarian Situation and Bureaucratic Impediments. 
Despite the Joint Communique signed by the Government of Sudan and the 
U.N. nearly a year ago, the humanitarian community working in Darfur 
continues to be plagued by direct attacks as well as by a number of 
bureaucratic procedures imposed by the Sudanese government. What are 
the prospects for more effective delivery in the near term? What can we 
do to facilitate this?

    Answer. To improve the speed and delivery of humanitarian 
assistance and to ensure the full implementation of the Joint 
Communique, the U.S. government must continue to work with the 
international community to press the Government of National Unity (GNU) 
to uphold agreements already made, including the Joint Communique, and 
to halt the creation of new impediments to humanitarian assistance. The 
U.S. government should continue to advocate, along with other donor 
governments, the European Union, and the U.N., the principles of the 
Joint Communique as well. Sudanese government bureaucratic procedures 
are not only problematic at the federal level, but also at the state 
and local levels, with state and local agencies frequently not adhering 
to procedures outlined in the Joint Communique or supporting documents. 
In many instances, state and federal authorities have divergent views 
on how to interact with non-governmental organizations (NGOs) and apply 
the rules set forth in the Joint Communique. The U.S. government should 
continue to participate, as appropriate, along with the GNU and the UN 
in the High Level Committee responsible for implementation of the Joint 
Communique. This process allows problems to reach the leadership in a 
highly decentralized system in order to bring problems to their 
attention and find solutions.


    Question 2. Civilian Police. At the hearing you discussed the need 
for greater security in Darfur in order for humanitarian agencies to 
have full access to their beneficiaries. You suggested this might be 
accomplished by increasing the number of civilian police in Darfur, 
including along the routes the humanitarian conveys travel. I'd like to 
clarify this point. Were you referring to Sudanese Government police 
and, if yes, wouldn't these police be considered partial and therefore 
not accepted as legitimate security guarantors by either the 
humanitarian organizations or the people of Darfur? If you were 
referring to UNAMID civilian police, while there are now some 1,600 
police officers on the ground in Darfur, wouldn't the demand for more 
police be part of the larger problem regarding UNAMID, which remains 
stalled? Is there some alternative we might consider that would provide 
greater protection without jeopardizing neutrality or getting stuck in 
the struggle for UNAMID's full deployment?

    Answer. The reference made during the hearing to the need for 
additional police refers specifically to the issue of banditry against 
commercial trucks carrying U.N. World Food Program (WFP) food aid. To 
date in 2008, bandits have hijacked 60 WFP-contracted vehicles, with 39 
trucks and 29 drivers still missing. Following this rash of banditry 
incidents, which began in late 2007, WFP-contracted transporters began 
refusing to travel along main supply routes from logistical hubs 
outside of Darfur without a Sudanese government police escort. Slow and 
inefficient police escorts resulted in significant transport delays for 
WFP-contracted vehicles, causing WFP to draw down buffer stocks of 
commodities in Darfur to dangerous levels and necessitating the 
reduction in food rations for May and June. WFP and the U.S. government 
have called on the Sudanese government to immediately increase the 
number and frequency of police escorts for WFP-contracted transporters 
so that WFP can move additional food stocks into Darfur in advance of 
the upcoming rainy season. In the absence of sufficient United Nations-
African Union Mission in Darfur (UNAMID) capacity, Sudanese government 
police escorts are required only for commercial convoys traveling from 
logistical hubs outside of Darfur to WFP warehouses in the three Darfur 
state capitals. WFP uses locally contracted trucking firms, which have 
their own fleets of trucks and do not require a Sudanese government 
escort, for food deliveries to distribution locations within the Darfur 
states.
    USAID respects and consistently advocates for the political 
neutrality of all humanitarian agencies, including USAID partners, in 
Darfur. USAID respects the right of the humanitarian community to 
pursue the most appropriate mechanisms to ensure their security.
    UNAMID civil police have made a significant difference in 
protection where units are deployed to date, including at regular 
patrols in Kalma Camp for internally displaced persons. USAID strongly 
encourages the full and rapid deployment of the UNAMID civilian police 
units as mandated by U.N. Security Council Resolution 1769.


    Question 3. Southern Sudan. How best should the United States and 
the rest of the international community support progress when it comes 
to developing southern Sudan? Rather than focusing on USAID's range of 
active programs in the south, in answering this question please address 
priorities, sequencing, and both short and long term objectives.

    Answer. The best strategy for supporting the development of 
Southern Sudan is for the international community to ensure continued 
and engaged assistance to the implementation of the Comprehensive Peace 
Agreement (CPA). Timely and bonafide implementation of the Agreement, 
which aims to address political, social and economic inequalities in 
Sudan over the long term, will mitigate conflict and the potential for 
return to war. The return to large-scale war in Sudan would be the 
single largest detriment to ensuring the South's economic and political 
prosperity. The financial, social, economic and political costs of 
watching Sudan slip back into war are too great. Therefore, identifying 
and addressing the short- and long-term potential flashpoints for 
conflict in Sudan are essential to consolidating the CPA. The U.S. and 
international community can do this through supporting post-conflict 
reconstruction and laying the foundations for longer term development.
    Given this imperative, Sudan continues to be the United States' 
highest foreign policy priority in Africa. As the country approaches 
CPA-mandated national elections in 2009, the risks of returning to war 
will increase. The United States provides targeted and integrated 
assistance in Southern Sudan based on policy goals and geographic 
realities that advance the priorities of saving lives and mitigating 
suffering, building human capacity, creating security, ensuring 
economic development and promoting democracy and governance.
    While all priorities are important, some are more critical as short 
term goals and must be addressed immediately, such as humanitarian 
assistance. Longer term goals for the Unites States include building 
capacity in people to support and govern themselves through ensuring 
education and training, providing a foundation for economic growth, and 
creating a deterrent to outside aggression. These priorities should be 
addressed simultaneously as progress in each priority area will spur 
success in others. Building the capacity of people, providing 
livelihood and market development assistance and creating stability 
will ultimately create the space for viable, successful elections in 
2009. Without clear evidence that the CPA is working to the benefit of 
the southern Sudanese population with visible, positive changes to 
their environment and circumstances, it is difficult to predict their 
positive support for elections.

    More detail on the priorities of the Unites States in Sudan is as 
follows:


   Providing Humanitarian Assistance: The transition to recovery and 
        restoration of livelihoods should continue in Southern Sudan. 
        In the next year, the U.S. provision of humanitarian assistance 
        will continue to aid vulnerable populations in the South. 
        However, opportunities for longer term efforts, such as 
        capacity building and reconstruction will be sought to obviate 
        the need for relief assistance.

   Investing in People: Emphasizing decentralized, community-based 
        provision of essential services to engage local stakeholders in 
        development activities, rebuild health and education systems, 
        and focus on areas with high levels of returning families will 
        lessen the need for long term humanitarian assistance. The 
        United States will address priority health threats, strengthen 
        maternal and child health services, and reduce the burden of 
        infectious diseases, including HIV/AIDS. The education program 
        will improve access to education through formal and non-formal 
        programs focusing on primary and girls' education, teacher 
        training, bilingual curriculum development, and institutional 
        capacity development within the GOSS.

   Promoting Economic Growth: The United States seeks to address the 
        effects of years of war and neglect on infrastructure in 
        southern Sudan and the Three Areas by continuing to build roads 
        and bridges to open up the region and link it both to northern 
        Sudan and neighboring countries, thereby facilitating trade, 
        delivery of services, and effective rule of law. Assistance 
        will focus on building roads and providing modern energy 
        services in key towns as part of a more intense effort to 
        create an enabling environment for private sector investment 
        and activity that promotes job creation and greater economic 
        opportunities.

   Governing Justly and Democratically: The next milestone in the 
        implementation of the CPA will be the 2009 elections. The 
        Unites States will assist in supporting election capacity 
        building with key stakeholders. The Unites States will also 
        continue to support the GOSS by assisting the development of 
        core governmental institutions.

   Achieving Peace and Security: Promoting this priority entails 
        supporting the transition of the Sudan People's Liberation Army 
        (SPLA) from a guerrilla force into a professional military, 
        protecting civilians through the clearance of land mines and 
        the destruction of explosive remnants of war, and assisting 
        with law enforcement reform and training.

                               __________

                  Questions Submitted by Senator Obama


    Question 1. In your testimony you speak to the importance of a 
timely census, and I certainly agree that timely progress on the census 
is essential. But it also seems clear that census results that have no 
credibility in the end will worsen the prospects for lasting peace. 
What steps can be taken to improve the credibility of the census 
process?

    Answer. Sudan's Fifth Population and Housing Census, which is 
currently underway, is the first major political milestone critical to 
the successful implementation of the Comprehensive Peace Agreement 
(CPA). The CPA calls for a population census as the basis for power 
sharing. The north-south power sharing percentages in the executive and 
legislative branches of the Government of National Unity (GNU) will be 
adjusted based on the census population data. Depending on the type of 
electoral system which is chosen for the national electoral law, the 
census data will also inform the delimitation of constituencies, and 
will help in planning for and verifying the voter registration for the 
2009 elections and subsequent referendum in 2011. As a result, the 
proper technical conduct of the census, concluding in credible results, 
is indispensable for maintaining the integrity of the CPA as the 
roadmap for Sudan's peaceful democratic transformation.
    The census is implemented by the Central Bureau for Statistics 
(CBS) in the north and Darfur, and by the South Sudan Commission for 
Census, Statistics, and Evaluation (SSCCSE) in southern Sudan. This 
division of responsibility has presented many challenges in ensuring 
uniform monitoring of the census process, from preparations to 
enumeration (the actual process of collecting census information) and 
including post-enumeration data processing and analysis.
    Steps taken to date to improve credibility of the census process 
(census preparation and enumeration phases): Enumeration just concluded 
on May 6, 2008, and both census agencies are currently working to 
return questionnaires to their respective data processing centers in 
Khartoum (northern Sudan and Darfur) and Rumbek (southern Sudan), where 
they will enter and process census data as they move into the next 
phase of census operations. Steps that were taken to enhance 
credibility of the census process in the preparation and enumeration 
phases included a combination of donor assistance and diplomatic 
messaging, as follows:


    1. Capacity-Building and Logistical Support: USAID, the UN 
Population Fund (UNFPA), working through the Multi-Donor Trust Fund, 
and other donors supported capacity-building for the census 
implementing agencies, provided logistical support and procured needed 
commodities during the census preparation and enumeration phases. In 
terms of U.S. assistance, USAID supported technical assistance to the 
SSCCSE to build its technical capabilities to conduct a credible census 
operation, embedding numerous short- and long-term advisors in almost 
every area of census operations. Further, USAID coordinated closely, 
through the interagency process, with other U.S. government 
stakeholders on diplomatic messaging. USAID has also coordinated with 
technical working groups of other donors to promote technical solutions 
rather than political solutions to technical problems as they have 
appeared.

    2. Resolution of Questionnaire Quantity Shortage: A months-long 
dispute between north and south over questionnaire quantities to be 
distributed in each area was resolved through close coordination 
between donors, UN agencies, national authorities, and the CBS and 
SSCCSE, drawing on well-documented technical justifications provided by 
a USAID-funded advisor. As a result, additional questionnaires were 
printed, delivered and distributed between northern and southern census 
commissions in time to ensure sufficient stocks of questionnaires were 
available for enumeration in both the north and south. Without this 
agreement, shortages would likely have occurred, leading to a rejection 
of census results by at least one party.

    3. Sustained Pressure to Release Delayed Funding: The U.S., in 
close collaboration with UN agencies and donor partners, maintained 
diplomatic pressure on the GNU to meet its commitment to finance the 
census technical operations throughout Sudan. As a result of 
coordinated and sustained efforts over more than six months, sufficient 
funding was released to prevent further delays of the enumeration 
itself. The diplomatic effort is ongoing, as the GNU has still not 
released all funds it had committed to provide for census operations, 
and additional funds will be needed soon to finance data processing.


    Next steps to improve credibility of the census process (return of 
census materials, data processing and analysis phases and announcement 
of results): The tasks of preparing for-and conducting-the enumeration 
have only been one part of the total challenge. In the South, it will 
be necessary to collect, pack and send the forms to the SSCCSE data 
processing center in Rumbek, Lakes State for scanning, editing and data 
processing. In the North, the completed forms will be forwarded to 
Khartoum for further processing. This post-enumeration processing is 
estimated to take several months and agreement on final results must be 
endorsed by the CBS and SSCCSE as well as the Population Census Council 
and the GNU Presidency. Steps being taken to enhance credibility of the 
census process following enumeration will continue to include a 
combination of donor assistance and diplomatic messaging.

    Important measures include:


    1. Monitoring of Enumeration: The Monitoring and Observation 
Committee (MOC) is the official Sudanese government body tasked with 
monitoring the census process. Despite efforts by donor government 
members and the UN to encourage greater transparency and participation 
in the monitoring effort, this body's plans and operations have not 
achieved desired levels of transparency. DFID consultants assisted in 
drafting of the MOC's monitoring work-plan and provided training to 
international and domestic census monitors prior to enumeration. 
Although it is still unclear who will be responsible for final drafting 
of the MOC monitoring report and approval of its content, donor members 
of the MOC have already stated the joint position that the report 
should reflect only the observations of those monitors who were openly 
recruited and trained during the DFID-funded training program.

    2. Measures to Ensure Transparency in Data Processing: The CBS and 
SSCCSE have agreed on two primary mechanisms to ensure transparency of 
the data processing phase. The first encompasses procedures for 
questionnaire control that requires each serialized questionnaire to be 
accounted for and ensures only data valid questionnaires are counted. 
The second is a commitment to exchange raw and edited data files, which 
will enable each agency to spot check the data processing of the other. 
USAID provided technical assistance to the SSCCSE to ensure 
international best practices were reflected in the questionnaire 
control protocol. The U.S. will coordinate diplomatic messaging with 
other members of the international community to encourage both 
statistical agencies to fulfill these agreements.

    3. Capacity-Building and Logistical Support: USAID, UNFPA, and 
other donors continue to provide technical assistance and logistical 
support to facilitate return of questionnaires, as well as commodities 
support related to data processing. USAID-embedded advisors will 
continue to work with the SSCCSE to help the Commission with logistics 
for retrieval of materials, assist it to implement questionnaire 
control protocols that enhance credibility of the final data, and 
support data processing. USAID is also providing commodities support 
for data processing, including barcode scanners, computers, and other 
technical equipment needed for the SSCCSE's Rumbek data processing 
center to function.

    4. Diplomatic efforts: Given the political implications of the 
census and its political sensitivities, the U.S. will continue to work 
closely with other members of the diplomatic community to anticipate 
and help mediate resolution of any disputes that arise over technical 
processes, validity and use of data, so that both parties to the CPA 
are ultimately able to accept census results and move forward with full 
implementation of the Comprehensive Peace Agreement.

                               __________

                  Questions Submitted by Senator Casey


    Question 1. According to the World Food Program, Darfur represents 
the largest humanitarian emergency in the world. It is also the U.S.'s 
largest food assistance effort. As we have seen over the last few 
months, we are in the midst of a global food crisis, driven by a number 
of factors including rising prices and increasing demand for 
commodities, especially food and fuel. The head of the World Food 
Program has called the global food crisis a ``silent tsunami''--
affecting the world's most vulnerable without regard to geography or 
traditional borders.
    A report by the UN Secretary General, in January-February 2008, 
stated that an estimated ``54 vehicles were hijacked, including two 
UNAMID vehicles and 32 World Food Program trucks.'' According to news 
accounts, 150 trucks carrying food to Darfur have been hijacked this 
year. The World Food Program has announced that it is forced to halve 
rations for up to 3 million people in Darfur because of these attacks 
on supply routes and shortages in its food supply.
    What is the impact of the current global food crisis on U.S. and 
multilateral assistance to Sudan?

    Answer. Since the USAID Office of Food for Peace (FFP) prioritized 
contributions to Sudan early in fiscal year 2008, as required given 
seasonal variations in hunger periods, FFP was able to provide a 
significant quantity of food assistance--over $350 million to WFP's 
operation in Sudan alone--before the full weight of the global crisis 
in food prices became apparent. FFP believes that anticipated cash 
inflows--in particular the money allocated in the Administration's 
supplemental request--will be sufficient to cover the increase in 
domestic commodity and freight prices as they apply to the Sudan 
program. To date USAID has provided 316,270 metric tons of food 
commodities to WFP in response to the 2008 appeal for Sudan. These 
contributions amount to 50 percent of the total tonnage required by WFP 
to sustain the emergency operation. At present, the 2008 appeal for 
Sudan is nearly 58 percent funded. Contributions from other donors 
comprise approximately 8 percent of all confirmed contributions 
received by WFP to date.
    In addition, as a result of early and significant USAID 
contributions and timely contributions from other donors, the European 
Commission in particular, WFP has sufficient resources committed to the 
operation--either in Sudan or on the way to Sudan--to continue 
providing food to Darfur into September, with additional contributions 
from other donors forthcoming. This is assuming, of course, that 
security does not continue to hamper the delivery of resources to 
people that so critically need it (see below).Question:


    Question 2. What is the food security situation in Darfur now? What 
can be done to secure the transportation of food and protect drivers 
and convoys?

    Answer. Continued conflict, displacement and the erosion of coping 
mechanisms has again complicated the food security situation for 
millions of Darfuris in 2008. At present, commodity prices in many of 
the main market towns in Darfur are beginning to rise to levels not 
seen since the start of the crisis. UN agencies and NGOs believe that 
this rise is not significantly related to the global food crisis, but 
rather to poor harvests as a result of erratic rainfall and significant 
pest infestations during the last cropping season combined with the 
continued breakdown of law and order and violence throughout Darfur. As 
a result, WFP is targeting over 1 million non-displaced residents in 
Darfur with food aid during the annual hunger season from June-
September. This includes partnerships with other UN agencies and NGOs 
to deliver seed protection rations to many farming communities 
throughout Darfur in order to help ensure that seeds are planted and 
not consumed, leading to better harvests in the next cropping season. 
In some of the particularly hard hit areas, WFP is looking to begin its 
`seasonal support' rations to non-displaced rural population earlier 
than normal and/or increase the beneficiary caseload.
    A rash of banditry since late 2007 has pushed WFP's transport 
capacity to the limit as drivers now refuse to travel without a 
Government of Sudan police escort. However, insufficient escort 
capacity has significantly reduced commodity dispatches to Darfur at a 
time when WFP should be building up warehouse stocks in advance of the 
rainy season. The decision to reduce rations is meant to stretch stocks 
of food so that WFP can resume full rations during the height of the 
hunger season (July-August), when food aid needs are highest.
    Barring any significant breakthrough on the peace process and 
assuming that UNAMID capacity will continue to be constrained for the 
near future, the international community's options to secure the 
numerous routes that are used to bring food to Darfur are limited. WFP 
is procuring additional banners to provide to commercial transporters 
so that vehicles can be clearly marked as carrying humanitarian aid, 
and has publicized the reasons for the ration reduction in the local 
press in an effort to communicate to the various groups committing the 
acts of banditry the unfortunate impact of their actions on innocent 
IDPs and other conflict-affected populations.
    USAID believes that the only realistic, immediate term option is to 
continue to put pressure on the Government of Sudan to increase the 
number and frequency of police and military escorts for WFP-contracted 
commercial transport. More frequent and efficient escorts would 
increase truck turnaround time and minimize convoy backup at logistical 
hubs. Additionally, more frequent escorts would allow for smaller, more 
secure convoys of trucks, thereby decreasing the risk for many 
transporters. At this time, the GOS has indicated to WFP and the USG 
that it intends to bolster its capacity in the coming days to be able 
to provide escorts for convoys every 48 hours, which would be a 
significant improvement if implemented.


    Question 3. What are USAID's priorities for humanitarian assistance 
in Darfur?

    Answer. The principle priority for USAID in Darfur is the continued 
provision of live-saving food and non-food humanitarian assistance. 
According to WFP estimates, 3.7 million people across Darfur will need 
food aid in 2008. In response, USAID has provided 316,270 metric tons 
against the 2008 appeal for Sudan. These contributions amount to 50 
percent of the total tonnage required by WFP to sustain the emergency 
operation.
    In addition, USAID provides support to nine U.N. agencies and 20 
non-governmental organizations for the continued provision of water, 
sanitation, primary health care, nutrition, shelter, protection, 
coordination, relief commodities, agriculture and food security 
support, income-generation and capacity building activities, and health 
and hygiene promotion. In Fiscal Year 2008, USAID anticipates spending 
approximately $82.5 million on non-food humanitarian assistance.
    In addition to direct assistance, USAID prioritizes advocacy for 
humanitarian issues in order to increase humanitarian security and 
access, prevent forced relocation of internally displaced persons 
(IDPs), provide support for IDP returns, and reduce governmental 
bureaucratic impediments. USAID continues to lead in addressing the 
environmental impact of the conflict through encouraging 
environmentally sound humanitarian practices. USAID will also plan and 
prepare for the transition from relief to recovery and development 
activities as security and the peace process progresses.

                               __________

            Prepared Statement of Hon. Christopher J. Dodd, 
                     U.S. Senator From Connecticut

    Mr. Chairman, I would like to thank you for holding this hearing 
today. The crisis in Darfur remains one of the greatest humanitarian 
disasters of our time, and I believe that it is vitally important the 
United States remains actively engaged in bringing to an end to one of 
the worst acts of genocide since Rwanda.
    For over 5 years now, the people of Darfur have endured repeated 
attacks from Sudanese Army soldiers and irregular forces known as the 
Janjaweed. Somewhere between one quarter and half a million Darfuris 
have been killed since the outbreak of hostilities, and over 2 million 
more have been driven from their homes and forced into refugee camps, 
many of which are filled beyond their capacity and cannot provide even 
basic services. Yet, despite the unmistakable signs of a humanitarian 
disaster, the United States and the International Community has been 
embarrassingly slow in addressing one of the greatest humanitarian 
challenges of the 21st century.
    What little progress that has been made, Mr. Chairman, has been 
agonizingly slow and inconsistent. UNAMID, the hybrid United Nations-
African Union force authorized by Resolution 1769, has been faced with 
continued opposition from Khartoum, and a shortage of just 24 
helicopters has left the force nearly immobile. The UNAMID force is 
plagued by shortfalls in equipment and logistical challenges, while 
violence continues to plague the region. Meanwhile, more than 2 million 
refugees continue to live in harsh conditions in refugee camps.
    While the Bush administration has openly called the conflict in 
Darfur a ``genocide,'' it has repeatedly opposed attempts to pressure 
Khartoum to stop the violence. The Bush administration strenuously 
opposed bipartisan legislation I authored in the Banking Committee and 
passed by Congress that provides a legal framework by which state, 
local governments, and other institutions can divest specific Sudan 
related investments from their portfolios. All of this while our own 
Justice Department suggested that the Government of Sudan should be 
treated with ``kid gloves.''
    More recently, the New York Times reported that the Bush 
administration has suggested it would normalize relations with Sudan in 
exchange for Khartoum honoring the mandate of U.N. Security Council 
Resolution 1769, never mind the fact that Khartoum has already promised 
it would abide by the resolution. How many more carrots will be 
offered, and then rejected by Khartoum as that regime refuses to 
address violence that has propagated within its borders? Where are the 
sticks? Where is the plan B that this committee was promised by the 
administration over a year ago?
    For far too long, the crisis in Darfur has been all but ignored by 
the United States and the International Community, and it has not 
received the diplomatic attention or humanitarian assistance the people 
of Darfur so desperately need. It is my sincere hope that this hearing 
will contribute to a fresh diplomatic offensive that can bring about a 
lasting peace to the people of Darfur and the surrounding region.
    I would like to thank the witnesses for appearing before this 
committee today and I look forward to their testimony.
                                 ______
                                 

               Prepared Statement of Hon. Barack Obama, 
                       U.S. Senator for Illinois

    Mr. Chairman, thank you for holding this important and timely 
hearing. All the proclamations, the ``Never Again'' speeches, and the 
efforts of many around the world have as yet failed to stop the 5-year-
long genocide in Darfur. The indiscriminate killing, raping, and 
displacement continue and are escalating. Only decisive and concerted 
action can end this genocide.
    To start, the U.S. must lead in supporting the full and effective 
deployment of the United Nations (U.N.)/African Union (AU) protection 
force and ensure that the Government of Sudan faces meaningful 
penalties for obstructing and delaying the deployment of this force. 
Ambassador Williamson should be commended for his efforts to support 
the rapid deployment of the African Union/United Nations operations in 
Darfur (UNAMID) peacekeepers. But the administration, led by President 
Bush and Secretary Rice, must do more to ensure the U.N. has the 
necessary equipment--especially helicopter support--to ensure the full 
mobility and effectiveness of UNAMID troops. The U.S. should also press 
for the unrestricted deployment of United Nations Mission in Sudan 
(UNMIS) forces in South Sudan to Abyei to help prevent the resumption 
of fighting in that fragile region where tensions are rising.
    I am deeply concerned by recent reports that the Bush 
administration is negotiating the normalization of relations and 
lifting of sanctions against the Government of Sudan in exchange for 
piecemeal and modest action on a narrow set of issues. The approach 
contradicts the resolute and clear policy required to improve 
conditions on the ground for those at risk. Khartoum has a long history 
of breaking its commitments to its own people and to the international 
community. There should be no reward for bad faith. The U.S. 
relationship with the Government of Sudan can only improve once 
conditions for the Sudanese people improve. I hope that this hearing 
will provide a clear explanation of how the administration's current 
strategy adheres to this commonsense principle.
    Those that continue to commit war crimes and obstruct peace and 
protection efforts must face significant penalties. The U.S. should 
lead in the U.N. Security Council to impose effective targeted 
sanctions and to curtail violations of the arms embargo through the 
U.N. Security Council Sanctions Committee and the U.S. Department of 
Treasury's Office of Foreign Assets Control. At the same time, the 
administration should urge the AU to rebuke Khartoum for its role in 
the attempted coup in Chad. The U.S. also needs to work with the 
International Criminal Court to ramp up the pace of indictments of 
those responsible for war crimes and crimes against humanity, while 
Khartoum must feel increased pressure to hand over those individuals 
already indicted by the Court.
    Lasting peace in Darfur and South Sudan can only be achieved 
through the unflagging commitment and cooperation of our government, 
other interested governments around the world, the U.N., the AU, the 
Arab League, and the EU, among others, and advocacy groups. A more 
comprehensive, consistent, and robust diplomatic effort is an important 
part of the way forward. U.S. leadership is urgently needed both to 
help construct a credible peace process for Darfur and to ensure the 
full and fair implementation of the Comprehensive Peace Agreement. The 
U.S. must work to ensure that a single mediator, actively supported by 
countries with significant leverage, emerges from the confusion that 
has characterized the Darfur peace process to date. Prime Minister 
Gordon Brown's offer to kick-start the process is helpful and should be 
explored. At the same time, Special Envoy Williamson should have 
sufficient staff and support to devote sustained attention to both the 
genocide in Darfur and the fraying North/South peace process.
    I am heartened that citizen pressure and activism all over the U.S. 
is having an impact. Divestment campaigns focused on schools, states, 
and mutual funds are gathering momentum. Well-targeted advocacy related 
to China's role in Sudan can help promote a more constructive attitude 
in Beijing. Activists--particularly religious groups--are helping to 
put the issue of the North/South peace deal back on the radar screen. 
And the antigenocide movement is growing by the day.
    It is long past time for the U.S. to exert effective leadership to 
end the first genocide of the 21st century and work to ensure that it 
is the last.

                                  <all>

</pre></body></html>
